<html>
<title> - WILDFIRE</title>
<body><pre>[Senate Hearing 113-492]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-492

                                WILDFIRE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

         WILDFIRE PREPAREDNESS AND FOREST SERVICE 2015 FISCAL 
                              YEAR BUDGET

                               __________

                             JULY 15, 2014
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       Printed for the use of the
               Committee on Energy and Natural Resources
                                    ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-554 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
               
 
 
 
 
 
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                   MARY L. LANDRIEU, Louisiana, Chair

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                Elizabeth Leoty Craddock, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Crapo, Hon. Mike, U.S. Senator From Idaho........................     9
Feinstein, Hon. Dianne, U.S. Senator From California.............     5
Flake, Hon. Jeff, U.S. Senator From Arizona......................     6
Gibbs, Dan, Commissioner, Summit County, Breckenridge, CO........    17
Landrieu, Hon. Mary L., U.S. Senator From Louisiana..............     1
McCain, Hon. John, U.S. Senator From Arizona.....................     7
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Pimlott, Ken, Director, California Department of Forestry and 
  Fire Protection (CAL FIRE), Sacramento, CA.....................    12
Tenney, David Porter, Navajo County Board of Supervisors, Navajo 
  County, AZ.....................................................    13
Thorsen, Kim, Deputy Assistant Secretary for Public Safety, 
  Resource Protection and Emergency Services, Department of the 
  Interior.......................................................    32
Tidwell, Thomas, Chief, Forest Service, Department of Agriculture    20
Udall, Hon. Mark, U.S. Senator From Colorado.....................    10

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    53

                              Appendix II

Additional material submitted for the record.....................    71

 
                                WILDFIRE

                              ----------                              


                         TUESDAY, JULY 15, 2014

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu, chair, presiding.

  OPENING STATEMENT OF HON. MARY LANDRIEU, U.S. SENATOR FROM 
                           LOUISIANA

    The Chair. Good morning, everyone.
    Let me welcome you all to our Energy and Natural Resource 
hearing on wildlife, fire preparedness and the Forest Service 
budget request.
    Let me welcome Senator Feinstein with us this morning.
    Senator McCain and Senator Crapo will be joining us very 
shortly.
    I want to thank all the senators for their leadership on 
this important issue that is so important to so many members of 
this committee and our Nation.
    I also want to thank our witnesses who will follow this 
distinguished panel for their knowledge and insight.
    Today we will explore the Forest Service and the Department 
of Interior's preparedness for the 2014 wildfire season and to 
consider the President's Fiscal Year 2015 budget proposal for 
the Forest Service. Many of our colleagues have sent letters 
calling for action. Today's hearing is a good opportunity to 
examine issues related to fire suppression and attempt to glean 
a deeper understanding of the extent of the problem and 
possible solutions.
    Fighting fires, wildfires, and funding fire suppression 
efforts have been an important issue in American politics for 
over 100 years.
    For just a brief historical context it was interesting to 
find that in 1886 Yellowstone's Civilian Superintendent 
abandoned their post over dispute in pay while fighting 3 large 
wildfires raged and threatened the Park. The county turned to 
the fighting men of the U.S. First Calvary under the command of 
Captain Moses Harris to meet the challenge. Although his men 
lacked the necessary training to fight wildfires Captain Harris 
led a successful effort to extinguish the fires and establish 
the first common sense anti-wildfire rule in our Nation's 
parks. In many ways his unit became America's first 
professional wildfire fighters.
    Today the Forest Service and the Department of Interior are 
responsible for funding and executing our fire prevention 
effort. The wildfire season, particularly in the West is 
becoming longer, the fires more intense. In 2013, for example, 
as I'm sure Senator Feinstein will point out, the Rim Fire in 
California's Sierra Nevada Mountains, the third largest in the 
State's history, burned 257,000 acres. For people in Louisiana 
that is almost the same as the entire city of New Orleans.
    Most tragically the 2013 Yarnell Hill Fire in Arizona which 
many of our members know firsthand about, claimed the lives, 
sadly and tragically, of 19 city of Prescott firefighters, 
members of the elite Granite Mountain Hotshots.
    In Louisiana and other parts of the country we understand 
the devastating impacts of natural disasters, particularly in 
Louisiana, better than most, unfortunately. We also understand 
that these catastrophic events are happening more frequently. 
They're becoming more intense. That our costs to clean up and 
recover goes up every year.
    Our wildfire suppression and prevention strategy must adapt 
to this new reality.
    We also must understand the smart prevention and a well 
resourced and timely response can make all the difference. The 
exponential growth in the cost of fighting larger and more 
intense fires has put a real strain on the budget of the Forest 
Service, in particular. In 1991 the Forest Service spent 13 
percent of its overall budget on wildfire management.
    But today that number is over 40 percent.
    In 1985 the average annual fire suppression cost the Forest 
Service and the Department of Interior roughly $630 million in 
2013 dollars. But last year that number more than doubled to 
1.7 billion.
    The Forest Service has also exceeded the amount of money 
appropriated for fire suppression in 8 of the last 10 years 
requiring it to transfer funds from other projects often 
referred to fire borrowing to cover emergency costs. Just last 
week we learned from the Administration that the Forest Service 
will need an additional $615 million to help fight fires this 
year with an early 50 percent of its initial fire suppression 
budget.
    Fire borrowing places a tremendous burden on a number of 
important service, Forest Service, priorities. The practice 
does not stop at the middle divide. Eastern and Southern States 
feel the impact of the shuffling of funding. In my State, for 
example, in Louisiana, over $130,000 in projects for wildlife 
management on almost 2,000 acres of the exquisite Kisatchie 
National Forest were canceled in 2013 because those resources 
were diverted to fight fire.
    In 2013 a 1,200-acre timber sale on the Kisatchie National 
Forest to improve wildlife habitat by thinning overstocked pine 
trees was delayed because resources were diverted to fight 
fires, costing jobs in our State. This happens in many other 
States when fire borrowing occurs. So we need a solution. We 
need a long term, cost effective solution to adequately fund 
fire suppression to avoid having to make painful cuts in 
essential programs elsewhere.
    Senators Wyden and Crapo, along with 13 of our colleagues 
including Senator Risch, Udall, Heinrich, Feinstein and Baldwin 
have introduced the Wildfire Disaster Funding Act that would 
categorize mega fires as natural disasters and fund their 
suppression under the disaster cap. It takes a whole Nation, in 
my opinion, including many agencies with proper resources and 
skills to effectively respond to and recover from natural 
disasters. This bill would categorize mega fires the same way 
we do hurricanes, catastrophic hurricanes and floods.
    A natural disaster is not the time to play politics with 
recovery money. People want us to send aid, not delay, while we 
look for offsets.
    Currently 1 percent of fires account for nearly 30 percent 
of the total suppression budget. Funding these efforts under 
the disaster cap would lessen the budgetary pressure on the 
Forest Service and free its budget to address a full range of 
important priorities. Because this legislation would calculate 
the cost related to fire suppression in the 10-year rolling 
average that sets the disaster cap adjustment each year, it 
ensures that fire suppression costs do not impede funds 
available for FEMA and the Disaster Relief Fund.
    This legislation enjoys the support of a broad coalition of 
senators on both sides of the aisle, the Administration and 
over 200 organizations such as the NRA, the Louisiana Forestry 
Association and the Sierra Club. This is a great example of 
bicameral, bipartisan legislation. I applaud Senators Wyden and 
Crapo for their efforts in this regard.
    Let me just give just a brief closing here. Turn to my 
Ranking Member and then we will recognize the distinguished 
senators that are with us.
    We should also look at how fire prevention programs can 
reduce the impact of dangerous wildfires across the country. As 
I've mentioned Kisatchie, I want to mention it just one more 
time. I was with the head of the Forest Service in Kisatchie 
that crosses 7 parishes in Louisiana.
    On that tour which was extremely enlightening I learned 
that the Forest Service when it purposefully burns lands it can 
significantly reduce the wildfires that rage out of control and 
keep good timber for cutting and keep people protected. I'm 
looking forward to hearing more about that today. I was 
particularly happy to have that personal tour just a few weeks 
ago.
    So let me turn to my Ranking Member, thank her for her 
cooperation and her advice on all these subjects. Then we will 
hear from the Senators.
    Senator Murkowski, thank you for joining us this morning.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Madame Chairman. I appreciate 
what we have in front of us today. Two very important 
interconnected topics that of wildfire preparedness as well as 
the budget request for the Forest Service for FY 2015.
    As you have noted, wild land fire is a significant part of 
what the Forest Service and the Department of Interior focuses 
on these days and the budget of the Forest Service, in 
particular, reflects that. You've mentioned the fact that about 
43 percent of the total budget of the Forest Service is 
consumed by fire fighting, up from 13 percent just 10 years 
ago. It would certainly appear that the situation is getting 
worse, not better.
    Fire suppression costs continue to rise due, in large part, 
to just 3 factors.
    The first is the unhealthy state of our forests. The Forest 
Service alone has nearly 65 to 85 million acres in the 155 
million acre National Forest system that is in need of 
restoration and management. The expansion of development in the 
wild land urban interface and then finally the changes in 
climate, that are bringing longer and more severe fire seasons.
    These escalating wildfire suppression costs are causing a 
financial crisis within the Forest Service. As you note, the 
Forest Service routinely exceeds its suppression budget causing 
it to transfer hundreds of millions from other important 
programs until some indeterminate date in the future. 
Ironically some of these transfers come from programs such as 
hazardous fuels that could actually reduce the costs of 
suppression in the long term.
    Madame Chairman, I think this is a bad way to budget. It 
really has very real, very negative consequences for the 
management of the non-fire programs. To manage efficiently and 
effectively these program accounts need to be free of the kind 
of disruption that fire borrowing causes.
    That is why I think everyone shares this primary goal of 
the fire cap adjustment proposal whether it's the one that is 
proposed by the Administration, the one that has been presented 
by Senators Wyden and Crapo or the one that Senator McCain is 
now adding into this mix. I think we would all agree that what 
we have to do here is we've got to stop the fire borrowing.
    So the bigger question then is how do we do this in the 
most fiscally responsible manner?
    We need a dialog. I think this is what we are starting. 
This is what, that is so necessary today.
    I do believe that we can reach a resolution of the issue 
that not only fixes the problem but is also politically tenable 
in the current fiscally constrained environment. We know that 
budgeting is about priorities. It requires us to be strategic 
and efficient with our limited resources.
    There are tradeoffs. We all recognize that. But I'm not 
sure that the choices that have been made in this budget are 
going to help the communities that are dependent upon our 
National Forest for economic survival. So we have to have a 
budget that provides the funding and the direction to actively 
manage for multiple use and that includes one that provides for 
a strong timber program, responsible natural resource 
development and quality recreation and wildlife programs.
    I will have an opportunity to speak with the Chief when he 
comes up in the second panel. I'm not particularly excited 
about some of the priorities that I'm seeing in his budget for 
Alaska. But we'll have an opportunity to discuss that. But I 
certainly appreciate the leadership of our colleagues here 
before the committee as we address this very, very difficult 
issue of fire borrowing.
    Thank you, Madame Chair.
    The Chair. Thank you, Senator.
    I'd like now to turn to Senator Feinstein for her opening 
statement and then later to introduce Chief Pimlott from the 
California Department of Forestry and Fire Protection, CAL 
FIRE.
    Next Senator Flake has asked to introduce Senator Mc Cain.
    Then we will turn to Senator Crapo for his remarks.
    Again, thank you, Senators, for taking the time to join us 
this morning and give us your thoughts and ideas about how to 
move forward.
    Senator Feinstein.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Madame Chairman.
    I really want to thank both you and the Ranking Member for 
your help with our drought bill. It would not have happened 
without you both. I know the end particularly that Senator 
Murkowski went to to reconcile anomalies or any problem in the 
bill. I'm very grateful for that. I think this is in the best 
interest of working together in the Senate.
    It's very difficult to overstate the risk of wildfire for 
my State. Since January of this year California has battled 
3,198 wildfires that burned 27,770 acres. There have been 
nearly 900 more fires in California this year as compared to an 
average wildfire year.
    Madame Chairman, you mentioned the Rim Fire. I will never 
forget when I was home for my birthday in June 2008 and on a 
single day in Northern California we had 20,000 lightning 
strikes that within 4 hours started 2,000 fires. It was a 
staggering event to see fire after fire erupt from these 
lightning strikes.
    The Forest Service reports that much of California faces 
heightened risk of wildfire for the remainder of this summer. 
With 33 million acres of forest land including 19 million acres 
managed by the Federal Government, California always faces a 
significant threat of wildfire. However the ongoing drought has 
greatly intensified the risk.
    Currently every county in California has been declared a 
drought disaster by Secretary Vilsack. The State's major 
reservoir levels are now at half or below of their historic 
levels. No significant rainfall is expected. 69 percent of our 
State, that's just about 70 percent of the State, is 
experiencing extreme drought conditions.
    Essentially California is primed for a major wildfire 
disaster. The 3 largest fires in California history have 
occurred in the last decade. The report also found that the 
annual acreage burned by wildfires after 2000 is almost twice 
as much as the period between 1950 and 2000, in other words, 
the last half of the century before the new decade.
    So what should we do?
    I think we've got to change our budgeting process for 
wildfire disasters as soon as we can. In 8 of the past 10 years 
Congress has had to provide between 2 \1/2\, excuse me, between 
200 million and a billion in supplemental funds for wildfire 
disaster relief. This year the Departments of Agriculture and 
Interior said in May that their programs expect to spend 470 
million more on fire suppression this year than they currently 
have on hand.
    So we never budget enough. I know when I was Chairman of 
the Appropriations Subcommittee, we constantly had to add 
supplemental moneys. So clearly, the way we budget needs 
reworking.
    I have joined Senator Wyden and Crapo as a co-sponsor of 
the legislation you mentioned, Madame Chairman. This bill would 
pay for the most destructive wildfires out of the Disaster 
Relief Fund which is the same way we currently pay for other 
natural disasters like hurricanes, floods and earthquakes, but 
not severe fire. As a member of the Appropriations Committee, I 
hope we can prioritize funding for programs that help prevent 
wildfires including hazardous fuels removal and forest health.
    But we've got to be more proactive. We've got to fix the 
budgeting problem. It's only a matter of time until another 
destructive fire ravages the West. So I hope that Congress can 
act quickly on the Wyden/Crapo bill. I would also note that I 
strongly support the President's supplementary request for 615 
million in wildfire suppression.
    Now I am also very pleased to introduce the gentleman 
sitting next to me. His name is Chief Ken Pimlott. He is the 
Director of the California Department of Forestry and Fire 
Protection known as CAL FIRE. He oversees a total of 7,000 
California fire fighters. So it is a very major department.
    He has served as the Director of CAL FIRE since July 2011. 
He served California as a fire fighter for 30 years beginning 
as a reserve fire fighter with the Contra Costa Fire Protection 
District. He joined CAL FIRE in 1987 as a seasonal fire fighter 
in the Tulare unit.
    Since then he's held a variety of management and fire 
protection roles in CAL FIRE including the Assistant Deputy 
Director, Pre Fire Management Division Chief and Program 
Manager for Cooperative Fire Protection Programs.
    Chairman Landrieu and Ranking Member Murkowski and members, 
I'd really like to thank you for this. I'm very pleased to have 
the opportunity to introduce a distinguished Californian. I 
look forward to the results of this hearing.
    So, thank you very much.
    The Chair. Thank you very much.
    Chief, we'll receive your testimony after the Senators have 
completed theirs.
    Senator Flake, you wanted to introduce Senator McCain?

          STATEMENT OF HON. JEFF FLAKE, U.S. SENATOR 
                          FROM ARIZONA

    Senator Flake. Yes, very, very briefly.
    Senator McCain has often said that the battles in Arizona 
and in the West in the next century will be over fire and 
water. Last week we joined together to work on a water 
settlement to benefit the Hualapai Tribe. This week it's fire.
    Senator McCain has, as you mentioned, Madame Chair, has 
introduced, along with myself and Senator Barrasso, the FLAME 
Act amendments, S. 2593. I'm pleased to join him on that. I'll 
let him talk about the specifics. But I believe it directly 
addresses this fire borrowing problem that we have.
    Also like to welcome Dave Tenney here. Dave and I graduated 
from Snowflake High School. Dave, I understand, has postponed a 
trip to see his first grandson to be able to be here to 
testify. So, appreciate that, Dave.
    Dave has since moved on and is coaching high school at a 
rival school, exhibiting questionable judgment there. But on 
fire and on these issues he's very good.
    He saw the effects of the Rodeo-Chediski Fire, also the 
Wallow Fire and has been very instrumental in helping the White 
Mountain Stewardship contract work in his role with Navajo 
County. We've seen a big fire just in the last couple of weeks. 
It was a lot less than it would have otherwise been were it not 
for the work that is done under the White Mountain Stewardship 
contract.
    So, pleased to have Dave here.
    Thank you, Madame Chair, for letting me do this.
    The Chair. Senator McCain.

          STATEMENT OF HON. JOHN MCCAIN, U.S. SENATOR 
                          FROM ARIZONA

    Senator McCain. Thank you, Madame Chairman, for the 
opportunity to say a few words at today's hearing. I know 
you'll agree with me when I say that wildfires are the 
predominant issue, fire and water, for Western States in the 
21st century. I'm grateful the committee is holding this 
hearing on wildfire funding needs of the Forest Service. I'm 
appreciative.
    I had no idea that you went to high school with Senator 
Flake. I'm glad you've done so well.
    [Laughter.]
    Senator McCain. You're going to receive testimony from the 
Navajo County Supervisor, David Tenney, who is from Show Low. 
He's fought to bring some remarkable forest treatment projects 
to Arizona like the Four Forest Restoration Initiative and the 
White Mountain Stewardship Contract which was industry led 
forest treatment projects on large landscape levels.
    Everybody knows wildfires have increased dramatically in 
size, severity and cost over the past few decades. In recent 
years we've seen wildfires consume up to 9 million acres during 
an extreme wildfire season. Cost over $2 billion to suppress. 
Roughly 40 percent of the Forest Service budget.
    Compare that to the fires of the 1980s and 1990s which 
averaged around 3 million acres per year and cost around $700 
million to fight or roughly 15 percent of the budget.
    Madame Chairwoman, I watch my home State of Arizona burn 
every summer. I'm frustrated beyond words with the slow pace of 
forest thinning projects across the West. It's not just 
property as the Chairwoman and every member is aware, we lost 
19 brave fire fighters a year ago in a terrible tragedy in 
Prescott and Yarnell, Arizona.
    In my home State of Arizona, over 20 percent of our prime 
forests have been destroyed as we are struggling to thin 2.4 
million acres for forest land in Arizona. So far of the 2.4 
million acres we want thinned, we've thinned about 40,000 
acres. That's not going to get it.
    Arizona statewide landscape scales forest restoration 
program, nationally, the Forest Service estimates that about 
62.5 to 82 million acres of National Forest lands are in need 
of forest thinning. So far 23 million acres have been 
completed.
    I understand that the Administration and some in Congress 
propose for the wildfire funding issue by categorizing wildfire 
appropriation under FEMA's Disaster Relief Fund, placing 
billions of dollars of suppression costs, ``off budget.'' I 
agree that catastrophic wildfires are disastrous, perhaps less 
natural disaster and more manmade disaster in many cases.
    Yes, wildfires deserve some level of budget flexibility. 
But unlike hurricanes and earthquakes the Federal Government 
can take action to reduce wildfire severity through forest 
thinning. I have concerns about the Administration's proposal 
because it essentially throws billions of dollars at wildfires 
year after year and fails to address the rising suppression 
costs.
    Senator Barrasso, Senator Flake and I have introduced the 
FLAME Act that would require the Forest Service to budget for 
100 percent for suppression needs using the most accurate peer 
reviewed budget model available to the Administration. It 
allows for some limited access to budget cap exceptions for 
extreme wildfires. But it also requires appropriators to invest 
in hazardous fuels reduction projects.
    We believe industry can play a vital role in thinning our 
forests faster and more cost effectively than the Federal 
Government. Our bill proposes to expedite environmental 
procedures for treatment projects. The proposal will require us 
to make tough choices about which Forest Service programs are 
spending priorities.
    Until we responsibly restore our forest ecosystems to their 
natural state, I see no higher priority for the Forest Service 
than putting out wildfires and thinning out forests.
    I thank the committee for allowing me to speak. I know that 
the Chairwoman knows and I know other members, many of whom are 
from the West, know the devastation of forest fires and not as 
in the fires themselves, but the landslides afterwards, the 
ecological disaster, the environmental disaster, the wildlife, 
the list goes on and on of the terrible tragedies that ensue 
after these forest fires end.
    If it keeps up the way it is, it is literally going to 
consume every one of our national forests, at least in the 
West. Obviously something has to change and change drastically. 
So I appreciate the committee and their commitment and yours, 
Madame Chairwoman, on this very vital issue.
    I thank you.
    The Chair. Thank you, Senator McCain.
    Let me assure you that I and the Ranking Member and the 
members of this committee take this issue very seriously. We 
are very sympathetic to the challenges in Arizona, 
particularly, with the drought, the fires and the immigration 
issue. Your team is working double time. We're going to do 
everything we can to assist you.
    Senator Crapo, we're happy to have you today.
    Then Senator, I think Udall, wants to introduce Mr. Gibbs.
    Senator.

          STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR 
                           FROM IDAHO

    Senator Crapo. Thank you very much, Chairman Landrieu and 
Ranking Member Murkowski for holding this important hearing on 
how our Nation budgets for seasonal wildfires.
    I appreciate you providing me with the opportunity to speak 
about a measure that I co-sponsored with Senators Ron Wyden and 
Jim Risch, along with a number of other bipartisan members of 
the Senate.
    S. 1875, the Wildfire Disaster Funding Act would fix a 
fundamental flaw in how our country funds wildfire suppression. 
By way of context it's important to note that the National 
Interagency Fire Center reported that last year there were more 
than 47,000 wild land fires nationwide that burned 4.3 million 
acres. More than 722,000 of those acres burned in my home State 
of Idaho alone.
    I just reviewed the statistics for this year. The wildfire 
season is already well underway in Idaho. As I'm sure it is in 
a number of other places in the country.
    As more resources go toward fire suppression resources that 
could be used to implement projects that improve forest health, 
benefit forest communities and enhance public safety are 
squeezed. In fact in 8 of the past 10 years Federal agencies' 
fire suppression efforts have been under budgeted which has led 
to resources being taken from important projects to cover the 
Federal Government's response to the wild land fires.
    For example, in fiscal year 2013 Federal agencies borrowed 
more than $600 million from other accounts to cover the costs 
of fire suppression. Such fire borrowing is disruptive to 
important forest management missions including activities such 
as thinning that would both reduce the occurrence and the 
severity of the fires and drive down suppression costs.
    In one of the many disruptions in Idaho fire borrowing has 
meant that the Forest Service was unable to meet noxious weed 
commitments and reduce hazardous fuels while wildlife habitat 
treatment projects went unfinished.
    In Louisiana, Chairman Landrieu, I understand you've 
already made this point, a 1,200-acre timber sale on the 
Kisatchie National Forest that was intended for critical 
habitat for the Red Cockaded Woodpecker was disrupted.
    Ranking Member Murkowski, timber projects and sale 
activities have been disrupted in Alaska, as you know, in each 
of the past 2 years, at least because of the fire borrowing.
    These events have serious economic consequences for the men 
and women who work in the logging industry and the many mills 
that depend on the timber they produce. What's worse is that 
Congress must restore this funding through off budget emergency 
spending which is ineffective and bad budget policy.
    The Wildfire Disaster Funding Act would give more--give 
firefighters and land managers more tools for efficient and 
effective fire management and strengthen our fire prevention 
efforts.
    Our bill would better limit the reallocation of resources 
away from fire prevention and hazardous fuels reduction 
projects which reduce the cycle of costly fires.
    It would also help cover the under budgeted and growing 
cost of fire suppression. Importantly our bill would improve 
the way wildfire suppression is funded without increasing 
Federal funding.
    As the Congressional Budget Office analysis concluded, our 
bill would not score. It will not increase the deficit. The CBO 
explicitly states that S. 1875 would have no effect on the 
Federal budget.
    This measure accomplishes this by enabling emergency fire 
events to be treated like other major natural disasters by 
supporting these emergency wildfires through existing disaster 
programs. Emergency fire events would be funded under disaster 
programs and the routine wild land firefighting costs would be 
funded through the regular budgeting process. By allocating 
funding for wildfire suppression from within existing disaster 
funding limits the legislation does not increase Federal 
funding.
    Another fire season has already begun and conditions are 
concerning. The National Interagency Fire Center reports that 
fuels and drought conditions across the West point to a 
condition that would support a greater than usual likelihood of 
significant fire.
    We must take steps now that will put us on improved footing 
to face current and future fires.
    We must now act to ensure that those protecting our 
communities have the resources necessary to decrease the threat 
of fires and to respond to wild land fires.
    Firefighters, land managers and forest communities deserve 
assurance that steps will be taken to continually improve the 
Federal response to wildfires. Our legislation would assist 
with that effort. Our bill enjoys wide support from both sides 
of the aisle and both chambers of Congress and from more than 
230 timber, sportsmen and conservation groups.
    Again, Madame Chairman and Ranking Member, I appreciate the 
opportunity you've given me to speak to you today on this 
important and critical issue and appreciate your attention to 
it.
    Thank you.
    The Chair. Thank you very much, Senator.
    Senator Udall is going to take a moment now to introduce 
Mr. Gibbs, at his request.
    Then we're going to start Chief, with you, for your 
testimony.
    We have a second panel, so we're going to move through this 
hearing pretty quickly. We're going to try to adjourn at 12:15 
because votes have been called at 12 o'clock.
    Senator Udall.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. Thank you, Madame Chair.
    I want to thank you and Senator Murkowski for responding to 
my request in holding this hearing. Wildfire, the state of our 
forests and what we can do to protect our communities and our 
water supplies is a critical issue in Colorado and across the 
West, as we've heard from all of our colleagues.
    I'm here not only as a Coloradan but as someone whose home 
has been subject to a wildfire evacuation order. In Colorado 
the question is not if we will have another mega fire, it's 
when. Coloradans understand that there's no greater threat to 
our special way of life, our water supplies and communities 
than wildfire.
    Indeed, places like my home town of El Dorado Springs and 
other cities and towns across our State are increasingly living 
under the threat of wildfire. But we're making progress. For 
example, I'm pleased that in the new Farm bill that the 
forestry title includes many provisions that support more on 
the ground work and streamlining the agency processes. Some of 
these, such as the Good Neighbor Authority and Stewardship 
Contracting are provisions that I've worked on for years and 
have been proud to work in a bipartisan manner with my 
Republican colleagues such as Senator McCain and Senator 
Barrasso.
    This winter I had the opportunity to sit down with 
community leaders for a round table discussion about wildfire 
and forest health in Frisco, Colorado. Frisco is a thriving 
community in the heart of Colorado ski country. I hope you all 
have been there. If you haven't, you have to go to Frisco. But 
it's also in the middle of the bark beetle epidemic that's 
decimated over 4 million acres of forests in my State alone.
    Now Dan Gibbs, the Summit County Commissioner, who is here 
to testify today, was at that meeting. We heard about a slew of 
great projects, as Dan knows, and great ideas that the 
community is leading to become safer and more sustainable. 
However, I heard over and over that the U.S. Forest Service 
can't serve as a reliable partner because of its outdated and 
profoundly broken wildfire budgeting system.
    That's why I've been right in the middle of leading 
bipartisan efforts here in Congress to fundamentally change and 
modernize how the Federal Government funds wildfire fighting 
and prevention programs so that they're treated like other 
natural disasters such as hurricanes and tornadoes. As we've 
heard, this approach has been endorsed by over 120 Members of 
the Congress, both Republicans and Democrats and 200 groups 
ranging from the timber industry to the environmental 
community. As the Denver Post Editorial page put it this past 
weekend, ``Using disaster fund money for wildfires could solve 
a lot of problems long term and we hope Congress sees it that 
way.''
    Some of the problems that could be solved include freeing 
up the National Forest to reduce hazardous fuels, provide 
quality recreation experiences and provide the timber supply to 
sustain a diverse forest products industry while also providing 
safe, modern air tankers to keep our communities and fire 
fighters safe. This is the fiscally responsible thing to do. 
Study after study shows that for one dollar we spend on 
mitigation and prevention we save $4.00 later.
    I'm excited to have been able to invite Commissioner Gibbs 
to share his experiences with us. He's an expert on this issue 
in every sense of the word. He's a wild land firefighter, 
former State legislator, who led the State's early efforts to 
battle the bark beetle epidemic and he now serves the residents 
of Summit County, a place that's dependent on healthy forests 
and the outdoor recreation economy.
    So again, I want to thank you, Commissioner, for traveling 
to Washington to share your perspective on these crucial issues 
with this committee.
    Thank you, Madame Chair.
    The Chair. Thank you, Senator Udall, for your leadership, 
for requesting this meeting, for your consistent leadership on 
this issue and for your introduction of Mr. Gibbs.
    Chief, we'll begin with you.
    If you all can limit to, I think, 5 minutes?

 STATEMENT OF KEN PIMLOTT, DIRECTOR, CALIFORNIA DEPARTMENT OF 
    FORESTRY AND FIRE PROTECTION (CAL FIRE), SACRAMENTO, CA

    Mr. Pimlott. Absolutely.
    Good morning, Madame Chair and members of the committee, 
Ken Pimlott, Director of CAL FIRE.
    I think all of the testimony so far has really hit the nail 
on the head and hit the mark for the conditions that we're 
facing in the West with drought and 3 years of unprecedented, 
below normal precipitation. California and many of the other 
Western States are facing unprecedented fire conditions. 
Literally as we speak today several large fires are burning in 
California, Oregon and Washington.
    Again 3 years of critically low precipitation has left 
vegetation parched and ripe to burn. Senator Feinstein talked 
about 2008 where we had 2,000 fires started from a lightning 
event in just a 4 hour period. We are literally just 4 hours 
away from a similar event that the fuel conditions are very, 
very similar, if not worse than they were then.
    So far as a result Southern California has been in a 
continuous fire season since April of last year.
    Almost 2,000 acres burned on the Angeles National Forest on 
January 16th, winter.
    San Diego experienced devastating Santa Ana wind driven 
fires in May, a phenomenon that normally occurs in the fall 
months.
    Northern California experienced large fire activity 
beginning in January with fires on the Lhasa National Forest 
and in Humboldt County, normally one of the wettest places in 
the country in January.
    The number of fires so far this year, as Senator Feinstein 
pointed out, is well above average. They are burning with a 
speed and intensity that we would normally see at the peak of 
the summer and fall months, literally spotting well ahead of 
the fire but consuming the fuel right down to the soil.
    We didn't get to these conditions overnight. During the 
last 4 decades the average length of fire season has increased 
by over 70 days throughout the West. As we experience the 
impacts of climate change and periodic drought the frequency 
and size of wildfires will only increase into the future.
    Therefore it is critical that we continue to invest in 
forest management, fire prevention, fuels treatment and a 
strong wildfire response. The Western Governors Association, 
the National Association of State Foresters, organizations that 
California actively participates in, support S. 1875 as a 
solution to this challenge. A Federal budgeting mechanism that 
fully funds wild land fire response is critical to successfully 
addressing this growing wildfire challenge.
    An emergency or reserve fund, similar to what California 
utilizes to address its extraordinary wild land, firefighting 
costs, is important so that emergency firefighting costs on 
Federal responsibility areas do not impact the Federal funds 
budgeted for forest health, vegetation management and fire 
prevention program activities. It takes all of these efforts 
combined to combat the extraordinary conditions that we're 
seeing the West.
    Thank you again for the opportunity to share comments 
today.
    [The prepared statement of Mr. Pimlott follows:]
 Prepared Statement of Ken Pimlott, Director, California Department of 
        Forestry and Fire Protection (CAL FIRE), Sacramento, CA
    Senator Feinstein hit the mark with her comments. California, as 
well as other western states, is facing unprecedented fire conditions. 
As we speak today, several large fires are burning in the State.
    Three years of critically low precipitation have left vegetation 
parched and ripe to burn.
    As a result, Southern California has been in continuous fire season 
since April of last year (2013). Almost 2000 acres burned on the 
Angeles National Forest on January 16th. San Diego experienced 
devastating Santa Ana wind driven fires in May, a phenomenon normally 
reserved for the fall months.
    Northern California experienced large fire activity beginning in 
January, with fires on the Lassen National Forest and in Humboldt 
County, normally one of the wettest places in the country.
    The number of fires so far this year is well above the average and 
they are burning with a speed and intensity that would normally occur 
in the peak of summer or fall.
    We did not get to these critical conditions over night. During the 
last four decades, the average length of fire season in the west has 
become over 70 days longer.
    As we experience the impacts of climate change and periodic 
drought, the frequency and size of wild fires will only increase in the 
future.
    Therefore, it is critical that we continue to invest in forest 
management, fire prevention, fuels treatment and a strong wildfire 
response.
    The Western Governors Association and the National Association of 
State Foresters, organizations that California actively participates 
in, both support S.1875 as a solution.
    A federal budgeting mechanism that fully funds wildland fire 
response is critical to successfully addressing this growing wildland 
fire challenge.
    An emergency or reserve fund, similar to what California utilizes 
to address the extraordinary costs of wildland firefighting, is 
important so that emergency firefighting costs in federal 
responsibility areas do not impact the federal funds budgeted for 
forest health, vegetation management and fire prevention program 
activities.
    It takes all of these, combined, to combat the extraordinary 
conditions we are seeing in the west.

    The Chair. Thank you very much, Chief.
    Mr. Tenney.

   STATEMENT OF DAVID PORTER TENNEY, NAVAJO COUNTY BOARD OF 
                    SUPERVISORS, NAVAJO, AZ

    Mr. Tenney. Thank you.
    Madame Chairwoman and committee members, thank you for the 
invitation to address you today. For the record, my name is 
David Porter Tenney. I am a member of the Board of Supervisors 
in Navajo County which is located in Northeastern Arizona.
    I appreciate Senator Flake and Senator McCain having me 
here today. As far as football season is concerned we'll have a 
gentleman's wager a little later on on which team will actually 
get it done this year.
    I will begin by stating that the Forest Service budget has 
a direct impact on the safety and economic prosperity of my 
county. I'm no stranger to wildfires or the need to better 
manage our forests. The 468,000-acre Rodeo Chediski Fire of 
2002 burned in my county and nearly destroyed my home. The 
538,000-acre Wallow Fire of 2011 burned in two of my 
neighboring counties.
    The footprints left by these two fires could comfortably 
hold the Cities of Phoenix, Chicago, Dallas and Los Angeles. 
The cost to fight and recover from the fires was over $230 
million, not to mention the value of 4 million board feet of 
timber that was destroyed and the nearly 500 homes that were 
lost.
    As a participant of Arizona's 4 forest restoration 
initiative I have strongly argued that forest industry is the 
key ingredient for managing our forests. Fire suppression alone 
cannot and should not be the primary focus. We spend way too 
much time and money on putting out burning trees instead of 
cutting them and putting them to good use.
    Cutting trees saves our forests. It saves our watersheds. 
It saves our communities. It improves our economy. It creates 
jobs and it saves money.
    Thinning the forest is just smart. It is responsible. It 
produces measureable results.
    I have reviewed the amendment introduced by Senators 
McCain, Flake and Barrasso, the FLAME Act amendments. I believe 
they have identified a solution. While I appreciate the 
Administration's proposal to spend more money on suppression I 
would prefer a more fiscally sound way to address rising 
wildfire costs. In addition the Administration's proposal does 
not guarantee forest thinning projects, but they will move 
forward aggressively like the McCain, Barrasso and Flake 
proposal.
    Our combined mistakes in forest management have changed 
rural counties like mine. I am tired of watching my State burn. 
We must make a significant departure from the present way of 
dealing with landscape wildfire.
    Let me give you one recent example that illustrates why 
forest thinning is a cost effective way to prevent fires. The 
San Juan Fire started June 26 of this year on the White 
Mountain Apache Reservation and entered the Apache Sitgreaves 
National Forest soon after. The causes of this fire is under 
investigation but the fire is now been contained at about 7,000 
acres.
    The San Juan Fire cost $6.5 million dollars to fight. That 
is a cost of $932 dollars an acre to burn trees. If we were to 
spend that same $6.5 million on NEPA and forest treatment, the 
Apache Sitgreaves would get 50,000 acres cut and put money into 
the Treasury. Fifty thousand acres of treated forest is better 
than 7,000 acres of nothing, especially when our region of 
Arizona has multiple sawmills predicting a short fall of timber 
supply this fall.
    Let me reiterate that. We could spend on average $128 an 
acre in preparing, studying and selling these acres for 
treatment or 932 an acre to put out a fire. Even my Snowflake 
High School math tells me that's pretty easy decision to make.
    Areas where thinning and prescribed fire treatments have 
been implemented under the White Mountain Stewardship Contract 
modified the San Juan Fire's behavior so that suppression 
resources were able to successfully engage the fire. Fire 
behavior in the treated areas were significantly reduced with 
maximum rates of spread of one to two miles per hour, flame 
lengths of 8 to twelve feet and spotting distances of 150 to 
200 feet.
    In untreated areas the spread was twice as fast. The flame 
lengths were ten times as long and spotting was as much as a 
half mile.
    Certain portions of the fire spread were entirely stopped 
by forest thinning and allowed firefighters to quickly and 
safely contain the fire by utilizing hand lines, dozer lines 
and burning out along the road system in these treated areas. 
However, it was not enough to prevent two spotted owl packs 
from being destroyed.
    Madame Chairwoman and committee members, to a large extent 
the rural communities of the Nation were founded on and exist 
from the use of the abundant natural resources that surrounded 
them. We know that thinning the forest works. It saves money. 
It makes money. Yet we currently have a system in place that 
misuses taxpayer dollars and gives no chance of improving the 
situation.
    Right now there's a system in place which is called fire 
borrowing. The Forest Service and local supervisor and their 
staff typically get their budget sometime in April or May. 
That's about 8 months into the fiscal year. Then they have 
about 2 months to initiate contracts and other hazardous fuel 
treatments and work significant portions of the budget--before 
significant portions of their budget get pulled by the 
Washington office for fire suppression.
    After the fire season, if there's anything left, these 
funds are taken or then redistributed. This isn't called fire 
borrowing. We call it fire plundering because we know that the 
local forest supervisor and their staff rarely get back what 
was borrowed.
    Usually when you borrow something you give back more than 
you take. We call that interest. But right now I can't find any 
interest that is served if we don't apply the sound managerial 
and fiscal policy that is being proposed by this amendment.
    I support Senators McCain and Flake and Barrasso and the 
legislation they propose because it bans fire borrowing and 
requires the Forest Service to fully fund suppression costs 
with a two to one ratio.
    The Chair. Can you try to wrap up? It's excellent.
    Mr. Tenney. One more paragraph.
    The Chair. Go right ahead.
    Mr. Tenney. Thank you.
    I understand there are a lot of other worthy Forest Service 
programs that need funding, but fighting fires and thinning our 
forests should be the agency's highest priority. We have proof 
that treatment works and dramatically cut down the cost of 
suppression in the future. The solution to catastrophic fire is 
getting industry back into the forest to thin the trees in an 
ecologically and socially sustainable way. Their bill leads us 
down this path.
    Madame Chairwoman, thank you for the opportunity to speak 
today.
    [The prepared statement of Mr. Tenney follows:]
   Prepared Statement of David Porter Tenney, Navajo County Board of 
          Supervisors, Navajo County, Holbrook, AZ, on S. 2363
    Mr. Chairman, and Committee members, thank you for the invitation 
to address you today. For the record, my name is David Porter Tenney, 
and I am a member of the Board of Supervisors in Navajo County, which 
is located in northeastern Arizona.
    I will begin by stating that the use of forest industry is the key 
ingredient for managing our forests. Fire suppression cannot, and 
should not be the primary focus. We spend way too much time and money 
on putting out burning trees instead of cutting them and putting them 
to good use. Cutting trees saves our forests, it saves our watersheds, 
it saves our communities, it improves our economy, it creates jobs and 
it saves money. Thinning the forest is smart. It is responsible and it 
produces measureable results. I have reviewed the Amendment to the 
Bipartisan Sportsmen's Act of 2014 introduced by Senators McCain, Flake 
and Barrasso and I believe they have identified both the problem and 
the solution.
    The management of natural resources has become critically important 
to rural areas across the Country. The 468,000 acre Rodeo-Chediski Fire 
of 2002 burned in my county and nearly destroyed my home; and the 
538,000 acre Wallow Fire of 2011 burned in two of my neighboring 
counties. The footprints left by these two fires could comfortably hold 
the cities of Phoenix, Chicago, Dallas and Los Angeles and the cost to 
fight and recover from the fires was over $230,000,000. The fires 
destroyed more than 4 billion board feet of timber, and destroyed over 
400 homes.
    Our combined mistakes in forest management have changed rural 
counties like mine, and I am tired of watching my State burn. Starting 
with the legislation introduced by Senators McCain, Flake and 
Barrasso--we must make a significant departure from the present way of 
dealing with landscape wildfire.
    Let me give you one recent example that illustrates why. The San 
Juan Fire started on June 26, 2014, on the White Mountain Apache 
Reservation and entered the Apache-Sitgreaves National Forest soon 
after detection. The cause is unknown and under investigation, but the 
fire has now been contained at approximately 7,000 acres. The San Juan 
Fire cost $6,500,000 to fight. That is a cost of $932.00 an acre to 
burn trees. If we were to spend that same $6,500,000 on NEPA and forest 
treatment, the Apache-Sitgreaves could get 50,000 acres cut and put 
money into the Treasury. 50,000 acres of treated forest is better than 
7,000 acres of nothing. Especially when our region of Arizona has 
multiple saw mills predicting a shortfall of timber supply this fall. 
Let me reiterate that. We could spend, on average, $128.00 per acre in 
preparing, studying and selling acres for treatment in the Apache-
Sitgreaves National Forest or spend hundreds more per acre in 
suppression and no production. That is not the right plan, but it 
illustrates the problem across the Country.
    Areas where thinning and prescribed fire treatments had been 
implemented under the White Mountain Stewardship Contract modified the 
San Juan Fire's behavior so that suppression resources were able to 
successfully engage the fire. Fire behavior in the treated areas were 
significantly reduced with maximum rates of spread of 1-2 mph, maximum 
flame lengths of 8-12 feet, and spotting distances of 150-200 feet. In 
most instances, the treated areas burned at about 1-2 feet high and 
will produce a beautiful and clean forest. In untreated areas the 
spread was twice as fast, had flame lengths 10X as high and spotting of 
half a mile. Certain portions of the fire's spread were entirely 
stopped by the forest thinning, and allowed firefighters to quickly and 
safely contain the fire by utilizing hand-lines, dozer-lines, and 
burning out along the road system in these treated areas, however, it 
was not enough to prevent two spotted owl packs from being destroyed.
    Mr. Chairman, and Committee members, to a large extent, the rural 
communities of the Nation were founded on, and exist from, the use of 
the abundant natural resources that surrounded them. We know that 
thinning in the forest works, it saves money--it makes money, and yet 
we currently have a system in place that misuses the taxpayer's 
dollars--and gives no chance of improving the situation.
    Right now, there is a system in place which is called ``fire 
borrowing''. In the Forest Service, a local Forest Supervisor and their 
staff typically get their budget sometime in April or May of a given 
year. That is about eight months into the fiscal year. They then have 
about two months to initiate contracts and other hazardous fuel 
treatment work before significant portions of their budget get pulled 
out by the Washington Office for fire suppression across the Country.
    After the fire season, if there is anything left, the funds that 
were taken are then redistributed. I don't call this situation ``fire 
borrowing'' I call it ``fire plundering,'' because we know that the 
local Forest Supervisor and their staff rarely get back what was 
``borrowed''. Usually, when you borrow something you give back more 
than you take. We call that interest. But right now, I can't find any 
interest that is served if we don't apply the sound managerial and 
fiscal policy that is being proposed with this amendment.
    I support Senators McCain, Flake and Barrasso and the legislation 
they have proposed. Requiring that the equivalent of at least half of 
the cost of suppression go to treatment will dramatically cut down on 
the cost of suppression in the future. We have proof that treatment 
works. The solution to catastrophic wildfire is getting industry back 
into the forest to thin the trees in an ecologically and socially 
sustainable way. This amendment leads us down that path.
    Mr. Chairman, and Committee members, as a county supervisor who has 
seen and experienced the consequences of a forest that is not permitted 
to be properly managed, I implore you to move this amendment forward.
    Thank you for this opportunity. I would be happy to stand for any 
questions.

    The Chair. Mr. Tenney, thank you for that excellent 
testimony. I tend to agree with a great deal of what you said. 
I promise you, we will address it as quickly as we can.
    Mr. Tenney. Thank you.
    The Chair. Mr. Gibbs.

     STATEMENT OF DAN GIBBS, COMMISSIONER, SUMMIT COUNTY, 
                        BRECKENRIDGE, CO

    Mr. Gibbs. Thank you, Chairman Landrieu, Ranking Member 
Murkowski, members of the committee. It's a great honor to come 
before you today. My name is Dan Gibbs. I'm a County 
Commissioner from Summit County, Colorado, but also a wild land 
firefighter.
    This committee will have the benefit of hearing from 
Federal land managers to paint the larger picture of the 
wildfire budgeting system. I'd like to share with you how this 
current system impacts local Colorado communities.
    Summit County is semi-rural community located in the heart 
of the Rocky Mountains, serving as a year round, international 
destination for outdoor recreation. It's home to the world 
known ski areas of Breckenridge, Keystone, Copper Mountain and 
Arapaho Basin. The county's permanent population totals about 
30,000 people, but it swells to about 160,000 during peak 
seasons.
    80 percent of Summit County's land mass is Federal lands 
including 312,000 acres of the White River National Forest. The 
White River National Forest spans 2.3 million acres across 
North Western Colorado and receives more than 12 million 
visitors per year. This is more visitors than Yellowstone, 
Yosemite, Grand Canyon National Parks combined. It's the 
busiest national forest in the system.
    The natural environment housed in the White River National 
Forest is the foundation of our local economy and our 
community's cultural identity. It also serves as the largest 
drinking water supply for the Denver metro area. As such local 
government agencies and private businesses in Summit County 
have strong working relationships with local forest managers in 
our mutual efforts to provide world class recreation, clean 
water and healthy forests.
    From this perspective the current model for funding the 
response to wild land fires is extremely judgmental to 
Colorado's economy and quality of life. In recent years the 
White River National Forest has been subject to successive 
rounds of budget cuts that hamper the agency's ability to carry 
out essential day to day operations, further exacerbating the 
situation as what's known as fire borrowing in which local 
forest budgets are raided to fund the national response to 
wildfires across the country.
    Last year our local forest unit had over 480,000 
transferred from its normal operating budgets to support 
wildfire response efforts. As a result we saw reductions in 
trail maintenance, recreation facility maintenance, forest 
health work, invasive species control, fish and wildlife 
restoration. These reductions have clear negative impacts to 
recreation and local economies in the immediate term. Their 
effects will be felt years and decades into the future as we 
fail to seize windows of opportunity to protect critical 
habitats, safeguard our water supplies and prevent the 
wildfires of tomorrow.
    As wild land fires grow larger and more destructive we 
cannot continue to fight them by picking the pockets of our 
public land agencies. This short sighted approach diverts 
critical funding sources to the symptoms of this problem, 
hobbling our thoughtful plans for mitigation and prevention on 
the front end through fuels reduction.
    Adding urgency to the subject, some counties at the 
epicenter of Colorado's massive Mountain Pine Beetle epidemic 
which has left millions of acres of dead trees in its wake. For 
the last 8 years we've worked cooperatively with U.S. Forest 
Service, Colorado State Foresters, local fire districts, 
private landowners, to deal with the impacts of this epidemic 
and to create a forest condition that will be more resilient to 
catastrophic wild fires and future insect disease outbreaks. 
This effort is so important to our community that in 2008 
Summit County voters overwhelmingly passed a referendum to fund 
$500,000 annually to support the creation of defensible space, 
resilient forests and support for other wild land mitigation 
efforts.
    However, when the Federal funding for fuel reduction work 
is diverted to fight fires elsewhere it perpetuates the threat 
we face in our own backyards. Just last year, for example, a 
$72,000 project to clear dead fall in a popular recreation area 
was deferred. This had substantial impact on our 50 to 100 
miles of trails with associated effects on recreation 
opportunities, outfitter guide operations and recreation based 
economies.
    We cannot afford to delay or defer these types of projects 
which are critical to preventing dangerous forest fires. This 
is why the Wild Land Fire Suppression cap adjustment is so 
important to the residents and visitors of Summit County and to 
Colorado as a whole.
    I appreciate the assistance that Congress has provided for 
land management and restoration activities primarily through 
the passage of the Healthy Forest Restoration Act in 2003. 
However, there's much more than can be done. Passage of S. 1875 
would be an important step in ending the damaging practice of 
raiding agency balances to fund fire suppression at the expense 
of such important preventative activities as land management 
and restoration, fire preparedness and capital improvement. I 
strongly urge you to support this bill.
    Thank you.
    [The prepared statement of Mr. Gibbs follows:]
     Prepared Statement of Dan Gibbs, Summit County Commissioner, 
                      Breckenridge, CO, on S. 1875
    Thank you Chairman Landrieu, members of the committee. It is a 
great honor to come before you today. My name is Dan Gibbs; I'm a 
County Commissioner from Summit County Colorado and also a certified 
wildland firefighter.
    This Committee has had the benefit of hearing from the U.S. Forest 
Service and the U.S. Bureau of Land Management to paint the larger 
picture regarding the wildfire budgeting system, and I'd like to share 
with you is how this current system impacts local Colorado communities.
    The Summit County jurisdiction that I serve is a semi-rural resort 
community located in the heart of the Rocky Mountains. The permanent 
population of the county is approximately 30,000 people, but swells to 
over 160,000 during peak holiday seasons.
    Summit County is home to extensive outdoor year-round recreation. 
It is comprised of over 80% federal lands and is home to the 
internationally recognized ski resorts of Breckenridge, Keystone, 
Copper Mountain, and Arapahoe Basin. All of these resorts are located 
in the White River National Forest, which receives more than 12 million 
visitors annually according to the most recent survey data. This is 
more visits per year than Yellowstone, Yosemite and Grand Canyon 
National Parks combined, and is the busiest Forest in the system.
    The White River National Forest and our natural environment are the 
foundation of our local economy and enhance the quality of life that 
our citizens and visitors from all over the world enjoy in Summit 
County. We have a strong working relationship with local forest 
managers in working to provide the world-class recreation, clean water, 
and healthy forests our residents, visitors, and businesses rely on.
    However, the current model for funding the response to wildland 
fires is extremely detrimental to our economy and quality of life. We 
have recently observed that Forest budgets supporting the work to 
maintain these characters have been significantly depleted, and are 
continuing to trend downward. Further exacerbating this situation is 
what is known as ``fire borrowing,'' in which local Forest budgets are 
raided to fund the national response to wildfires across the country.
    Last year our local Forest unit had over $480,000 transferred from 
a range of resource programs to meet the wildfire response effort. As a 
result, we saw reductions in trail maintenance, recreation facility 
maintenance, forest health work, invasive species control, and fish and 
wildlife habitat restoration, all of which had detrimental impacts to 
our economy.
    As these fires get larger and more destructive we cannot continue 
to have these costs come from federal land agencies as we will lose all 
the funding we could use to reduce the cost of these disasters at the 
front end through fuels reduction.
    I also want to highlight that Summit County is at the epicenter of 
the massive mountain pine beetle epidemic in Colorado and the west that 
has left hundreds of thousands of acres of dead trees in its wake. For 
the last eight years we have worked cooperatively with the US Forest 
Service, Colorado State foresters, local fire districts and private 
landowners to deal with the impact of this epidemic, and secure a 
forest condition that will be more resilient to catastrophic wildfires 
and future insect or disease outbreaks. This effort is so important to 
our community that in 2008, our voters overwhelmingly passed a 
referendum to fund $500,000 annually to support creation of defensible 
space, resilient forests and support for other wildland fire mitigation 
efforts.
    However, when funding to accomplish the fuel reduction and 
regeneration work we need is diverted to fight fires elsewhere, it 
perpetuates the threat we face in our own backyards.
    Just last year, for example, a $72,000 project to clear deadfall 
and conduct related trail maintenance in areas affected by the bark 
beetle epidemic was deferred. This had a significant impact on 50-100 
miles of trails, with associated effects on recreation opportunities, 
outfitter-guide operations, and recreation-based community economies. 
We cannot afford to delay or defer this type of project that is 
critical to preventing potentially dangerous forest fires and this is 
why the Wildland Fire Suppression Cap Adjustment is so important to the 
residents and visitors to our state and county.
    I appreciate the assistance that Congress has provided for land 
management and restoration activites--primarily through the passage of 
the Healthy Forest Restoration Act (HFRA) in 2003. This law, which came 
as a response to major forest fires that occurred throughout the west 
in 2002.
    However, there is much more that can be done, and passage of S. 
1875 the Wildland Fire Suppression Cap Adjustment would be an important 
step in ending the damaging practice of raiding agency balances to fund 
fire suppression at the expense of such important activities as land 
management and restoration, fire preparedness, and capital improvement. 
I urge you to support this bill.
    Thank you.
    I would be happy to answer any questions.

    The Chair. Thank you very much, Mr. Gibbs.
    All of your testimony was just excellent. We're looking 
forward to reviewing it.
    Because of time, if any members have questions we could 
take them now, but I'd like to introduce the second panel and 
be open to questions then. Is that OK with everyone?
    Thank you all very much. Really appreciate it.
    If the second panel would come forward. While they're 
coming forward let me begin the introductions.
    Chief Tidwell from the Forest Service.
    Chief Tidwell is a veteran of the Forest Service, an expert 
in wildfire management. As I mentioned earlier I had the 
opportunity to tour the Kisatche National Forest which is 
inside of Louisiana in the central part of our State, with him 
recently. We spent several hours together and look forward to 
hearing his testimony this morning.
    I think you all will be encouraged by what he has to say.
    I also would like to introduce Kim Thorsen from the 
Department of the Interior.
    As Deputy Assistant Secretary of Public Safety, Resource 
Protection, Emergency Services, Ms. Thorsen has been out on the 
front lines of Interior's role in wildfire management and 
interdepartmental coordination.
    Chief, thank you for being here. We look forward to hearing 
from both of you. Chief, we're open for your testimony at this 
time.

STATEMENT OF THOMAS TIDWELL, CHIEF, FOREST SERVICE, DEPARTMENT 
                         OF AGRICULTURE

    Mr. Tidwell. Madame Chairwoman, Ranking Member Murkowski 
and then members of the committee, thank you for having this 
hearing. It is impressive to be able to see the other senators 
that were here today. What I really appreciate is the general 
agreement. We have a problem. I appreciate everyone's work to 
find a solution.
    You know, once again, we're having another challenging fire 
season. It's been described by members here plus the previous 
panel. There's just no question that, once again, we're up 
against another very challenging season.
    We see it with the fires that are going on in California 
and also in Oregon and then just another start in Washington. 
So there's no question we're going to have another, very 
active, probably another 3 months, of very active fire season 
that I can share with you that we are ready.
    With our cooperating partners there's no country in the 
world that has a better model, a better approach for dealing 
with wildfire. Because of that we continue to be able to have 
our success at 98 percent of being successful to be able to 
catch fires during initial attack. With that being said, that 2 
percent of fires that get away every year, are the ones that 
cause the problems.
    Now last year when I was testifying before this committee I 
was asking for your support for some key authorities, 
Stewardship Contracting, the Good Neighbor Authority. They were 
about to expire. So I wanted to first of all thank this 
committee for their support through the Farm Bill to make sure 
that we continue to have those authorities in addition to the 
insect and disease designation.
    These authorities, along with our FY 2015 budget request 
will allow us to be able to increase the work that we're doing 
to restore our national forests and grasslands. To ensure they 
continue to provide all the benefits, all the multiple uses 
that our public wants and needs from these lands.
    This budget request also increases the investment in 
reducing fire risk to communities, to our firefighters, by 
asking for additional funding in hazardous fuels and additional 
funding to be able to restore more acres of our national 
forest.
    Through the proposed budget cap adjustment we will be able 
to finally stop this disruptive practice of having to shut down 
operations in August and September just to transfer funds to be 
able to pay for fire suppression. Then a few months later to 
have Congress repay those funds.
    I want to thank Senators Wyden and Crapo for introducing 
the Wildfire Disaster Fund Act and for the members who have co-
sponsored that.
    I also want to acknowledge Senator McCain's work along with 
Senator Barrasso and Flake for their interest to be able to 
find a solution to this problem that, what I'm hearing today, 
there seems to be general agreement that we need to find a 
solution.
    As it's been stated numerous times, going back to 1991 
where we spent about 13 percent of our budget on fire, today 
we're spending over 40 percent of it. In addition to that the 
10-year average cost of fire suppression, in just the last 12 
years, has gone up $500 million. Under a constrained budget 
that's $500 million that has to be taken from all the other 
programs that the public relies on for the Forest Service to 
provide. We have to take $500 million every year from those 
programs just to continue to pay for fire suppression.
    The consequences of this is that over this period of time 
our staffing has been reduced by 35 percent. Just our staffing 
for forest management, the folks that do the work to be able to 
reduce the hazardous fuels, the folks that do the work to 
restore our forests, that staffing has gone down 49 percent.
    Now our staff has done a great job to be able to continue 
to treat as many acres as we have over the last 10 years. In 
fact based on what we're projecting in FY 2015, we'll be doing 
about the same amount of work with about half the number of 
people we were doing 12 years ago. But I'll tell you that's 
about as far as we can go.
    It is time for us to be able to find a new solution and to 
be able to, not only stop fire transfer, but at the same time, 
have an opportunity to reinvest, to be able to deal with more 
of the hazardous fuels issues and to get on top of restoring 
our national forests.
    Now I can't change the fact there our fire seasons today 
are 60 to 80 days longer. They're burning hotter with drier 
conditions. We have more homes than ever in the wild land urban 
interface.
    But I know that we have an opportunity that if we want to 
reinvest. We can make a difference to reduce the threat to our 
communities, to reduce the threat to our firefighters. But it's 
going to take additional investments for us to be able to treat 
more acres than we have been able to do in the past.
    Madame Chairwoman, thank you again for having this hearing. 
I look forward to answering your questions.
    [The prepared statement of Mr. Tidwell follows:]
Prepared Statement of Thomas Tidwell, Chief, Department of Agriculture, 
                             Forest Service
    Chairwoman Landrieu, Ranking Member Murkowski, and members of the 
Committee, thank you for the opportunity to appear before you today to 
provide the status of wildland fire program efforts as it pertains to 
the Fiscal Year (FY) 2015 President's Budget Proposal for the United 
States Department of Agriculture (USDA) Forest Service. The April 2, 
2014 testimony regarding the entire Forest Service FY 2015 Budget 
Request is appended to my statement today.
    The FY 2015 President's Budget for the Forest Service focuses on 
three key areas: restoring resilient landscapes, building thriving 
communities, and managing wildland fires. It calls for a fundamental 
change in how wildfire suppression is funded. It proposes a new and 
fiscally responsible funding strategy for wildland fire, contributes to 
long-term economic growth, and continues our efforts to achieve the 
greatest benefits for the taxpayer at the least cost. This budget will 
enable us to more effectively reduce fire risk, manage landscapes more 
holistically, and increase resiliency of the Nation's forests and 
rangelands as well as the communities that border them.
    Increases in large fires in the West have coincided with an 
increase in temperatures and early snow melt in recent years. These 
factors also contribute to longer fire seasons. The length of the fire 
season has increased by over two months since the 1970s (Westerling, 
2006). Contributing to the problem of large fires is severe drought, 
increased levels of hazardous fuels and a changing climate. Some 
experts anticipate future fire seasons on the order of 12 to 15 million 
acres burned each year. Extreme wildfire threatens lives and the 
natural resources people need and value, such as clean, abundant water; 
clean air; fish and wildlife habitat; open space for recreation; and 
other forest products and services.
    The Forest Service Missoula Fire Lab completed an analysis in 2012 
that showed 58 million acres of National Forest System (NFS) lands with 
a high, or very high, potential for a large wildfire that would be 
difficult for suppression resources to contain (Dillon, 2012). At the 
same time, landscapes are becoming more susceptible to fire impacts, 
and more Americans are choosing to build their home in the Wildland 
Urban Interface (WUI). In the conterminous United States, some 32 
percent of housing units (i.e. homes, apartment buildings, and other 
human dwellings) and one-tenth of all land with housing units are 
situated within the WUI (Radeloff et al., 2005). The Forest Service 
estimates that 464 million acres of all vegetated lands are at moderate 
to very high risk from uncharacteristically large wildfires (Dillon 
2012). The National Association of State Foresters estimates that over 
70,000 communities are at risk from wildfire.
                        reducing hazardous fuels
    Excess fuels often include leaf litter and debris on the forest 
floor as well as the branches and foliage of small trees. These provide 
ladder fuels that often allow surface fires to transition to high 
intensity crown fires. Fuel treatments result in more resilient and 
healthier ecosystems that provide the many benefits society wants and 
needs, including clean water, scenic and recreational values, wood 
products, biodiversity, communities that are better able to withstand 
wildfire, and safer conditions for firefighters. Unlike other natural 
disasters such as earthquakes or hurricanes, where the intensity of the 
natural event cannot be influenced, the intensity of wildland/wildland-
urban interface fires can be reduced through responsible fuel 
management. Fuel treatments can change fire behavior, decrease fire 
size and intensity, divert fire away from high value resources, and can 
result in reduced suppression costs. When a wildfire starts within or 
burns into a fuel treatment area, an assessment is conducted to 
evaluate the resulting impacts on fire behavior and fire suppression 
actions. Of over 1,400 assessments conducted to date, over 90 percent 
of the fuel treatments were effective in changing fire behavior and/or 
helping with control of the wildfire (USFS, Fuels Treatment 
Effectiveness Database).
    There are many programs within the Forest Service that can reduce 
the risk of catastrophic wildland fires. These include Integrated 
Resource Restoration (IRR), Collaborative Forest Landscape Restoration, 
Hazardous Fuels, Federal and Cooperative Forest Health programs, 
Stewardship Contracting, Good Neighbor Authority, State Fire 
Assistance, and others. Approaches to restoring fire-adapted ecosystems 
often require treatment or removal of excess fuels (e.g., through 
mechanical thinning, prescribed fire, or a combination of the two) that 
reduce tree densities in uncharacteristically crowded forests, and 
application of fire to promote the growth of native plants and 
reestablish desired vegetation and fuel conditions.
    Through our Hazardous Fuels Program, the Forest Service controls 
fuels by removing buildups of dead vegetation and by thinning overly 
dense forests that can be hazardous to lives, homes, communities, and 
wildland resources. From FY 2001 to FY 2013, the Forest Service treated 
about 33 million acres, an area larger than Mississippi. For FY 2015, 
we propose $358.6 million for our Hazardous Fuels program. We also 
propose performing non-WUI Hazardous Fuels work within the IRR line 
item in order to accomplish work more efficiently. With more than 
70,000 communities in the WUI at risk from wildfire, the Forest Service 
is working through cross-jurisdictional partnerships to help 
communities become safer from wildfires. Through the Firewise program, 
the number of designated Firewise communities rose from 400 in FY 2008 
to nearly 1,000 in FY 2013.
    The agency has the capability to protect life, property, and 
natural resources while assuring an appropriate, risk-informed, and 
effective response to wildfires that is consistent with land and 
resource management objectives. However, we cannot do this alone. 
Wildland fires are managed by the Federal Government, State, Tribal and 
local governments. The Forest Service and Department of Interior (DOI) 
alone cannot prevent the loss of life and property. Research 
demonstrates that the characteristics of a structure's surroundings 
within 100 feet principally determine the potential for ignition from 
the thermal radiation emitted by a fire. To improve the survivability 
of structures, the Forest Service and DOI work with State and local 
governments to develop and implement community protection plans. In 
addition, the Forest Service targets hazardous fuels funding to areas 
with the highest impact which often includes near communities that have 
already taken steps to reduce fire risk. Forest Service programs, 
including the State Fire and Volunteer Fire Assistance programs, and 
the Federal and Cooperative Forest Health Protection programs provide 
important assistance to States, local communities and non-Federal 
landowners in responding to, preparing for, and mitigating the threat 
of wildland fire.
                    impacts of increased fire costs
    In FY 1991, fire activities accounted for about 13 percent of the 
total agency budget; in FY 2012, it was over 40 percent. In the 1980s 
and 1990s, the 10-year average of suppression costs remained relatively 
stable, as did the number of acres burned nationwide. This was an 
abnormally wet period in the United States and fire activity was 
relatively low. However, beginning in the extreme fire season of 2000, 
which cost $1 billion in suppression, this trend started to change. The 
cost of the FY 2000 fires alone caused the 10-year average to rise by 
over $80 million--a 16 percent increase. Wildland Fire Management now 
makes up almost half of the agency's discretionary budget. Funding fire 
suppression has presented budgetary challenges for the Forest Service 
including the need to budget less for non-fire programs in an effort to 
maintain funding for fire suppression.
    Fire transfers from non-fire accounts occur when the agency has 
exhausted all available fire resources from the Suppression and FLAME 
accounts. From FY 2000 to FY 2013, the Forest Service made fire 
transfers from discretionary, trust, and permanent non-fire accounts to 
pay for fire suppression costs seven times, ranging from $100 million 
in FY 2007 to $999 million in FY 2002, and totaling approximately $3.2 
billion. Of the total transferred funds, $2.8 billion was repaid, 
however, the transfers still led to disruptions within all Forest 
Service programs. In FY 2013, the Forest Service transferred $505 
million to the fire suppression and preparedness accounts for emergency 
fire suppression due to severe burning conditions and increasing fire 
suppression costs. We greatly appreciate the repayment of these 
transferred funds provided by Congress as part of the Continuing 
Appropriations Act, 2014.
    Each time the agency transfers money out of non-fire accounts to 
pay for fire suppression there are significant and lasting impacts 
across the entire Forest Service. When funding is transferred from 
other programs to support fire suppression operations, these non-fire 
programs are impacted because they are unable to accomplish priority 
work and achieve the overall mission of the agency. Often this priority 
work mitigates wildland fire hazards in future years. In addition, 
transfers negatively impact local businesses and economies, costing 
people jobs and income as a result of delayed or cancelled projects.
    The FY 2010 Appropriations Act, Public Law 111-88, Title V-FLAME 
Act requires the Forest Service to report estimates of anticipated 
wildland fire suppression costs for each fiscal year. The July 2014 
forecast predicts that with 90 percent confidence fire suppression 
costs will be between $924 million and $1.61 billion for FY 2014, with 
a median forecast of $1.27 billion. If the FY 2014 fire season tracks 
those from the past, we would expect to transfer money from critical 
mission delivery activities, including fuels reduction and forest 
thinning projects that reduce the threat of wildfires as well as 
several of our permanent and trust funds. In his request for emergency 
supplemental appropriations for the humanitarian situation in the 
Southwest, the President has included $615 million to provide for the 
necessary expenses for wildfire suppression and rehabilitation 
activities this fiscal year in order to avoid transferring funds from 
other wildfire treatment and protection activities. In addition, the 
President's supplemental request includes language to support a 
discretionary cap adjustment to allow the Federal Government to respond 
to severe, complex and threatening fires or a severe fire season 
similar to how other natural disasters are funded.
                   fire suppression funding proposal
    The FY 2015 Budget proposes a new funding strategy that recognizes 
the negative effects of funding fire suppression as we have 
historically. The budget proposes funding catastrophic wildland fires 
similar to other disasters. Funded in part by additional budget 
authority provided through a budget cap adjustment for wildfire 
suppression, the budget proposes discretionary funding for wildland 
fire suppression at a level which reflects the level of spending 
associated with suppression of 99 percent of wildfires. In addition, 
the budget includes up to $954 million to be available under a disaster 
funding cap adjustment to meet suppression needs above the base 
appropriation. This proposed funding level includes the difference 
between the funds appropriated and the upper limit of the 90th 
percentile range forecast for suppression costs for FY 2015. This 
additional funding would be accessed with Secretarial declaration of 
need or imminent depletion of appropriated discretionary funds. This 
strategy provides increased certainty in addressing growing fire 
suppression needs, better safeguards non-suppression programs from 
transfers that diminish their effectiveness, and allows us to stabilize 
and invest in programs that more effectively restore forested 
landscapes, treat forests for the increasing effects of climate change, 
and prepare communities in the WUI for future wildfires.
                     wildland fire aviation assets
    Airtankers are a critical part of our response to wildfire. Their 
use plays a crucial role in keeping some fires small and greatly 
assists in controlling the large fires. Accordingly, we are 
implementing a Large Airtanker Modernization Strategy to replace our 
aging fleet with next-generation airtankers. Our strategy, reflected in 
our budget request, would fund both the older aircraft still in 
operation and the next-generation airtankers currently under contract.
    The Forest Service expects to have a sufficient number of large 
airtankers available through exclusive use contracts this fire season. 
This includes a total of up to nine Next Generation airtankers and 
eight Legacy airtankers. The Forest Service will also have 15 to 17 
other airtankers available through agreements with cooperators, 
including eight military C-130s equipped with Modular Airborne Fire 
Fighting Systems, eight CV580s through agreements with the State of 
Alaska and Canada, and one Very Large Airtanker (DC-10) through a Call 
When Needed contract.
                       challenges for the future
    Our evolving approach to managing wildland fire is integral to 
meeting our goals of safety, landscape-scale restoration, cross-
boundary landscape conservation, and risk management. We continue to 
learn more about wildland fire, and we continue to apply what we learn 
through fire and risk management science in partnership with States, 
communities, and other Federal agencies. We strive to maximize our 
response capabilities and to support community efforts to reduce the 
threat of wildfire and increase ecosystem resilience. The agency has 
made great progress in its continued focus on risk-based decision-
making when responding to wildfires, and in 2015 will continue this 
important work to better inform decision makers on the risks and trade-
offs associated with wildfire management decisions.
Addendum.--Statement of Tom Tidwell, Chief, Department of Agriculture, 
                             Forest Service
before the house committee on appropriations, subcommittee on interior, 
 environment, and related agencies concerning president's fiscal year 
            2015 proposed budget for the usda forest service
                                                     April 2, 2014.

    Mr. Chairman and members of the Committee, thank you for inviting 
me here today to testify on the President's Budget request for the 
Forest Service for Fiscal Year (FY) 2015. I appreciate the support this 
subcommittee has shown for the Forest Service in the past, and in 
particular, thank you for your hard work on the FY 2014 Appropriations 
Act. When I testified before you last year, there were a number of 
important authorities, like stewardship contracting and good neighbor 
authority, which were set to soon expire. Thanks to the hard work of 
Congress on the 2014 Appropriations Act and the 2014 Farm Bill, we are 
in a much better position this year. I look forward to continuing to 
work together with members of the Committee to ensure that stewardship 
of our Nation's forests and grasslands continues to meet the desires 
and expectations of the American people. I am confident that this 
budget will allow the Forest Service to meet this goal while 
demonstrating fiscal restraint, efficiency, and cost-effective 
spending.
    The FY 2015 President's Budget for the Forest Service focuses on 
three key areas: restoring resilient landscapes, building thriving 
communities, and managing wildland fires. It calls for a fundamental 
change in how wildfire suppression is funded. It proposes a new and 
fiscally responsible funding strategy for wildland fire, contributes to 
long-term economic growth, and continues our efforts to achieve the 
greatest benefits for the taxpayer at the least cost. This budget will 
enable us to more effectively reduce fire risk, manage landscapes more 
holistically, and increase resiliency of the Nation's forests and 
rangelands as well as the communities that border them.
    The President's 2015 Budget also includes a separate, fully paid 
for $56 billion Opportunity, Growth, and Security Initiative (OGS 
Initiative). The Initiative identifies additional discretionary 
investments that can spur economic progress, promote opportunity, and 
strengthen national security. The OGS Initiative includes funding for 
Forest Service programs. The OGS Initiative includes $18 million for 
Research and Development and would focus on energy security and 
national economic stability while simultaneously addressing our 
conservation and restoration goals. In addition, the OGS Initiative 
includes $61 million for Facilities and Trails to provide essential 
infrastructure maintenance and repair to sustain the benefits of 
existing infrastructure as domestic investments to grow our economy.
    As part of the President's Opportunity, Growth, and Security 
Initiative and a permanent legislative proposal, the Forest Service 
would also have the opportunity to compete for conservation and 
infrastructure project funding included within the Centennial 
initiative. The Centennial initiative supporting the 100th Anniversary 
of the National Park Service, features a competitive opportunity for 
the public land management bureaus within the Department of the 
Interior and the Forest Service to address conservation and 
infrastructure project needs. The program would be managed within 
Interior's Office of the Secretary in conjunction with the Department 
of Agriculture with clearly defined project criteria. The 
Administration proposes $100 million for the National Park Service 
anniversary's Centennial Land Management Investment Fund, as part of 
the Opportunity, Growth and Security Initiative and $100 million for 
conservation and infrastructure projects annually for three years as 
part of a separate legislative proposal.
    The Opportunity, Growth, and Security Initiative also includes a $1 
billion Climate Resilience Fund. A portion of this funding source 
allows us to continue to invest in research to better understand the 
projected impacts of climate change and how we can better prepare our 
communities and infrastructure. The Fund would also serve to fund 
breakthroughs in technologies and resilient infrastructure development 
that will make us more resilient in the face of changing climate. The 
Fund proposal includes three Forest Service programs: an increase of 
$50 million for State Fire Assistance Grants to increase the number of 
communities that are ``Firewise'' and the number of communities 
implementing building codes and building protection requirements, 
resulting in increased protection of communities, their residents and 
private property; an increase of $50 million for IRR and Hazardous 
Fuels to enhance support for public lands managers to manage landscape 
and watershed planning for increased resilience and risk reduction; and 
an increased $25 million for Urban and Community Forestry to maintain, 
restore and improve urban forests mitigating heat islands and other 
climate change impact.
                      value of the forest service
    Our mission at the Forest Service is to sustain the health, 
diversity, and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations. The Forest Service 
manages a system of national forests and grasslands totaling 193 
million acres in 44 States and Puerto Rico, an area almost twice the 
size of California. These lands entrusted to our care provide some of 
the richest resources and most breathtaking scenery in the Nation, are 
the source of drinking water for millions of Americans, and support 
hundreds of thousands of jobs. Thousands of communities across the 
Nation depend on the national forests for their social well-being and 
economic prosperity.
    Since our founding in 1905, as the Nation's leading forestry 
organization, we continue to serve Americans by supporting the 
sustainable stewardship of more than 600 million acres of non-Federal 
forest land across the Nation, including 423 million acres of private 
forest land, 69 million acres of State forest land, 18 million acres of 
Tribal forests, and over 100 million acres of urban and community 
forests. This commitment to sustainable forest management helps 
Americans use their lands while caring for them in ways that benefit 
them, their families, their communities, and the entire Nation.
    We also maintain the largest forestry research organization in the 
world, with more than a century of discoveries in wood and forest 
products, fire behavior and management, and sustainable forest 
management. We are pursuing cutting-edge research in nanotechnology and 
green building materials, expanding markets for woody biomass. Land 
managers across the Nation use the results of our research to conserve 
forests, ensuring continuation of a full range of benefits for future 
generations.
    America's forests, grasslands, and other open spaces are integral 
to the social, ecological, and economic well-being of the Nation. They 
play a vital role in providing public benefits such as clean air, clean 
water, mineral and energy production, and fertile soils for supporting 
timber, forage, carbon storage, food and fiber, fish and wildlife 
habitat, along with myriad opportunities for outdoor recreation. The 
Forest Service provides a valuable service to the public by restoring 
and improving forest, grassland, and watershed health; by producing new 
knowledge through our research; and by providing financial and 
technical assistance to partners, including private forest landowners.
    The benefits from Forest Service programs and activities include 
jobs and economic activity. Jobs and economic benefits stem not only 
from public use of the national forests and grasslands, but also from 
Forest Service management activities and infrastructure investments. We 
complete an economic analysis that calculated activities on the 
National Forest System contributed over $36 billion to America's gross 
domestic product, and supported nearly 450,000 jobs during FY 2011.
    Through our Job Corps and other programs including the 21st Century 
Conservation Service Corps, we provide training and employment for 
America's youth, and we help veterans transition to civilian life. Our 
Urban and Community Forestry Program has provided jobs and career-
training opportunities for underemployed adults and at-risk youth.
    The Forest Service routinely leverages taxpayer funds by engaging 
partners who contribute to investments in land management projects and 
activities. In FY 2013, for example, we entered into more than 8,200 
grants and agreements with partners who made a total of about $540 
million in cash and noncash contributions. Combined with our own 
contribution of nearly $730 million, the total value of these 
partnerships was over $1.27 billion.
    Other noncommercial uses provide crucial benefits and services to 
the American people. Many Tribal members use the national forests and 
grasslands for hunting, fishing, and gathering wild foods and other 
materials for personal use. They also use sacred sites on NFS lands for 
ritual and spiritual purposes.
    National forests and grasslands attract about 160 million visits 
annually, and 55 percent of those visitors engage in strenuous physical 
activities. Based on studies showing that outdoor activities contribute 
to improved health and increased fitness, the availability of the 
Nation's forests and grasslands to all Americans provide other tangible 
benefits. In addition, since more than 83 percent of Americans live in 
metropolitan areas where opportunities to experience nature are often 
reduced, the Forest Service has developed an array of programs designed 
to get people into the woods, especially children. Each year, we reach 
an average of more than 5 million people with conservation education 
programs.
                       challenges to conservation
    Our Nation's forest and grassland resources continue to be at risk 
due to drought, uncharacteristically severe wildfire behavior, invasive 
species, and outbreaks of insects and disease. Although biodiversity 
remains high on national forests and grasslands, habitat degradation 
and invasive species pose serious threats to 27 percent of all forest-
associated plants and animals, a total of 4,005 species.
    The spread of homes and communities into wildfire-prone areas is an 
increasing management challenge. From 2000 to 2030, the United States 
could see substantial increases in housing density on 44 million acres 
of private forest lands nationwide, an area larger than North and South 
Carolina combined. More than 70,000 communities are now at risk from 
wildfire, and less than 15,000 have community wildfire protection 
plans.
    This same growth and development is also reducing America's forest 
habitat and fragmenting what remains. From 2010 to 2060, the United 
States is predicted to lose up to 31 million acres of forested lands, 
an area larger than Pennsylvania.
    Forest Service scientists predict that fire seasons could return to 
levels not seen since the 1940s, exceeding 12 to 15 million acres 
annually. Highlighting these concerns, for the first time since the 
1950s, more than 7 million acres burned nationwide in 2000 and more 
than 9 million acres burned in 2012. In 2013, the largest fire ever 
recorded in the Sierra Nevada occurred, and a devastating blaze in 
Arizona killed 19 highly experienced firefighters.
                     budget request and focus areas
    To meet the challenges ahead, the Forest Service is focusing in 
three key areas: restoring resilient landscapes, building thriving 
communities, and managing wildland fires. We continue to implement 
cultural initiatives and cost savings measures focused on achieving a 
safer, more inclusive, and more efficient organization. To help us 
achieve these goals, the President's proposed overall budget for 
discretionary funding for the Forest Service in FY 2015 is $4.77 
billion. The Budget also proposes a new and fiscally responsible 
funding strategy for wildand fire that recognizes that catastrophic 
wildland fires should be considered disasters, funded in part by 
additional budget authority provided through a budget cap adjustment 
for wildland fire suppression. Combined with the funding for fire 
suppression in the discretionary request, this strategy will fully fund 
estimated wildfire suppression funding needs.
Restoring Resilient Landscapes
    Our approach to addressing ecological degradation is to embark on 
efforts that support ecological restoration allowing for healthier more 
resilient ecosystems. In cooperation with our partners across shared 
landscapes, we continue to ensure that the Nation's forests and 
grasslands retain their ability to deliver the social, economic, and 
ecological values and benefits that Americans want and need now and for 
generations to come.
    In February 2011, President Obama launched the America's Great 
Outdoors Initiative, setting forth a comprehensive agenda for 
conservation and outdoor recreation in the 21st century. In tandem with 
the President's initiative, Secretary of Agriculture Vilsack outlined 
an All Lands vision for conservation calling for partnerships and 
collaboration to reach shared goals for restoring healthy, resilient 
forested landscapes across all landownerships nationwide. In response, 
the Forest Service has launched an initiative to accelerate restoration 
across shared landscapes. The Accelerated Restoration Initiative builds 
on Integrated Resource Restoration (IRR), the Collaborative Forest 
Landscape Restoration Program (CFLRP), the 2012 planning rule, and 
other restoration-related programs and initiatives to pick up the pace 
of ecological restoration while creating more jobs in rural 
communities. Our collaborative, holistic approach to restoring forest 
and grassland health relies on the State Forest Action Plans and the 
Forest Service's own Watershed Condition Framework to identify high-
priority areas for restoration treatments.
    In FY 2012, Congress authorized the Forest Service to pilot test 
the combination of multiple budget line items into a single line item 
for IRR. By combining funds from five budget line items we can better 
integrate and align watershed protection and restoration into all 
aspects of our management. In FY 2013, our integrated approach restored 
almost over 2,533,000 acres of forest and grassland, decommissioned 
1,490 miles of roads, and restored 4,168 miles of stream habitat 
substantially improving conditions across 12 entire watersheds across 
the NFS. Given the success demonstrated in the three pilot regions, we 
propose fully implementing IRR across the entire Forest Service in FY 
2015. We propose a national IRR budget of $820 million. Investing in 
IRR in FY 2015 is expected to result in 2,700,000 watershed acres 
treated, 3.1 billion board feet of timber volume sold, approximately 
2,000 miles of road decommissioned, and 3,262 miles of stream habitat 
restored or enhanced. An estimated 26 watersheds will be restored to a 
higher condition class in FY 2015.
    CFLRP was created in 2009 to help restore high-priority forested 
landscapes, improve forest health, promote job stability, create a 
reliable wood supply, and to reduce firefighting risks across the 
United States. The Secretary of Agriculture selected 23 large-scale 
projects for 10-year funding. Although the projects are mostly on NFS 
land, the collaborative nature of the program ties communities to local 
forest landscapes, engaging them in the work needed to restore the 
surrounding landscapes and watersheds. We propose to increase 
authorization for this successful collaborative program in the FY 2015 
President's Budget. We propose to increase the program authorization to 
$80 million and are requesting $60 million in FY 2015 to continue 
implementation of the current 23 projects and for inclusion of 
additional projects. All of the existing projects are on track to meet 
their 10-year goals, and to date, more than 588,461 acres of wildlife 
habitat have been improved, while generating 814 million board feet of 
timber and 1.9 million green tons of biomass for energy production and 
other uses.
    To gain efficiencies in our planning efforts, the Forest Service is 
moving forward with implementing a new land management planning rule. 
The new rule requires an integrated approach to forest plan preparation 
and multilevel monitoring of outcomes that allows for adaptive 
management, improved project implementation, and facilitated landscape 
scale restoration. We are also working to be more efficient in our 
environmental analyses under the National Environmental Policy Act 
(NEPA) through development of three restoration-related categorical 
exclusions promoting hydrologic, aquatic, and landscape restoration 
approved in 2013. Other investments in ``Electronic Management of 
NEPA'' (eMNEPA) have significantly reduced administrative costs; we 
estimate that we save approximately $17 million each year because of 
these investments. Collectively, these efforts will help land managers 
to focus on collaborative watershed restoration efforts that also 
promote jobs and economic opportunities in rural communities.
Building Thriving Communities
    The Forest Service works to build thriving communities across the 
Nation by helping urban communities reconnect with the outdoors, by 
expanding the benefits that both rural and urban residents get from 
outdoor recreation, and by providing communities with the many economic 
benefits that result from sustainable multiple-use management of the 
national forests and grasslands.
    Through our Recreation, Wilderness and Heritage program, we are 
dedicated to serving tens of millions of recreation visitors each year. 
Rural communities rely on the landscapes around them for hunting, 
fishing, and various amenities; the places they live are vital to their 
identity and social well-being. We maintain these landscapes for the 
character, settings, and sense of place that people have come to 
expect, such as popular trail corridors and viewsheds.
    In support of the President's America's Great Outdoors Initiative 
and the First Lady's ``Let's Move'' initiative, we are implementing a 
Framework for Sustainable Recreation. The framework is designed to 
ensure that people of all ages and from every socioeconomic background 
have opportunities to visit their national forests and grasslands-and, 
if they wish, to contribute through volunteer service. We focus on 
sustaining recreational and heritage-related activities on the National 
Forest System for generations to come. That includes maintaining and 
rehabilitating historic buildings and other heritage assets for public 
use, such as campgrounds and other historic facilities built by the 
Civilian Conservation Corps.
    A significant portion of our budget to sustain operations for 
outdoor recreation--roughly 20 percent--comes from fees collected under 
the Federal Lands Recreation Enhancement Act (FLREA), of the fees 
collected, 95 percent are locally reinvested to maintain and restore 
the facilities and services for outdoor recreation that people want and 
need. We propose permanent authority for the FLREA while clarifying its 
provisions and providing more consistency among agencies. This is an 
interagency proposal with the Department of the Interior.
    For decades, the Forest Service has focused on protecting and 
restoring critical forested landscapes, not only on the national 
forests, but also on non-Federal lands. All 50 States and Puerto Rico 
prepared comprehensive State Forest Action Plans identifying the 
forested landscapes most in need of protection and restoration. Based 
on the State plans, the Forest Service has been working with State and 
other partners to tailor our programs accordingly, applying our limited 
resources to the most critical landscapes.
    In FY 2014, we began building on our successful State and Private 
Forestry Redesign initiative through a new program called Landscape 
Scale Restoration. The program allows States to continue pursuing 
innovative, landscape-scale projects across the Forest Health 
Management, State Fire Assistance, Forest Stewardship, and Urban and 
Community Forestry programs without the limitation of a specific mix of 
program funding. The program is designed to capitalize on the State 
Forest Action Plans to target the forested areas most in need of 
restoration treatments while leveraging partner funds. We propose 
funding the new program at almost $24 million.
    We are also using the State Forest Action Plans to identify and 
conserve forests critical for wildlife habitat and rural jobs through 
our Forest Legacy Program. Working through the States, we provide 
working forests with permanent protection by purchasing conservation 
easements from willing private landowners. As of February 2014, the 
Forest Legacy Program had protected more than 2.36 million acres of 
critical working forests, benefiting rural Americans in 42 States and 
Puerto Rico.
    We propose $53 million in discretionary funding for Forest Legacy 
and $47 million in mandatory funds, from the Land and Water 
Conservation Fund (LWCF), for a total of $100 million. The increase is 
a key component of the President's America's Great Outdoors Initiative 
to conserve critical landscapes and reconnect Americans to the outdoors 
through reauthorizing the LWCF as fully mandatory funds in FY 2016.
    In a similar vein, our Land Acquisition Program is designed to 
protect critical ecosystems and prevent habitat fragmentation. In 
accordance with the President's America's Great Outdoors Initiative, we 
worked with the Department of the Interior to establish a Federal 
interagency Collaborative Landscape Planning Program, designed to 
leverage our joint investments and coordinate our efforts to protect 
intact, functioning ecosystems across entire landscapes. Land 
acquisitions are a proven value for the taxpayer, making it easier and 
less expensive for people to access their public lands-and easier and 
less expensive for the Forest Service to manage and restore the lands 
entrusted to our care. An analysis by The Trust for Public Land showed 
that every $1 invested in Federal land acquisition returns $4 to the 
taxpayer; taking returns beyond 10 years into account, the benefits are 
even greater.
    The President's FY 2015 budget proposes $51 million in 
discretionary funding for our Federal Land Acquisition program and 
almost $76.7 million in mandatory funding from the LWCF, for a combined 
total of $127.7 million. These mandatory funds are part of the 
President's proposed LWCF reauthorization with fully mandatory funds 
starting in FY 2016.
    Working with the Department of the Interior, we propose to 
permanently authorize annual mandatory funding, without further 
appropriation or fiscal year limitation for the Departments of the 
Interior and Agriculture LWCF programs beginning in fiscal year 2015. 
Starting in 2016, $900 million annually in permanent funds would be 
available. During the transition to full permanent funding in 2015, the 
budget proposes $900 million in total LWCF funding, comprised of $550 
million in permanent and $350 million discretionary funds.
    Another legislative proposal listed in our FY 2015 budget is an 
amendment to the Small Tracts Act to provide land conveyance authority 
for small parcels, less than 40 acres, to help resolve encroachments or 
trespasses. Proceeds from the sale of National Forest System lands 
under this proposed authority would be collected under the Sisk Act and 
used for future acquisitions and/or enhancement of existing public 
lands.
    We are also helping communities use their wood resources for 
renewable energy. Through the Forest Service's Woody Biomass 
Utilization Grants Program, we are funding grants to develop community 
wood-to-energy plans and to acquire or upgrade wood-based energy 
systems and in FY 2013, State and Private Forestry awarded ten biomass 
grant awards totaling almost $2.5 million to small businesses and 
community groups. In an interagency effort with the Rural Utilities 
Service, Rural Housing Service, and Rural Business-Cooperative Service 
within USDA Rural Development and the Farm Service Agency, the USDA 
Wood to Energy Initiative synergistically facilitates achievement of 
the cooperating agencies' goals. The Forest Service leverages its small 
amount of grant funds with the Rural Development's grant and loan 
programs by providing subject matter expertise and technical assistance 
in the early stages of project development, so the proponents can 
successfully compete for Rural Development's loans and grants. Our goal 
is lower energy bills, greater rural prosperity, and better 
environmental outcomes overall.
    Better environmental outcomes result, in part, from removing woody 
materials to restore healthy, resilient forested landscapes. Many of 
the materials we remove have little or no market value, and by finding 
new uses for them through our Research and Development Programs, we can 
get more work done, producing more jobs and community benefits. Our 
Bioenergy and Biobased Products Research Program is leading the way in 
researching wood-based energy and products. Through discoveries made at 
our Forest Products Lab, woody biomass can now be used to develop 
cross-laminated timber for building components such as floors, walls, 
ceilings, and more. Completed projects have included the use of cross-
laminated panels for 10-story high-rise buildings.
    Over 83 percent of America's citizens now live in urban areas. For 
most Americans, their main experience of the outdoors comes from their 
local tree-lined streets, greenways, and parks, not to mention their 
own backyards. Fortunately, America has over 100 million acres of urban 
forests, an area the size of California. Through our Urban and 
Community Forestry Program, the Forest Service has benefited more than 
7,000 communities, home to 196 million Americans, helping people reap 
the benefits they get from trees, including energy conservation, flood 
and pollution control, climate change mitigation, and open spaces for 
improved quality of life.
    We are expanding our work with cities such as New York, 
Philadelphia, and Los Angeles, working with an array of partners in the 
Urban Waters Federal Partnership to restore watersheds in urban areas. 
We are also helping communities acquire local landscapes for public 
recreation and watershed benefits through our Community Forest and Open 
Space Conservation Program, which is funded at $1.7 million in the FY 
2015 President's Budget. Our goal is to help create a Nation of 
citizen-stewards committed to conserving their local forests and 
restoring them to health for all the benefits they get from them.
    Our community focus supports the President's America's Great 
Outdoors Initiative to achieve landscape-scale restoration objectives, 
connect more people to the outdoors, and support opportunities for 
outdoor recreation while providing jobs and income for rural 
communities. Building on existing partnerships, we have established a 
21st Century Conservation Service Corps to help us increase the number 
of work and training opportunities for young people and veterans while 
accomplishing high-priority conservation and restoration work on public 
lands.
Managing Wildland Fires
    The Administration has worked this year to analyze and develop a 
strategy to address catastrophic fire risk. The Budget calls for a 
change in how wildfire suppression is funded in order to reduce fire 
risk, to more holistically manage landscapes, and to increase the 
resiliency of the Nation's forests and rangelands and the communities 
that surround them. The cost of suppression has grown from 13 percent 
of the agency's budget just 10 years ago to over 40 percent in 2014. 
This increase in the cost of wildland fire suppression is subsuming the 
agency's budget and jeopardizing its ability to implement its full 
mission. The growth in the frequency, size, and severity of fires in 
recent years; along with the continual expansion of the wildland urban 
interface (WUI) have all increased the risks of catastrophic fires to 
life and property. Collectively these factors have resulted in 
suppression costs that exceeded amounts provided in annual 
appropriations requiring us to transfer funds from other programs to 
cover costs. This shift in funding is creating a loss in momentum for 
critical restoration and other resource programs as fire transfers 
deplete the budget by up to $500 million annually.
    The FY 2015 Budget proposes a new funding strategy that recognizes 
the negative effects of funding fire suppression as we have 
historically. The budget proposes funding catastrophic wildland fires 
similar to other disasters. Funded in part by additional budget 
authority provided through a budget cap adjustment for wildfire 
suppression, the budget proposes discretionary funding for wildland 
fire suppression at a level equal to 70 percent of the estimated 10-
year average suppression costs, which reflects the level of spending 
associated with suppression of 99 percent of wildfires. In addition, 
the budget includes up to $954 million to be available under a disaster 
funding cap adjustment to meet suppression needs above the base 
appropriation. This proposed funding level includes 30 percent of the 
10-year average of fire suppression costs and the difference to the 
upper limit of the 90th percentile range forecast for suppression costs 
for FY 2015. This additional funding would be accessed with Secretarial 
declaration of need or imminent depletion of appropriated discretionary 
funds. This strategy provides increased certainty in addressing growing 
fire suppression needs, better safeguards non-suppression programs from 
transfers that diminish their effectiveness, and allows us to stabilize 
and invest in programs that more effectively restore forested 
landscapes, treat forests for the increasing effects of climate change, 
and prepare communities in the WUI for future wildfires.
    Our evolving approach to managing wildland fire is integral to 
meeting our goals of safety, landscape-scale restoration, cross-
boundary landscape conservation, and risk management. We continue to 
learn more about wildland fire, and we continue to apply what we learn 
through fire and risk management science in partnership with States, 
communities, and other Federal agencies. We strive to maximize our 
response capabilities and to support community efforts to reduce the 
threat of wildfire and increase ecosystem resilience. The agency has 
made great progress in its continued focus on risk-based decision-
making when responding to wildfires, and in 2015 will continue this 
important work to better inform decision makers on the risks and trade-
offs associated with wildfire management decisions. The Budget also 
furthers efforts to focus hazardous fuels treatments on 1.4 million WUI 
acres focused on high priority areas identified in Community Wildfire 
Protection Plans.
    Through our Hazardous Fuels Program, the Forest Service controls 
fuels by removing buildups of dead vegetation and by thinning overly 
dense forests that can be hazardous to lives, homes, communities, and 
wildland resources. From FY 2001 to FY 2013, the Forest Service treated 
about 33 million acres, an area larger than Mississippi. For FY 2015, 
we propose $358.6 million for our Hazardous Fuels program. We also 
propose performing non-WUI Hazardous Fuels work within the IRR line 
item in order to accomplish work more efficiently. With more than 
70,000 communities in the WUI at risk from wildfire, the Forest Service 
is working through cross-jurisdictional partnerships to help 
communities become safer from wildfires. Through the Firewise program, 
the number of designated Firewise communities rose from 400 in FY 2008 
to nearly 1,000 in FY 2013.
    Our Hazardous Fuels program is also designed to help firefighters 
manage wildfires safely and effectively, and where appropriate, to use 
fire for resource benefits. Our Preparedness program is designed to 
help us protect lives, property, and wildland resources through an 
appropriate, risk-based response to wildfires. Preparedness has proven 
its worth; Fire Program Analysis, a strategic management tool, shows 
that every $1.00 subtracted from preparedness funding adds $1.70 to 
suppression costs because more fires escape to become large and large 
fires are more expensive to suppress. Unless we maintain an adequate 
level of preparedness, we risk substantial increases in overall fire 
management costs.
    Airtankers are a critical part of our response to wildfire. Their 
use plays a crucial role in keeping some fires small and greatly 
assists in controlling the large fires. Accordingly, we are 
implementing a Large Airtanker Modernization Strategy to replace our 
aging fleet with next-generation airtankers. Our strategy, reflected in 
our budget request, would fund both the older aircraft still in 
operation and the next-generation airtankers currently under contract. 
It would also cover required cancellation fees and the C-130 Hercules 
aircraft transferred by the U.S. Coast Guard.
                          safety and inclusion
    In addition to our focus on restoring resilient landscapes, 
building thriving communities, and managing wildland fire, we continue 
our agency efforts to become a safer, more diverse, and more inclusive 
organization.
    Accomplishing our work often takes us into high-risk environments. 
For that reason, for several years now, we have undertaken a learning 
journey to become a safer organization. Every one of our employees has 
taken training to become more attuned to safety issues and the need to 
manage personal risk. As part of this effort, safety means recognizing 
the risk and managing it appropriately. Our goal is to become a zero-
fatality organization through a constant, relentless focus on safety.
    Recognizing that more than 83 percent of Americans live in 
metropolitan areas, the Forest Service is outreaching to urban and 
underserved communities to introduce more people to opportunities to 
get outdoors, to participate in NFS land management, and to engage in 
conservation work in their own communities. Part of this inclusiveness 
is creating new opportunities to come into contact with and to hiring 
individuals from various backgrounds that might not otherwise be 
exposed to other Forest Service programs.
                              cost savings
    The Forest Service is committed to achieving the greatest benefits 
for the taxpayer at the least cost. Mindful of the need for savings, we 
have taken steps to cut operating costs. Taking advantage of new 
technologies, we have streamlined and centralized our financial, 
information technology, and human resources operations to gain 
efficiencies and save costs. We continue to work with other USDA 
agencies under the Blueprint for Stronger Service to develop strategies 
for greater efficiencies in key business areas. In FY 2013, we saved 
millions of dollars through additional measures to promote 
efficiencies, ranging from an $800,000 annual savings through 
consolidation of local telephone service accounts to right-sizing our 
existing Microsoft software licenses, which yielded over $4 million in 
savings in FY 2013. In FY 2013, we also instituted measures that will 
yield $100 million in cost pool savings by FY 2015.
    Another cost saving highlight is the Forest Service completion of 
the design and construction for the renovation of the Yates Building on 
schedule, and within budget. On January 13, 2014, following completion 
of the renovation, all 762 Washington Office located employees apart 
from International Programs were finally located in the same building. 
Beside these benefits, this move is expected to saves $5 million 
annually in leasing costs.
                             future outlook
    For more than a century, the Forest Service has served the American 
people by making sure that their forests and grasslands deliver a full 
range of values and benefits. America receives enormous value from our 
programs and activities, including hundreds of thousands of jobs and 
annual contributions to the economy worth many times more than our 
entire annual discretionary budget. Especially in these tough economic 
times, Americans benefit tremendously from investing in Forest Service 
programs and activities.
    Now we are facing some of the greatest challenges in our history. 
Invasive species, climate change effects, regional drought and 
watershed degradation, fuel buildups and severe wildfires, habitat 
fragmentation and loss of open space, and devastating outbreaks of 
insects and disease all threaten the ability of America's forests and 
grasslands to continue delivering the ecosystem services that Americans 
want and need. In response, the Forest Service is increasing the pace 
and scale of ecological restoration. We are working to create healthy, 
resilient forest and grassland ecosystems capable of sustaining and 
delivering clean air and water, habitat for wildlife, opportunities for 
outdoor recreation, and many other benefits.
    Our budget request focuses on the public's highest priorities for 
restoring resilient landscapes, building thriving communities, and 
safely managing wildland fire while providing an effective emergency 
response. Our requested budget will enable us to address the growing 
extent and magnitude of our management challenges and the mix of values 
and benefits that the public expects from the national forests and 
grasslands. We will continue to lead the way in improving our 
administrative operations for greater efficiency and effectiveness in 
mission delivery. Our research will continue to solve complex problems 
by creating innovative science and technology for the protection, 
sustainable management, and use of all forests, both public and 
private, for the benefit of the American people. Moreover, we are 
working ever more effectively to optimize our response to cross-cutting 
issues by integrating our programs and activities.
    We can achieve these priorities through partnerships and 
collaboration. Our budget priorities highlight the need to strengthen 
service through cooperation, collaboration, and public-private 
partnerships that leverage our investments to reach shared goals. 
Through strategic partnerships, we can accomplish more work while also 
yielding more benefits for all Americans, for the sake of all 
generations to come.
    This concludes my testimony, Mr. Chairman. I would be happy to 
answer any questions that you or the Committee Members have for me.

    The Chair. Thank you very much.
    Ms. Thorsen.

STATEMENT OF KIM THORSEN, DEPUTY ASSISTANT SECRETARY FOR PUBLIC 
SAFETY, RESOURCE PROTECTION AND EMERGENCY SERVICES, DEPARTMENT 
                        OF THE INTERIOR

    Ms. Thorsen. Chairwoman Landrieu, Ranking Member Murkowski 
and members of the committee, thank you for the opportunity to 
testify today on the Department of Interior's readiness for the 
2014 wild land fire season. I've submitted my prepared 
statement for the record and would like to just make a few 
opening comments.
    The National Wildfire potential outlook issued for the 
period of July through September predicts above normal fire for 
July over much of California, the Northwest and the Great 
Basin. In August we expect California, Nevada, Oregon, 
Washington and Idaho will continue to experience above normal 
fire potential.
    Drought is forecasted to persist or worsen over much of the 
Southwestern quarter of the Nation with exceptional drought 
continuing in California, Western Nevada and a large portion of 
the Southern plains.
    The Department has nearly 5,000 firefighters and support 
personnel to deploy this season. We have three, 3 single engine 
air tankers on exclusive use contracts and an additional 38 on 
on call when needed contracts. Additionally we have helicopters 
and water skippers available.
    Appropriations for the 2014 wild land fire budget total 861 
million, including 378 million for suppression and FLAME funds.
    Drought conditions across the West, changing climate, 
invasive species and longer, hotter fire seasons make it a 
challenge to plan for and budget for firefighting. What we need 
is a long term, sustainable wild land fire budget framework 
that recognizes the unpredictability of fire and treats it as 
an emergency, like tornadoes and hurricanes.
    We greatly appreciate the leadership of Senators Wyden and 
Crapo as well as Congressmen Simpson and Schrader and all of 
the supporting co-sponsors in putting forth such a sustainable 
framework. The 2015 budget proposal for Interior and the Forest 
Service models this approach.
    The 2015 budget request for the wild land fire management 
program is $794 million which will allow the Department of the 
Interior to fund ongoing level of normal firefighting, fuels 
management, burned area rehabilitation, science and facilities 
maintenance. An additional $240 million is requested as the cap 
adjustment.
    The budget proposal is designed to provide stable funding 
for fire suppression while minimizing the adverse impacts of 
fire transfers on the budgets of other fire and non-fire 
programs as well as reduce fire risk, manage landscapes more 
comprehensively and increase the resiliency of public lands in 
the communities that border them.
    In this proposed new budget framework a portion of the 
funding needed for suppression response is funded within the 
discretionary spending limits. A portion is funded in an 
adjustment to those limits.
    For Interior, $268.6 million is requested within the 
current budget cap which is 70 percent of the 10-year 
suppression average spending. This base level funding ensures 
that the cap adjustment will only be used for the most severe 
fire activity which constitutes approximately 1 percent of all 
fires and 30 percent of the costs. This approach would provide 
funding certainty in future years for firefighting costs, 
maintain fiscal responsibility by addressing wildfire disaster 
needs through agreed upon funding mechanisms and free up 
resources to invest in areas that will promote long term forest 
and rangeland health and reduce fire risk.
    In addition our request does not increase overall 
discretionary spending as it would reduce the ceiling for the 
existing disaster relief cap adjustment by an equivalent amount 
as is provided for wildfire suppression operations.
    The request includes a 30 million dollar increase to 
establish a new, resilient landscapes activity to improve the 
integrity and resilience of forest and range lands by restoring 
and maintaining landscapes to specific conditions for fire 
resiliency. Treatments will be strategically placed across 
landscapes including outside of the wild land urban interface 
where ecosystems, structure and function is threatened by 
wildfire and other disturbances.
    The fuels management program uses a risk based approach 
that focuses on 3 strategic issues including the nature and 
extent of the fuels problems in terms of risk of wildfire to 
key values, determination of treatment and funding priorities 
based on those risks and measurement of accomplishment of 
program success in terms of reduction of those risks. More 
resilient, healthier ecosystems provide many benefits to 
society including clean water, scenic and recreation values, 
wood products and biodiversity.
    Communities are better able to withstand wildfire and 
treatments provide safer conditions and more strategic options 
for firefighters.
    Together with all of our available resources we will 
continue to provide a safe, effective wild land fire program. 
We will continue to improve effectiveness, cost efficiency, 
safety and community and resource protection.
    This concludes my statement. Thank you for your interest in 
the Department's wild land fire program and for the opportunity 
to testify before this committee. I welcome any questions you 
may have and appreciate your continued support.
    [The prepared statement of Ms. Thorsen follows:]
 Prepared Statement of Kim Thorsen, Deputy Assistant Secretary, Public 
Safety, Resource Protection, and Emergency Services, Department of the 
                                Interior
                              introduction
    Chairman Landrieu, Ranking Member Murkowski, and members of the 
Committee, thank you for the opportunity to testify today on Department 
of the Interior's readiness for the 2014 wildland fire season. The U.S. 
Department of the Interior (DOI), along with the Forest Service within 
the U.S. Department of Agriculture, is prepared for the 2014 wildland 
fire season with our available resources.
                          2013 wildfire season
    In the 2013 calendar year, nationally, nearly 51,000 fires were 
reported and over 4.3 million acres burned, which represents 65 percent 
and 59 percent of the 10-year averages, respectively. Alaska led the 
nation with 1.3 million acres burned. The Eastern Great Basin burned 
the most acres in the lower 48 states consuming nearly 768,000 acres. 
Over 2,100 structures were destroyed by wildfires in 2013, below the 
annual average of nearly 2,700. California accounted for the highest 
number of structures lost.
    The available funding before transfers and reprogrammings for 
suppression in FY 2013 was $368 million including the FLAME funding. 
The DOI obligations in FY 2013 were $399.2 million which required 
Section 102 transfers to cover the balance needed. The transfers were 
from within the Wildland Fire Management accounts of Fuels, 
Preparedness and Burned Area Rehabilitation, as well as other DOI 
bureau accounts mainly Construction and Land Acquisition. Repayment of 
these impacted bureau resource accounts occurred in FY 2014.
    The 2013 fire season was anything but normal when we reflect on the 
numbers of lives lost during the season. In total, 34 wildland Federal/
state/local firefighters died in the line of duty. This number, second 
only to the fire season of 1910 when 84 firefighters perished, was tied 
with 1994, the year in which 14 firefighters died in the South Canyon 
Fire on Storm King Mountain in Colorado.
    Loss of life leaves a mark not only on the families and friends of 
the fallen firefighters, but the loss resounds through the entire 
wildland fire community. Some particularly tragic fire seasons stand 
out in our history and continue to greatly influence the work we do 
every day. This calendar year, the wildland firefighting community 
commemorated two significant anniversaries that were marked by historic 
loss to the interagency wildland fire management community-the 
anniversaries of the South Canyon (July 6, 1994) and the Yarnell Hill 
(June 30, 2013) incidents.
                        2014 fire season outlook
    The 2014 fire season is expected to be similar to last year's. The 
National Wildfire Potential Outlook issued by the Predictive Sevices 
Unit at the National Interagency Fire Center for the period of July 
through October predicts above-normal fire potential for July over much 
of California, the Northwest, and the Great Basin.
    In August, we expect California, Nevada, Oregon, Washington, and 
Idaho will continue to experience above-normal fire potential with the 
possibility of above-normal fire activity across the New England states 
and the Four Corners area if short-term weather develops that would 
support fire outbreaks.
    Above-normal fire potential is predicted to remain over Southern 
and Central California through September and October; but Northern 
California, Oregon, and Washington should return to normal.
    The impacts of climate change, cumulative drought effects, 
increasing risk in and around communities, and escalating emergency 
response requirements continue to impact wildland fire management and 
wildfire response operations. Drought is forecasted to persist or 
worsen over much of the southwestern quarter of the nation with 
exceptional drought continuing in California, western Nevada, and a 
large portion of the southern Plains.
    Since the beginning of the calendar year, over 30,000 fires have 
burned more than 1 million acres, predominantly in the Southern, 
Eastern, Southwest, Northern and Southern California, and Alaska 
Geographic Areas of the country. The Northwest area has been unusually 
active for this time of the year. As of July 8, 2014, numbers of fires 
and acres burned represented 70 percent and 37 percent of normal, 
respectively.
                   expected available fire resources
    Together with our partners at the U. S. Forest Service, we are well 
prepared for the 2014 fire season. The Department plans to deploy over 
3,400 firefighters, including 143 smokejumpers, 17 Type-1 crews; 745 
engines; more than 200 other pieces of heavy equipment (dozers, 
tenders, etc.); and about 1,300 support personnel (incident management 
teams, dispatchers, fire cache, etc.); totaling nearly 5,000 personnel.
    The Department has been a leader in creating the Veterans to 
Wildland Fire program; and where possible, we will continue to 
emphasize the hiring of returning Veterans to fill the ranks of its 
firefighting forces.
    This year, we have 33 single-engine airtankers or SEATS on 
exclusive use contracts and an additional 38 on call-when-needed 
contracts. SEATs are a good fit for the types of fires that the 
Interior agencies experience. Many of these fires usually burn at lower 
elevations, in sparser fuels, on flatter terrain. We also have small 
and large helicopters and water scoopers available. We will utilize 
Forest Service contracted heavy airtankers and, if necessary, Modular 
Airborne FireFighting System (MAFFS) equipped C-130 aircraft from the 
Department of Defense. Agreements are in place to acquire supplemental 
aircraft from our state and international partners, if necessary.
    Appropriations for the 2014 wildland fire budget total $861 million 
including $378 million for suppression and the FLAME funds. Recently 
the President sent forward a supplemental request for the Forest 
Service in the amount of $615 million, which is the difference between 
the July FLAME forecast at the upper bound of the 90% confidence 
interval ($1.6 billion) and their available suppression appropriation 
of $995 million. Interior did not request funding in the supplemental 
because the upper bound of the July FLAME forecast 90% confidence 
projection is $355 million, which is $23 million below our appropriated 
amount. The FLAME projections are based on modeling and may change over 
time.
                        fiscal year 2015 budget
    Drought conditions across the west, changing climate, invasive 
species, and longer/hotter fire seasons make it a challenge to plan for 
and budget for firefighting. What we need is a long term, sustainable 
wildland fire budget framework that recognizes the unpredictability of 
fire and treats it as an emergency like tornadoes and hurricanes. We 
greatly appreciate the leadership of Senator's Wyden and Crapo, as well 
as Congressmen Simpson and Schrader, and all of the supporting co-
sponsors, in putting forth a sustainable framework. This legislation 
recognizes that we need a better way to budget for wildland fire 
management suppression programs, while maintaining accountability and 
transparency in spending.
    The 2015 budget proposal for Interior and the Forest Service models 
this approach. The 2015 budget request for the Wildland Fire Management 
Program is $794.0 million, which will allow the Department to fund an 
ongoing level of ``normal'' firefighting, fuels management, burned area 
rehabilitation, science, and facilities maintenance. An additional 
$240.4 million is requested as a cap adjustment.
    The budget proposes to amend the Balanced Budget and Emergency 
Deficit Control Act of 1985, as amended, to establish a new budget 
framework for the Wildland Fire Management program that is designed to 
provide stable funding for fire suppression, while minimizing the 
adverse impacts of fire transfers on the budgets of other fire and non-
fire programs, as well as reduce fire risk, manage landscapes more 
comprehensively, and increase the resiliency of public lands and the 
communities that border them.
    In this proposed new budget framework, a portion of the funding 
needed for suppression response is funded within the discretionary 
spending limits, and a portion is funded in an adjustment to those 
limits. For Interior, $268.6 million is requested within the current 
budget cap which is 70 percent of the 10-year suppression average 
spending. This base level funding ensures that the cap adjustment will 
only be used for the most severe fire activity which constitutes 
approximately one percent of all fires and 30 percent of the costs.
    This approach would provide funding certainty in future years for 
firefighting costs, maintain fiscal responsibility by addressing 
wildfire disaster needs through agreed-upon funding mechanisms and free 
up resources to invest in areas that will promote long-term forest 
health and reduce fire risk. In addition, our request does not increase 
overall discretionary spending, as it would reduce the ceiling for the 
existing disaster relief cap adjustment by an equivalent amount as is 
provided for wildfire suppression operations.
    The 2015 budget request includes a program increase of $34.1 
million for Preparedness. The increased funds will enhance Interior's 
readiness capabilities by strengthening preparedness capabilities . A 
major share of the Preparedness increase will be devoted to 
strengthening the BIA wildfire program by, among other things, funding 
contract support costs, providing workforce development opportunities 
for firefighters, and enhancing administrative support capabilities.
          national cohesive wildland fire management strategy
    In April, the Secretaries of the Department of the Interior and 
Agriculture released the National Cohesive Strategy and the National 
Action Plan bringing to a close the three-phased, collaborative 
approach to evaluate and address the nation's most significant wildland 
fire management issues, now and into the future. The goals of the 
National Cohesive Strategy are:

  <bullet> Restore and maintain landscapes.--Landscapes across all 
        jurisdictions are resilient to fire-related disturbances in 
        accordance with management objectives.
  <bullet> Fire-Adapted communities.--Human populations and 
        infrastructure can withstand a wildfire without loss of life 
        and property.
  <bullet> Wildfire response.--all jurisdictions participate in making 
        and implementing safe, effective, efficient risk-based wildfire 
        management decisions.

    The National Cohesive Strategy was developed and will be 
implemented in an inclusive process. This is both significant and 
distinct from past efforts. The outcome of the cohesive strategy effort 
is more than a set of documents; it is a commitment to the doctrine 
that as stakeholders, we all share responsibilities for managing our 
lands; protecting our nation's natural, tribal, cultural resources; and 
making our communities safe and resilient for future generations.
    Across the nation, we recognize that the principles of the National 
Cohesive Strategy are already being implemented in some places. We need 
to continue and strengthen those existing efforts and partnerships that 
are working.
    Wildland fire management must be an integrated program that works 
hand-in-hand with other natural resource, land use, and other program 
areas where we can achieve the most difference on the ground, together. 
It must be an integrated program that prioritizes efforts where there 
is an opportunity to work with our neighbors and partners who are 
taking action to collectively make the most difference.
    The National Strategy recognizes this need for engagement and 
action at all levels, on behalf of Federal, state, local, territorial 
and Tribal governments, non-governmental partners, property owners, and 
public stakeholders. Our future success will be defined by our 
commitment and ability to work together to achieve the vision and goals 
of the National Cohesive Strategy; together, we are moving forward with 
implementation.
                          resilient landscapes
    The 2015 budget makes pro-active investments in fuels management 
and landscape resiliency to better address the growing impact of 
wildland fire on communities and the public lands.
    The request includes a $30.0 million increase to establish a new 
``Resilient Landscapes'' activity to improve the integrity and 
resilience of forests and rangelands by restoring and maintaining 
landscapes to specific conditions for fire resiliency. Treatments will 
be strategically placed within landscapes, including outside of the 
wildland-urban interface (WUI) where ecosystem structure and function 
is threatened by wildfire and other disturbances.
    Examples of treatments that will be conducted include thinning of 
overstocked stands in areas with critical wildlife habitat, removing 
trees encroaching on meadows or wetlands with significant resource 
value, and controlling fire-adapted invasive weeds that degrade 
habitat, compete with native vegetation, and increase the risk of 
wildfire. Importantly, the Resilient Landscapes activity will be 
coordinated with and supported by the resource management programs of 
the four Interior bureaus that participate in the Wildland Fire 
program. Bureaus will leverage funds to restore and maintain fire 
resilient landscapes.
                        fuels management program
    The Department of the Interior's hazardous fuels program has been 
redefined as the Department's risk-based Fuels Management Program. The 
Fuels Management program uses a risk-based approach that focuses on 
three strategic issues, including the nature and extent of the fuels 
problem in terms of risk of wildfire to key values, primarily in the 
WUI; determination of treatment and funding priorities based on those 
risks; and measurement of accomplishment and program success in terms 
of reduction of those risks.
    The risk-based fuels management program is aligned with the three 
goals of the National Cohesive Wildland Fire Management Strategy to 
improve the integrity and resilience of the forests and rangelands, 
contribute to community adaptation to fire, and improve our ability to 
safely and appropriately respond to wildfire.
    More resilient, healthier ecosystems provide many benefits to 
society, including clean water, scenic, and recreation values, wood 
products, and biodiversity. Communities are better able to withstand 
wildfire and treatments provide safer conditions and more strategic 
options for firefighters.
    We've seen examples where fuels treatments played an important role 
in managing the fires. This year a fire break on the border with Kenai 
National Wildlife Refuge protected an Alaskan community and helped 
firefighters contain the Funny River Fire. Crews working on the San 
Juan Fire on the White Mountain Apache Reservation and Apache-
Sitgreaves National Forest in Arizona observed a significant change in 
fire behavior when the fire ran into a previous tree thinning project 
on the forest, and the crown fire dropped to a slow-moving ground fire, 
making the job for firefighters safer and easier to manage.
    Last year, during the 2013 California Rim Fire in Yosemite National 
Park crews observed a big change in fire behavior due to tree thinning 
and prescribed fire work accomplished around several structures and 
infrastructure located in the Hodgdon Meadow's area. The time gained by 
the reduced fire behavior allowed fire crews to protect NPS and 
taxpayer's investments in this developed area with little to no 
damaging fire effects and no loss of structures.
    Interior has targeted a research effort with the Joint Fire Science 
Program to characterize the effectiveness of fuels treatment on 
wildland fire behavior, costs, and resilience. Results of these studies 
will be incorporated into our Fuels Management Program.
                          preparedness program
    Consistent with the Cohesive Strategy and similar to fuels 
management, we are continuing to develop a risk-based framework to 
develop and manage the Preparedness Program budget. The risk framework 
seeks to align Preparedness investments with fire risk relative to 
priority values such as life and property, natural/cultural/economic 
resources, and DOI lands in general rather than on historical 
allocations. Fire managers will be able to adjust allocations while 
considering current capability, return on investments, and workload/
complexity. It will let us be adaptive and make strategic decisions 
about placement of wildland firefighting resources with changing 
budgets and risk-profiles.
                              partnerships
    The realities of today's challenges at federal, state and other 
levels highlights the importance of working together across landscapes, 
and with our partners to achieve our goals.
    The Federal wildland fire agencies are working with Tribal, state, 
and local government partners to prevent and reduce the effects of 
large, unwanted fires through preparedness activities like risk 
assessment, prevention and mitigation efforts, mutual aid agreements, 
firefighter training, acquisition of equipment and aircraft, and 
dispatching firefighters, support personnel and equipment; community 
assistance and hazardous fuels reduction. These actions demonstrate 
Interior's continued commitment to the goals of the National Cohesive 
Wildland Fire Management Strategy (restore and maintain resilient 
landscapes, create fire-adapted communities, and response to wildfire).
                               conclusion
    Although the Department of the Interior and the Department of 
Agriculture (USDA) are offering separate written statements today, 
please be assured that our Departments work collaboratively in all 
aspects of wildland fire management, along with our other Federal, 
Tribal, state and local partners.
    Together, with all our available resources, we will continue to 
provide a safe, effective wildland fire management program. We will 
continue to improve effectiveness, cost efficiency, safety, and 
community and resource protection.
    This concludes my statement. Thank you for your interest in the 
Department's wildland fire management program and for the opportunity 
to testify before this Committee. I welcome any questions you may have 
and appreciate your continued support.

    The Chair. Thank you very much.
    For the benefit of the committee members the order after 
our questions will be Senator Heller, Senator Baldwin, Senator 
Flake, Senator Udall, Senator Barrasso, Senator Heinrich, 
Senator Risch.
    Let me begin by asking both of you. Critics of the Wyden/
Crapo legislation which the Administration does support, say 
that the Wildfire Disaster Funding Act is a blank check or even 
a slush fund. How would you respond to those charges and can 
you both underscore why you believe their approach is 
necessary?
    Mr. Tidwell. Madame Chairwoman, I'll start. But first I 
need to clarify that in our budget request which merits or 
basically follows this proposal. 99 percent of our fires, the 
cost of those fires, will still be covered in our 
appropriation. It's only that 1 percent that happens to equate 
often to about 30 percent of the cost that will be considered 
to be funded out of the Emergency Disaster Relief Funds.
    So you're still going to have 99 percent of our programs 
still going to be part of our appropriation. It's just that 1 
percent that will be disasters.
    So this proposal what it does it stops fire transfer. It 
stops that disruptive practice. It provides a stable funding 
source and at the same time it does free up the potential for 
us to invest, to do more of the hazardous fuels work and to do 
more work to restore the health of our forests.
    The Chair. Ms. Thorsen.
    Ms. Thorsen. Thank you.
    I would totally agree with what Tom has said. In addition 
we don't see it as a slush fund of any sort. Any funding that 
we receive in Interior and I'm sure in the Forest Service, we 
are held accountable for and transparent about.
    So this, the funding proposal here, would in no way change 
how we are accountable for what we do. We are extremely cost 
efficient, always looking for effectiveness on the ground in 
firefighting activities, investment of fuels and so forth.
    So in no way does this budget proposal, in any way, let us 
think that we have an endless amount of funding. We will be 
very accountable and very transparent about what we do with 
that funding.
    The Chair. Thank you very much.
    My next question is for you, Ms. Thorsen.
    In my visit to Kisatchie, in my many visits to important 
sites in my State, I'm very clear that our business and 
industry and environmental groups work very well together. I'm 
not sure that is the case in other States, but I know that in 
Louisiana we have a pretty good coalition together.
    We have an umbrella organization called Louisiana 
Prescribed Fire Council. Are you aware of this council's work 
or something like it? Can you tell us if there are lessons that 
you've learned for the cooperative work of this network? Should 
it be expanded to other parts of the country?
    Are you aware of this coalition?
    Ms. Thorsen. Yes, I am, actually. It's a group in Louisiana 
comprised of landowners, private landowners, NGO's, Federal/
State/local governments, a whole host of folks that conduct 
prescribed fire activities and among themselves share all of 
that information in the State of Louisiana.
    Their group, additionally, brings forth students from the 
prescribed fire training center. It's located in Tallahassee, 
Florida to the State of Louisiana, to learn about what lessons 
learned and those types of things that they do in Louisiana. 
That group, then, is also mirrored in the other Southeastern 
States.
    So each of the States have a Prescribed Fire Council.
    The Chair. Chief, let's talk about that because I've only 
got a minute.
    The Southeast, our region, seems to have a pretty good 
model for prescribed burns, if we could get some funding for 
it, selling timber which is important for jobs and maintaining 
a healthy forest for recreation. I know there are differences 
between the Southeast and the Eastern part of the country and 
the West. I am understanding that the real emergency is in the 
West.
    But maybe this could serve as a model. Can you just comment 
for 30 seconds or so, on this procedure or policy?
    Mr. Tidwell. Yes.
    You've seen the good work that's there done on the 
Kisatchie. It's an example of when we're able to use prescribed 
fire along with active timber management, we can restore the 
conditions of our forest to provide all the benefits, not only 
to provide for clean water, clean air, but also the wildlife 
habitat and at the same time to produce the wood products that 
could come off of that forest.
    What we've been able to do throughout the South is to be 
able to recognize the importance of active management and 
especially the importance of being able to use prescribed fire. 
It's something that we're starting to be able to replicate 
across the country as more and more people can see the benefits 
of being able to manage our forests for multiple use.
    The Chair. I think just one of the points to underscore and 
the Westerners will agree with me. One of the reasons that it's 
working in the South is because the land is privately held. So 
the forward leaning of the land owner is really helping this.
    What's happening in the West is the landowner is the 
Federal Government. It may not be leaning forward enough. So 
we've got to kind of explore this and we shall see from what 
our Westerners think.
    But anyway it was a very interesting comment or review of 
this issue.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madame Chairman.
    Just following up on that.
    I was out in Soldotna this weekend looking at the aftermath 
of the Funny River Fire. This was a fire that, I'm told, burned 
an area approximately the size of the city of Seattle. So it 
was substantial. A lot of concern about threats to private 
property, but the good news is is that most escaped.
    But there was a lot of discussion about the fact that the 
fire started on refuge land and whether or not there had been 
any level of active management. Some folks that felt that their 
properties were threatened were really quite agitated about the 
concerns that they had raised. We're going to be learning a 
little bit more, but you raise a very appropriate question 
there, Madame Chairman.
    I want to go back to the Chairman's question about the 
issue of not giving the Forest Service a blank check, if you 
will, when we're talking about this budget cap proposal that is 
under discussion today. Chief, I'm not certain that you 
actually have these numbers, but getting these numbers is going 
to be important to this debate, important to how we find an end 
to fire borrowing.
    That is how many actual acres of Forest Service lands was 
treated in this last fiscal year?
    So what I'm looking for is a breakdown for that number. I 
think you know the reason why this is important. You were 
talking about some big numbers here, expensive wildfires, how 
we need to budget differently, including doing more thinning 
work and helping reduce the number of these big fires.
    So what I would like you to give me are the acres that have 
been mechanically treated----
    the acres mechanically treated using commercial timber 
harvest.
    the acres treated with prescribed fires, like the Chairman 
has been talking about; and
    the acres treated using other tools besides prescribed fire 
and mechanical thinning.
    I think that would be very helpful for us as a committee as 
we try to understand because what I would like to do and where 
I think the Chairman is going certainly with our conversations 
here. We want to know that if, in fact, we move to a proposal 
like the Wyden/Crapo proposal that Forest Service doesn't now 
have increased discretion within their budget to go and do 
whatever it is that you may hope to do with that.
    I would like to see some real active management. I would 
like to know, for a fact, that we're going to get some 
treatment into our forest lands so that we can work to reduce 
that.
    So if you could get me those numbers I would appreciate it.
    Let me ask, Chief, on the wildfire cap adjustment some have 
suggested that the budgeting and requesting 100 percent of the 
10-year average isn't working. The suppression costs exceed 
these levels. We know that.
    Have we looked to whether or not different methods to 
determine the budget request might be more accurate? I mean, 
are we using the same approach that we always have been and as 
a consequence our numbers are all off? Have we looked to 
whether or not there are different accounting methods that we 
might utilize?
    Mr. Tidwell. Senator, we have looked at different methods. 
The concept of a 10-year average has been well accepted when it 
comes to budgeting. But the problem we have is that with the 
changed conditions and each year it seems like we're having a 
more active fire season, that 10-year average often, as has 
been pointed out, 8 out of the last 10 years, we've had to 
provide supplemental funding.
    Senator Murkowski. It doesn't work. Yes.
    Mr. Tidwell. So the other thing that we do as part of the 
FLAME Act, we submit a report to Congress every year. Then we 
predict, based on our regression model, what we think the next 
fire season is going to be.
    But here's the problem. So in FY 2015 as part of our budget 
submission, we did run the progression model. It produces a 
range somewhere between $770 million to $1.9 billion. Within 
that range our scientists are 90 percent confident that the 
next year fire season is going to be there.
    So as we move forward 8 or 9 months, we'll be able to 
shrink that down and be more accurate. But here's our challenge 
because we're now talking about the FY 2015 budget to be able 
to budget for a situation that's 6 to 8 months out and have 
that accuracy that's really needed. That's the challenge that 
we have.
    Senator Murkowski. So if that's the challenge.
    Mr. Tidwell. The regression model is another tool.
    Senator Murkowski. Are we looking to other models then? 
This is something that perhaps we don't have the answer to, but 
if we've acknowledged that this one isn't working it would sure 
seem to me that we ought to be, kind of, coming together to see 
what it is that might, perhaps, be a better predictor.
    We all know that forest fires come and go. In some years 
you have really horrible years and others not so much. But we 
know that this one is not giving us the year accuracy that we 
need.
    Madame Chairman, I know we're probably not going to get to 
a second round because of votes. But I just want the Chief to 
know I'm going to have a whole series of questions for the 
record that I would like you to address. Some continue about 
the wildfire cap adjustment, but I also have questions as they 
relate to aviation for firefighting and our NextGen 
firefighters.
    I also have a very probing question about the NN float. It 
would not be a budget hearing if I did not bring up my 
discomfort with what is not going on in NN. I was out there 
over the Fourth of July weekend. What you promised me last year 
has not been addressed. So I'd like to follow up with you.
    The Chair. Thank you, Senator.
    Senator Heller and then Senator Baldwin.
    Senator Heller. Madame Chair, thank you for this hearing 
and for the Ranking Member, I think it's long overdue. I want 
to thank our witnesses also for being here today and taking 
time from their busy schedule.
    States like Nevada and most of us in the Western portions 
of this country clearly have a lot of lands that are run by the 
Federal Government whether it's BLM, Forest Service, U.S. Fish 
and Wildlife. So I think it's critical to hear from Forest 
Service today and the Department of Interior to get some 
feedback on what we can do appropriately to fight back, push 
back, on some of these wildfires.
    One of the greatest challenges facing our Western forests 
and rangeland, as we've been talking all day, is the severity 
and the length of the fire season that we're faced with. Nevada 
is one of a handful of Western States that seemingly keeps 
enduring record breaking fire devastation year after year. From 
2009 to 2013 wild land fires have burned over 1.2 million acres 
of Forest Service and BLM administered lands in my State.
    In the last 3 years, in particularly, have been 
devastating, 424,000 acres in 2011, 613,000 in 2012, 163,000 
acres in 2013. So not telling you anything you don't already 
know. It's as big of an issue in Nevada as it is everywhere 
else.
    In fact the Secretary of Agriculture has declared a drought 
disaster in all counties in the State of Nevada just as the 
other Senator from California had mentioned in her State. 
Surprisingly, unsurprisingly, the National Interagency Fire 
Center estimates the potential for wild land fires in August 
and September will remain high over California, Nevada, Oregon, 
Washington and Idaho. I'm assuming that Arizona is part of that 
also, Jeff.
    Needless to say, multiple fires have already broken out in 
the State of Nevada. We just recently had the Hunters Falls 
fire burning southwest of Reno at a cost of $800,000. Could 
have been much worse, but I think people under your 
jurisdiction did a tremendous job and those at BLM and local 
firefighters in suppressing that particular fire.
    Here's the issue. This week the weather forecast throughout 
the week is that we'll have lightning storms throughout the 
State. So we all hold our collective breaths. What's going to 
happen with multiple lightning strikes day after day after day 
after day in States like California and Nevada and the impact 
that's going to have?
    I think it's clear from the numbers that everybody is 
talking about is that the status quo isn't quite working.
    I guess the first question I have is how much does it cost 
per acre? I don't know if you have this number per acre to 
fight a wildfire?
    Mr. Tidwell. It all depends on the fire. There's some where 
we can quickly get on top of and keep it small to a few acres 
that the overall costs is relatively small. I'd be glad to be 
able to provide you a range of costs based----
    Senator Heller. Does it change from State to State, I mean, 
the cost per one State as opposed to another or is it just to 
rain and----
    Mr. Tidwell. It's to rain and the number of homes is 
probably the other thing that really changes the cost. If we're 
having to first of all protect homes, communities, from fire. 
That drives the strategy it's going to require a lot more 
engines.
    It's going to justify the use of more equipment. It's just 
much more difficult verses if we have an opportunity to put in 
a fire line and then just burn out from it. That's a much more 
effective. It's less costly.
    But there's no question when there's homes involved the 
costs go up.
    Senator Heller. What about treatment? Is it cheaper to 
treat per acre? Fire suppression treatment, is it cheaper per 
acre to do that than it is to actually fight a fire?
    Mr. Tidwell. There's no question we've analyzed over 100 of 
our hazardous or excuse me, a thousand of our hazardous fuel 
treatments. In over 90 percent of those treatments have reduced 
the severity of the fire behavior so that it's easier for us to 
be able to suppress the fire. It's safer, without any question, 
for our firefighters.
    So we have the data that shows that by making that 
investment we can reduce the severity so it's easier to stop 
that fire. We're more successful. What's most important, it's 
safer for our firefighters to be able to get in there and do 
their work.
    Senator Heller. I appreciate what the men and women do to 
fight fires across this country. I've had close--my son, for 
that matter, has fought fires for the Forest Service and BLM 
both while he was in college. My brother did, close friends. I 
think that's typical college work that you join these crews and 
help fight these fires. I really do appreciate their hard work 
and effort and what they've done for this country in trying to 
reduce the damage that's done by these fires.
    I saw a report earlier this month that discussed some of 
the highest risk areas near power lines and critical 
infrastructure. What are we doing to help relieve some of those 
problems? What I guess I'm concerned about is rolling blackouts 
in Nevada and California that's potential from burning lines, 
critical lines, and perhaps even water, water ways so on and so 
forth.
    So what are we doing as an agency to protect these critical 
and potentially devastating areas that we could avoid?
    The Chair. Senator, can I ask? I normally don't do this, 
but because we have votes that are going to be called and I 
want to get through. Would you answer that in writing, please?
    Senator Heller. That would be fine.
    The Chair. Because of time.
    Senator Heller. That would be fine.
    The Chair. Thank you. We'll make sure we get that question. 
Excellent question.
    Senator Heller. If I may submit more for the record?
    The Chair. Yes, absolutely.
    Senator Heller. OK.
    The Chair. We'll go to Senator Baldwin.
    Senator Baldwin. Thank you.
    I'm really encouraged that the committee is taking a 
deliberate look at this critical issue. This is not simply a 
budgeting issue because fire borrowing really cripples the 
Forest Service's ability to effectively manage our National 
Forests. We've talked a little bit about the West and the 
South. I want to bring a perspective of the Midwest.
    In Wisconsin fire borrowing has contributed to lagging 
timber sales and has a cascading impact across the timber 
products industry which is a core part of Wisconsin's economy, 
especially in the Northern part of the State. Wisconsin needs a 
U.S. Forest Service that has the resources available to do its 
job and serve our State.
    It's why I'm a co-sponsor of the bipartisan Wildfire 
Disaster Funding Act because I really feel like we have an 
opportunity to get this fix enacted in the supplemental funding 
request. I know that on the House side Representative Simpson 
has been working hard to make this happen. But I was actually 
surprised to learn that Representative Paul Ryan, of my own 
State, is opposing this step forward that would allow our 
forests to work for our communities once again.
    I don't think we should be distracted from the opportunity 
that we have to get the fix done this year. Communities in 
Wisconsin and across our country are they've been waiting long 
enough.
    Chief Tidwell, the timber industry is a core part of the 
economy in Northern Wisconsin. We had a chance to speak more 
directly about that. We have many small, family owned 
businesses that are involved in running logging operations and 
mills.
    I know that the Forest Service timber is, in part, a 
supplier to those mills. That having those functioning mills is 
essential in a partnership to the Forest Service. It works to 
accomplish long-term management goals.
    So once the fire borrowing impediment is finally solved and 
I do hope it will be very soon. Can we expect annual timber 
sales on forests, like the Chequamegon-Nicolet in Northern 
Wisconsin, will go up? Can I represent to my constituents that 
that would be the case?
    Mr. Tidwell. Senator, part of our FY 2015 budget proposal 
that reflects the adjustments made by the Wildfire Fund 
Disaster Act does allow us to request additional money to be 
able to do more forest restoration, to be able to treat more 
acres and produce more wood and more jobs. Our target goes up 
in FY 2015 based on that.
    I want to stress that we've been talking about fire. We 
need to restore our forests to reduce the threat of fire. But 
we also need to restore our forests to reduce the threat of 
insect and disease to make sure that they continue to be 
healthy and provide that mix of benefits.
    So that's the other benefit of this. It's not just for our 
fire prone forests. But there's work that needs to be done, 
like in your State, to be able to address forest health 
concerns and then also to provide additional wildlife habitat. 
It's one of the main reasons we do forest harvest in your State 
is to provide for wildlife habitat.
    So that's just another benefit that would come out from 
fixing this problem.
    Senator Baldwin. I appreciate that. Given our limited time 
I may also be submitting some questions for the record 
including how you plan on implementing some of the new tools 
that you've been given in the Farm bill relating to insect and 
disease and other issues.
    One thing I did want to just ask you about, Chief Tidwell, 
is your budget has several outcome measures but many output 
measures. While it's useful to see output like board feet sold 
or miles of stream habitat that's restored, the outcomes of 
program work is really what the public cares about and how we 
engage them in support of your programs.
    A stated goal of your integrated resource restoration 
proposal is to create economic opportunities for local 
communities. Until fiscal year 2013 your budget tracked a 
measure of jobs related to recreation in the National Forests 
and Grasslands. I actually think it would be very useful to 
have a broader outcome that can demonstrate what the Forest 
Service is doing to advance those local economic opportunities 
like the many that we have.
    I'm wondering if you will work with your staff and my staff 
and our committee to create an outcome measure that will help 
Congress and the public understand how successful the Forest 
Service is at creating and sustaining economic opportunity.
    The Chair. A yes or no answer would be good right now.
    [Laughter.]
    Senator Baldwin. A yes answer would be, right?
    Mr. Tidwell. Yes.
    The Chair. Yes, that's the one we were hoping. You can give 
more information because I really want to ask members to 4 
minutes each and we'll get everybody in.
    Senator Flake.
    Senator Flake. Thank you, Madame Chair.
    Thank you for the testimony.
    We spoke a little earlier about the White Mountain 
Stewardship contract, Apache Sitgreaves Forest, that Supervisor 
Tenney did a good job of explaining the value of that. We do 
have private industry. I think there's been about $130 million 
of investment that's gone into that.
    Senator Heinrich and I toured Apache Sitgreaves, as you 
know, a few months ago and that concern that we have is that 
that industry that has developed because of the White Mountain 
Stewardship contracting and to much credit goes to the Forest 
Service for pushing that forward. But the concern is that it's 
going to go fallow now because there's a bit of a gap between 
stewardship contracting, the authority ending and the 4 fly 
initiative, the second phase, that will involve the Eastern 
Forest.
    That coming on, Senator McCain and I have been very 
concerned about this for a while. We've written to you looking 
to see a plan to get some NEPA ready acreage that can be 
treated otherwise this industry is going to go away. We've not 
yet seen a plan on how to deal with that, how to bridge that 
gap.
    Can you assure me there is a plan and that Forest Service 
is working on that? I know you're aware of the problem.
    Mr. Tidwell. Senator, we are working on bridging that gap. 
I'll be glad to share with you the steps we're taking for some 
additional projects there. Also we're looking at using the BCAP 
authority out of the Farm bill to be able to help subsidize the 
costs of some of the biomass that could be moved to the power 
plant there that will help that.
    But our real problem--and we'll be able to do some things, 
to get through the immediate year. But our problem is that if 
we're not able to significantly increase the amount of work 
that we're doing we're going to keep running into this. That's 
what we need to really be talking about is how we can find a 
way to move forward and be able to get more work done.
    Our budget request does represent it asked for some 
additional funding to not only be able to do more hazardous 
fuels reduction, but more forest restoration work. So it's 
essential that we're able to find some additional capacity to 
take advantage of the industry that's now come back into your 
State and to make sure that it's going to be there 10 years 
from now.
    Senator Flake. That's a concern. That we've got it there 
now, but I can tell you to try to seek investment to go ahead 
and do this again. It's just not going to be there. We'll lose 
the gains that we've been able to make.
    Talked about the San Juan fire, I think everybody 
acknowledges that was a lot less severe.
    Mr. Tidwell. Yes.
    Senator Flake. In the treated areas. So hope we can move 
ahead.
    Just one other issue with regard to the Administration's 
fire budgeting proposal. Can you tell me how that ensures that 
the fire borrowing that's taken money out of fuels reduction 
and treatment will actually go to those areas rather than to 
some other area like land acquisition or something else?
    Is there a guarantee in the President's proposal that the 
moneys not bled off to suppression will actually go to 
treatment?
    Mr. Tidwell. You can see in our FY 2015 request where we 
ask for additional funding to do the work in hazardous fuels 
and to restore our forests. I think that represents our intent 
to be able to pursue the additional flexibility in the budget 
constraint to be able to be more proactive, to reinvest in this 
work.
    I'd be glad to share the numbers with you of the additional 
request that we've asked for.
    Senator Flake. Just in the 10 seconds I have left. It is a 
concern of ours that there's no guarantee that that money will 
be spent. We all know that sometimes it's prioritized 
elsewhere. That's why in the amendments that we have, FLAME Act 
amendments, we ensure that that money goes to treatment.
    So, thank you.
    The Chair. Thank you very much.
    To accommodate everyone Senator Heinrich could go now, then 
Senator Risch, then Udall and then Cantwell. Is that OK with 
you, Senator Udall?
    Senator Heinrich.
    Senator Heinrich. Thank you, Chair.
    First let me start by saying how much I appreciate the work 
that Senators Wyden and Crapo did on this issue. I think their 
legislation is probably the most promising, bipartisan solution 
that I've seen for, well, since we started seeing this, sort 
of, climate induced fire cycle that seems to get worse every 
year in both treated and untreated areas. So I think that's 
very encouraging.
    I want to talk a little bit about the McCain/Barrasso 
legislation simply because it would mandate certain levels of 
timber production on our national forests in the name of forest 
health. First let me say that timber contracts can absolutely 
be a useful tool for reducing the risk of catastrophic 
wildfires and that applies to some areas in my State as well.
    But for the bulk of my State we rely much more heavily on 
the hazardous fuels reduction program, on stewardship 
contracting and on watershed restoration programs. That is, in 
part, because many of the forests that we need to thin in New 
Mexico are dominated by very small diameter Ponderosa Pine, in 
particular, but other mixed conifer species as well that are 
simply not economically viable. Either we don't have proximity 
access to a market, sometimes for even the large diameter trees 
or we don't have access to a biofuel facility like the one that 
I toured in Arizona with Senator Flake near the Apache 
Sitgreaves.
    So we rely very heavily on the collaborative Forest 
Landscape Restoration Program, Legacy roads and trails, water 
source protection agreements, like the Santa Fe Water Fund. 
These have been held back by the uncertainties are created by 
fire borrowing. My concern with that legislation is that by 
sending that money solely to timber contracting and defunding 
these other tools that are working in our forests that we'd 
have an even worse fire situation in New Mexico's forest.
    I think we need to figure out what tools are working, where 
and use them and not one to the complete exclusion of others.
    So, I'd simply ask you, Chief, what would the impact on 
other forest service programs including watershed restoration 
programs be of meeting the timber mandates in Senator 
Barrasso's legislation and Senator McCain's legislation?
    Mr. Tidwell. We do not have an administrative position on 
Senator Barrasso's bill yet. We haven't had a chance to fully 
analyze it.
    But I will share with you that I have concerns when we 
limit, maybe prematurely, as to what tool to use. I would 
prefer for us to be able to look at the landscape and then 
decide what's the right approach to be able to do that work.
    There's no question that we need to do more hazardous fuels 
reduction.
    There's no question.
    I've been on the record for years now about the additional 
work we need to do to restore our forests. So I appreciate the 
Senator's support to be able to talk about recognizing the need 
to do more of that work.
    But I'm also concerned about where the funding would come 
from and just now as we see what happens every year when we 
have to transfer funds. We have to shut down operations. Then 
each year as the 10-year average keeps increasing every year.
    For instance, since FY 2012 to FY 2015 we had to increase 
fire suppression another $156 million. Now with a flat budget, 
that's $156 million that has to come out of all the other 
programs which a lot of them are the ones that you mentioned. 
So I have those concerns.
    I recognize the work that we need to get more work done. 
Then the other thing, we've made great progress of being able 
to set up a system where the public feels that they have the 
opportunity to be fully engaged in the work that's done on 
their national forests. I'm always concerned if there's 
anything that limits that participation that I believe it's a 
step backward. It's something that will probably slow down the 
progress that we're making.
    Where I've testified on Senators Barrasso's Forest bill, 
the funding bill that McCain and Barrasso has put forward, 
that's the one that we haven't put an administrative proposal 
together.
    But once again I just want to thank everyone's support for 
finding a solution to this issue.
    The Chair. Thank you so much.
    Senator Risch, Senator Udall and Senator Cantwell and then 
we'll close.
    Senator Risch. Thank you, Madame Chairman.
    Just briefly, I think if you look at the facts there's no 
question as to why we're in the situation we're in.
    When I started in the State senate in 1975 there were over 
40 operating sawmills in Southern Idaho. Idaho is cut in half, 
North/South by the Salmon River. I'd been through a lot of 
those because I'd been through the forestry school at the 
University of Idaho. It amazed me that today there are only two 
of those 40 mills left.
    Now you can't stop taking that amount of fuel out of the 
forest and not cause the problem that we've got.
    Now certainly that leads to the problem, but we all know 
the weather is a huge factor involved in this. Indeed I'm sure 
both of you look at the Interagency Fire Center report every 
morning. This is report that comes out of Boise where NFSE is 
located.
    This year, compared to the other years, we're down quite a 
bit. Over the last 4 years--tomorrow at noon we celebrate in 
the Intermountain West, halfway through the summer season. 
We'll be halfway through July.
    So looking at the numbers just to this point.
    In 2011 at this point we burned 5.8 million acres.
    In 2010, 3.5 million acres.
    Last year, two million acres.
    This year we're down to a million acres.
    So we've actually burned half a million acres less this 
year than we have in the last 10 years. On average we're only 
about a third because there's about 3 million acres, 3.2 
million acres burned every year.
    So maybe we're going to be able to catch our breath a 
little bit this year. We're under a huge high pressure right 
now that's going to cause us a lot of problems with a lot of 
heat.
    So, I like both McCain/Flake/Barrasso and Wyden/Crapo. I'm 
a co-sponsor of Wyden/Crapo.
    I'm hoping that we can meld those two bills together. They 
both have some things in it that are good things. They focus on 
the budgeting nuances that a lot of people in America don't 
understand, really don't care about. They just want us to get 
the job done.
    I'm hoping we can sit down and reconcile those two so we 
can get you that bill. You can do what you've committed to do 
and that is contained to reduce the fuel load because the fuel 
load together with the weather is what causes the problem. 
Certainly we're going to have that as time goes forward.
    So, with that, thank you, Madame Chairman.
    The Chair. Thank you very much, Senator Risch.
    We've been joined by Senator Wyden. We'll recognize him as 
well at the appropriate time.
    Senator Udall.
    Senator Udall. Thank you, Madame Chair.
    Chief, it's good to see you. We've discussed a number of 
cases of the air tanker program. I want to, if you will, thank 
the Secretary through you for his response to my latest 
inquiry.
    I'm going to keep pushing the Forest Service and the USDA 
on this issue until I'm confident we've got a fleet that we can 
be proud of. As you know, air tankers are critical and crucial 
for the initial attack. They can keep small fires from becoming 
catastrophic.
    I've been watching the next generation air tanker program 
closely because we can't fight these modern mega fires with 
Korean War era aircraft. While I'm pleased to hear that your 
report that up to 9 NextGen tankers are available this fire 
season I do have a couple follow up questions.
    The Secretary's letter indicated that two vendors were on 
track to meet their start date of June 2014.
    First, did that happen?
    Second, I'm concerned that so many tanker vendors have not 
fully delivered or have struggled to meet their contract 
obligations.
    What are your plans to deal with that? What's your plan for 
getting more of these NextGen aircraft up in the air?
    Mr. Tidwell. We're anticipating by even later today or no 
later than next week that all of the vendors, except for one, 
will have their aircraft flying. We do have one vendor that 
we're going to continue to work with to see if they can provide 
that plane. But we have the rest of them or actually have 
provided planes and are using those aircraft.
    Senator Udall. Let me move to the Defense Authorization 
bill of last year. I serve on the Armed Services Committee. I 
worked very hard to put in place the potential to transfer up 
to 7 C-130H aircraft from the Coast Guard to the U.S. Forest 
Service.
    Can you give us an update on the divested aircraft? Do you 
see any potential road blocks?
    Mr. Tidwell. I'm going to remain concerned about those 
aircraft until I actually see them flying for us.
    But the latest information we have is that we expect to 
have one of those aircraft probably late next year that we'll 
put a MAFFS unit into it. Then the following year, two aircraft 
and then the next year, a few more, so it will be FY 2018 when 
we actually have all 7 of those that have been fully 
retrofitted and flying.
    So that's the schedule we're working with. Then we're going 
to continue to work with the Air Force to find if there's any 
ways that we can accelerate that. But the reality is that those 
planes have to line up with the Air Force's need to deal with 
their aircraft and definitely understand their priorities.
    Senator Udall. I'm going to keep pushing to ensure that 
2018 fiscal year, is the latest we see those aircraft. I 
appreciate your frank response.
    Madame Chair, in the interest of time why don't I stop here 
and let other colleagues have a few----
    The Chair. Thank you, Senator Udall. Really appreciate your 
leadership.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madame Chair. Thank you, Chief 
Tidwell.
    This is a map of Washington State. You can see by the 
yellow and red that almost half of our geographic area is 
either in high or very high areas. We have several fires now, 
the Mill Canyons Fire and there is an interagency management 
team helping. So we greatly appreciate that.
    But I think, like so many of my colleagues from Western 
States, we're we keep seeing this movie over and over again. 
Yes, we're going to see a certain amount right now the 
lightning threat does concern us a lot in these areas. But it 
goes to the basic question of instead of every year stealing 
basically from other resources, isn't there a--I know the Wyden 
bill which I support, a management system where we can do some 
fuel reductions as part of a biomass program and then use those 
generated dollars to then do the urban interface work that we 
want to do.
    Don't those things go hand in hand?
    If you could, since in the interest of time, comment about 
your potential use or current use of drones in helping us 
identify the magnitude. It's not been that long ago that we had 
the 30-mile fire in our State where we lost several lives. 
Really understanding what's happening and the current threat 
level is very important and so if you could comment on that.
    Mr. Tidwell. Senator, your first question, our stewardship 
contracting is probably our best approach to be able to look at 
all the work that needs to be done on the landscape. Then be 
able to use the value of the biomass, the timber that needs to 
be removed to be able to offset some of the other restoration 
work. That's something we're continuing to expand and now close 
to over about 30 percent of our work is now being done with 
stewardship contracting.
    Then the question on drones, it's one of the things we're 
looking into to actually use those aircraft to be able to 
provide better intelligence. Last year on the Rim Fire in 
California through the State and Department of Defense, we were 
able to fly a Defense plane that actually helped us pick up 
some spots that are outside the line earlier than we would have 
picked it up with our infrared flight.
    So there's no question that it's a tool that we need to 
begin using and we're going to continue to work on that to be 
able to find the right way to move forward with it so that it 
can provide better information to our firefighters.
    Senator Cantwell. Do you need anything else from FAA on 
that to move forward?
    Mr. Tidwell. We're working with the FAA right now. If we 
need anything else I'll let you know.
    Senator Cantwell. Thank you.
    The Chair. Thank you so much. Senator Wyden will have the 
last word which is appropriate since his bill is how we started 
this whole discussion.
    Senator.
    Senator Wyden. Madame Chair, first of all let me thank you 
and Senator Murkowski for all of the efforts that you've made 
with me through this Congress, our O and C legislation, which, 
of course, is a huge priority, the fire issue. You and Senator 
Murkowski have just been terrific.
    I'm sorry I couldn't be here. We had a major hearing with 
respect to the transformation of the Medicare program which 
we've got to do to protect the Medicare guarantee and contain 
costs or else we're not going to have money for anything else. 
So I very much appreciate your leadership there.
    To have Chief Tidwell, in particular, I think when people 
write history of forestry, they're going to talk about 
collaborative forestry. They're going to say, Chief Tidwell was 
the one who really put the points on the board for that kind of 
effort.
    Chief, I was just in John Day watching them out here 
lumber. They have a boarding house close by now that has gotten 
off the ground because they have the certainty and 
predictability. You gave them the grocery stores selling 
groceries that economic multiplier that you envisioned for 
rural areas is in place. So very much appreciate that.
    Thank you all also for the help with respect to the 
firefighting effort.
    Madame Chair, I would just only say that I very much want 
to work with you, with Senator Murkowski. I saw Senator Flake 
as we were passing through. Senator Crapo and I are very 
interested in working with all of you in a bipartisan way to 
pin this down.
    I think everyone who looks at the challenge and Senator 
Murkowski and I talked about it a number of times over the 
years, knows that the Prevention Fund is getting shorted. When 
the Prevention Fund gets shorted things tend to go haywire in a 
hurry because you basically have a forest, a resource that's a 
magnet for fire. Then you have a lightning strike or something. 
All of a sudden you have an inferno on your hands.
    As colleagues have described apparently in my absence what 
happens is you've got the inferno. You've got to put it out. 
You borrow from the Prevention Fund and the problem gets worse.
    But I think there's a lot of good will here with the 
Senators to try to work this out. With your leadership and 
Madame Chair, with all that you've got on your plate, to have 
given us all this time and staff time to work on the forestry 
issues, wildfire and O and C, I couldn't ask for more.
    I said, when I had the honor of chairing the Finance 
Committee, that things would be in very good hands with Chair 
Landrieu and Senator Murkowski. I'll tell you, I think this 
issue shows that once again. So I really look forward to 
working with the two of you and under your leadership.
    The Chair. Thank you very much, Senator Wyden, for those 
kind words and encouraging words. We're looking forward to 
tackling this issue and finding a solution and doing it as 
quickly as we can. This is very, very important to the Nation 
and to many, many members of this committee.
    The record will stay open for 2 weeks. There will be 
additional questions in writing to both of you.
    Thank you for your time this morning. But you should expect 
some additional questions as we try to forge a compromise to 
solve this problem.
    Senator Murkowski. Madame Chairman, just on that and 
recognizing that you have given all members the courtesy of an 
additional 2 weeks, I would just ask the Chief and the 
Department of Interior to try to respond to us as quickly to 
these QFRs as possible. We do need to get some of these 
substantive responses to the particulars in order to better 
craft a solution that is going to work, not only for this 
year's fire season, but going forward.
    I ask for prompt responses to the inquiries from all the 
members.
    The Chair. Thank you very much.
    The meeting is adjourned.
    [Whereupon, at 12:17 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of Kim Thorsen to Questions From Senator Manchin
    Question 1. What do you think about S.2593/does your agency have a 
position on S.2593?
    Answer. The Administration has not taken a position on S. 2593, 
``The FLAME Act Amendments Act of 2014.''
    Question 2. What do you think would be the impacts on your agency 
if S.2593 were enacted into law?
    Answer. The Administration has not taken a position on the bill and 
the analysis of impacts has not been completed.
    Question 3. What do you see as the advantages and disadvantages of 
S.1875 as compared to relevant sections in S.2593?
    Answer. As stated above, the Administration has not taken a 
position on the bill; however as shared in my testimony, some of the 
advantages of S.1875 and the President's budget are:

  <bullet> Establishment of a new framework for funding fire 
        suppression operations in the Department of the Interior and 
        the U.S. Forest Service that will provide stable funding for 
        fire suppression, while minimizing the adverse impacts of fire 
        transfers on the budgets of other fire and non-fire programs. 
        Such a framework allows for a balanced suppression and pro-
        active fuels management and restoration program, with 
        flexibility to accommodate peak fire seasons but not at the 
        cost of other Interior missions or by adding to the deficit; 
        and
  <bullet> The cap adjustment does not increase overall discretionary 
        spending, as it would reduce the authority ceiling for the 
        existing disaster relief cap adjustment by the amount required 
        for fire suppression requirements.

    Though we always assure adequate funds for firefighting and timely 
availability, this approach will be more transparent and will prevent 
the need to disrupt other fire activities and non-fire programs. Under 
this approach, we will not have to divert funds from important programs 
to pay for fire costs.
    Question 4. Do you have any comments on the statement (in S 2593): 
``... existing budget mechanisms for estimating the costs of wildfire 
suppression are not keeping pace with the actual costs for wildfire 
suppression due in part to improper budget estimation methodology.''
    Answer. Researchers from USDA Forest Service Research and 
Development have been providing suppression obligation forecasts for 
nearly 20 years. Standard regression techniques and accepted 
statistical methodologies are used. The researchers select variables 
which include previous research, previous forecasts, and new data 
series.
    The FY 2015 President's Budget proposes using the FLAME Outyear 
Forecast to estimate wildland fire suppression funding needs. The 
methodology used in the FLAME Outyear Forecast is the best projection 
available. These forecasts are completed using lagged values of data 
which is a common formulation in economic forecasting and identifies a 
consistent signal between current and lagged expenditures. Explicit 
forecasts of drought, climate and weather variables are not available 
at more than six to nine months ahead, so forecasts are difficult 
unless lagged values are used.
    The ten-year average of suppression obligations is a reasonably 
good tool for estimating a normal year. However, we are increasingly 
experiencing years of abnormally high fire activity, which challenge 
our ability to budget for wildfire suppression costs. The President's 
Budget seeks to address this challenge by budgeting for wildfire 
suppression in a manner similar to how the Federal Government budgets 
for other natural disasters which are also difficult to predict. The 
President's Budget amends the Balanced Budget and Emergency Deficit 
Control Act to add an adjustment to the discretionary spending limits 
for wildfire suppression operations. The cap adjustment is intended to 
give flexibility to respond to severe, complex, and threatening fire or 
a severe fire season that is not captured in the historical averages. 
This new approach for budgeting for wildfire suppression costs will 
eliminate the need to transfer funds from other fire and non-fire 
programs and as well as the adverse impact from deferred investment in 
those programs.
    Question 5. In your opinion is there a way to improve upon using 
the 10 year historical fire suppression average as a methodology and, 
if yes, what might that be? Have you worked on beta-models of 
statistical regression models that may take the place of the 10 year 
average? If yes, has this shown any promise to be used--even in 
combination--with historical rates of expenditures to estimate out-year 
budget needs for fire suppression?
    Answer. Building on the answer provided in question #4, the FY 2015 
President's Budget proposes using the FLAME Outyear Forecast to 
calculate the amount anticipated for wildland fire suppression 
activities. The outyear forecast is prepared annually by researchers 
from the USDA Forest Service Research and Development. The researchers 
believe this methodology is the best projection available. These 
forecasts are completed using lagged values of data which is a common 
formulation in economic forecasting and identifies a consistent signal 
between current and lagged expenditures. Explicit forecasts of drought, 
climate and weather variables are not available at more than six to 
nine months ahead, so forecasts are difficult unless lagged values are 
used. These methodologies are reasonable solutions for these forecasts 
and use standard modeling accepted for these kinds of forecasts.
    The ten-year average is a reasonably good method of estimating 
suppression cost in an average year, and a stable estimate for budget 
formulation in outyears until we can incorporate factors such as 
drought, climate and weather into forecasts. The Administration's 
proposal, and S. 1875, propose a new budget framework, where a portion 
of the funding needed for suppression response is funded within the 
discretionary spending limits, and a portion is funded through the 
proposed amendment to the Balanced Budget and Emergency Deficit Control 
Act of 1985. The proposal is designed to provide stable funding for 
wildfire suppression, even with uncertainty in the severity and costs 
of fire seasons, while minimizing the adverse impact of fire transfers 
on the budgets of other fire and non-fire programs. The cap adjustment 
will be used for the most severe fire activity which constitutes 
approximately one percent of all fires and results in 30 percent of the 
overall costs.
    The use of the ten-year average of fire suppression costs for 
budget formulation, updated with forecast models of cost predictions, 
and a budget framework that provides certainty of funding while 
limiting impact to other programs, is a reasonable and responsible 
approach to addressing the catastrophic and unpredictable nature of 
wildland fires.
    Question 6. Under one scenario in S.2593 it may be possible that 
approximately $1 billion more would be used for fire suppression costs 
and forest management activities, as compared to either the 
administration proposal or S. 1875. Could you please give us an overall 
idea what the possible effects of this might be?
    Answer. The Administration has not taken a position on the bill nor 
completed an analysis of the bill, however, as provided in my 
statement, the Administration's proposal and S. 1875 propose a new 
budget framework, where a portion of the funding needed for suppression 
response is funded within the discretionary spending limits, and a 
portion is funded through the proposed amendment to the Balance Budget 
and Emergency Deficit Control Act of 1985. The proposal is designed to 
provide stable funding for wildfire suppression, while minimizing the 
adverse impact of fire transfers on the budgets of other fire and non-
fire programs. The cap adjustment will be used for the most severe fire 
activity which constitutes approximately one percent of all fires and 
results in 30 percent of the overall costs. In FY 2015 for the DOI, the 
cap level requested is $240.4 million.
       Responses of Kim Thorsen to Questions From Senator Heller
    News reports earlier this month that discussed that some of the 
highest risks near power lines and critical infrastructure put some of 
our Northern Nevada communities and the neighboring communities in 
California at-risk for rolling blackouts.
    Question 1. What are your agencies doing to proactively mitigate 
the risk to critical infrastructure?
    Answer. In our allocation decisions, critical infrastructure, 
including major power lines, has been and will continue to be a key 
value we use to determine the scope of the fuels problem and aids in 
determining where priority work should be accomplished. Because 
critical infrastructure informs allocation decisions, DOI agencies are 
expected to prioritize these values in their program of work.
    Question 2. Can the agency mobilize fuel reduction quickly and 
proactively to treat high-risk areas where a fire could threaten rural 
communities or critical infrastructure, like power lines or our water 
delivery infrastructure?
    Answer. The fuels program does not have an unlimited capacity to 
treat the vast amount of expanding wildland-urban interface, critical 
infrastructure, and other high-risk areas across federal and tribal 
lands, but fuels program funds are allocated to best protect high 
valued assets in highest risk areas.
    It should also be noted that scientific studies such as one 
recently published by the Ecological Restoration Institute (ERI) 
suggest that focusing fuels treatments on the wildland-urban interface 
and critical infrastructure alone will not resolve the occurrence of 
large catastrophic wildfires that threaten these key values. ERI's 
publication suggests that although hazardous fuels treatments near 
communities can reduce wildfire risks to home and people, backcountry 
fuels treatments are equally important to prevent the ``mega'' 
wildfires that most often start on federal lands and eventually burn 
onto state and private lands. The Department recognizes this as an 
issue and has, therefore, proactively proposed a new approach that 
complements the existing fuels management program.
    The proposed new Resilient Landscapes Program in the 2015 DOI 
Wildland Fire Management budget is purposed toward making significant 
short-and long-term investments that result in fire resilient 
landscapes by focusing funding for Resilient Landscape Collaboratives. 
These Collaboratives invest and leverage Wildland Fire Management 
funding with other natural resource funding in order to prepare for, 
respond to, and recover from wildfire by expanding our fire resilient 
landscapes and better addressing the growing impact of wildfire effects 
on communities, critical infrastructure and federal lands.
    Question 3. As you know, the U .S. Fish and Wildlife Agency is 
under a court order to make a listing determination on the Greater 
Sage-Grouse under the ESA by Sept. 2015. The responsibility of the 
health of Nevada's sagebrush ecosystem and rangeland-the critical 
habitat of the Greater sage-grouse-falls almost entirely on the federal 
land managers that control over 85% of the land in Nevada. While I 
understand the BLM and the U.S. Forest Service are in the process of 
making Resource Management Plan amendments to address threats to 
habitat, such as wildfire, I fear the further restriction of multiple-
use of public lands instead of successfully dealing with wildfire, 
invasive species, predators, and other threats will not be sufficient 
to prevent a threatened or endangered listing of the sage-grouse under 
the Endangered Species Act.
    How can we spur faster fuel reduction on lands identified as 
priority habitat for the sage-grouse? Not enough is being done to truly 
address wildfire threats to habitat and a listing of the sage-grouse 
will devastate the rural communities in my state.
    Answer. We share your concerns about the potential listing of the 
greater sage grouse. Invasive grasses, encroachment of pinion-juniper, 
drought, wildfires, and BLM's management decisions are likely to 
influence the decision by the Fish and Wildlife Service. The Department 
is working with other federal agencies, local and state governments, 
tribes, partners and stakeholders to take a collaborative approach to 
reduce wildfire risks in greater sage grouse habitat.
    The greater sage grouse is considered a natural resource value we 
use to determine the scope of the fuels problem and aids in determining 
where priority work should be accomplished. Because natural resource 
values inform allocation decisions, DOI agencies are expected to 
prioritize these values in their program of work. The funding allocated 
for treatment of these 240,000 acres represents over 61% of the BLM's 
fuels allocation for this fiscal year.
    Funding the Resilient Landscapes program as a new approach to 
complement the on-going work in the fuels program is essential to the 
Department's success in protecting critical habitat for the greater 
sage grouse. The Resilient Landscapes Program is purposed towards 
making significant short-and long-term investments that result in fire 
resilient landscapes by focusing funding for Resilient Landscape 
Collaboratives. These Resilient Landscape Collaboratives are likely to 
include other federal, state, NGO, and stakeholder partnerships. 
Resilient Landscape Collaboratives invest and leverage Wildland Fire 
Management funding with other natural resource funding in order to 
prepare for, respond to, and recover from wildfire. By expanding our 
fire resilient landscapes and better addressing the growing impact of 
wildfire effects on communities, we will lessen the risk of wildfire to 
critical infrastructure and federal lands.
        Responses of Kim Thorsen to Questions From Senator Flake
    Question 1. In your testimony, you claim that the administration's 
wildfire budget proposal would ``free up resources to invest in areas 
that will promote long-term forest health and reduce fire risk .'' Yet, 
at least one senior member of the Senate Appropriations Committee has 
indicated that the freeing up these resources will allow the Committee 
to use those extra resources to fund ``the Land and Water Conservation 
Fund, resource conservation and energy permitting.'' What guarantees 
are there in the administration's proposal that the Appropriations 
Committee would direct the resources that are ``freed up'' by the 
proposal to address hazardous fuel reduction?
    Answer. The Administration cannot predict the decisions of the 
Appropriations Committee in its appropriations bill, but the 
President's Budget does direct much of the ``freed up'' suppression 
funding to programs that promote long-term forest heath and reduce fire 
risk. By proposing to fund 70 percent, rather than 100 percent, of the 
10-year suppression average within the discretionary budget caps, the 
President's Budget makes $115.1 million available for other purposes 
and invests a good share of this in the broader Wildland Fire 
Management program. For example, a program increase of $34.1 million in 
the Preparedness program would enhance Interior's readiness 
capabilities by strengthening BIA's wildfire program, funding contract 
support costs, and providing workforce development opportunities for 
firefighters, among other things. The President's Budget proposal also 
includes $30 million for a new program, Resilient Landscapes, intended 
to assist in the implementation of the National Cohesive Strategy goals 
by improving the integrity and resilience of forests and rangeland by 
restoring and maintaining landscapes to specific conditions for fire 
resiliency. A $2.0 million increase requested for the Burned Area 
Rehabilitation program would be invested in areas where recovery of 
fire-damaged lands is required. This includes areas where wildfire has 
impacted critical habitat throughout the western states such as the 
greater sage grouse habitat in the Great Basin.
    Question 2. In your testimony, you state, ``This base level funding 
ensures that the cap adjustment will only be used for the most severe 
fire activity which constitutes approximately one percent of all fires 
and 30 percent of the costs.'' Is it your understanding that this 30 
percent cap adjustment would continue to apply, even if the 
administration's proposal allows it to reduce fire suppression costs 
through proactive hazardous fuels reduction work?
    Answer. Yes, the cap adjustment based on the FLAME Outyear Forecast 
would continue as outlined in the amendment to the Balanced Budget and 
Emergency Deficit Control Act of 1985. Use of the funds over time may 
not be required as proactive fuels management work is completed. 
However, the beneficial effect of this type of work is longer term and 
it would be premature to assume short term results or corresponding 
financial savings.
    Question 3. Will the Department commit to working with Senators 
McCain, Barrasso, and myself on resolving this devastating fire 
borrowing problem, more accurately funding wildfire suppression, and 
committing resources to proactive forest restoration?
    Answer. The Department is committed to working with the Congress to 
collaboratively address the issues associated with a resolution to 
adequately fund the high priority programs of wildland fire suppression 
and fuels management.
    Question 4. Will the Secretary of the Interior commit to appearing 
before the Senate Energy and Natural Resources Committee to discuss the 
Department's FY15 budget request before the beginning of the next 
fiscal year?
    Answer. The Secretary and the Department are committed to working 
with the Committee to discuss all appropriate issues.
                                 ______
                                 
       Responses of Ken Pimlott to Questions From Senator Manchin
    Question 1. What do think it may take to really get a handle on the 
massive issues facing forests across your State? You highlight the 
Healthy Forests Restoration Act and S. 1875 (Wyden-Crapo) as two 
important things. Do you have any other recommendations?
    Answer. The situation facing forested lands in California is 
growing increasingly dire. The current drought is exacerbating 
conditions in forested landscapes already stressed by disease and 
insects, encroached upon by development, and suffering from declining 
active forest management over time. Fire seasons across the West are 
lasting over 70 days longer than they did just 30 to 40 years ago and 
in California, there has been a drastic increase in the occurrence of 
large, damaging fires with over half of the state's largest fires in 
recorded history occurring just since 2002.
    In recognition of the need to improve the health of the forested 
lands in the State, there have been a number of programmatic 
developments, as well as funding increases at the State level. In this 
most recent year, there is over $40 million of investments in improving 
the health of the State's forests from the proceeds of the California 
cap-and-trade auctions. This funding is for a range of programs 
including assistance for land owners with fuel reduction and other 
forest health activities. This is in addition to the over $25 million 
for fire prevention that will be invested in 2014-15. The State's 2010 
strategic fire plan guides all of the State's activities in these 
areas, and the State is now playing a more active role in local land 
use planning.
    However, no one entity can address this problem alone. A stable 
funding source-as would be achieved through S. 1875-is critical to not 
only appropriately funding the fire suppression efforts but also to 
ensuring that the other critical forest health programs are supported. 
Once these efforts are fully funded, it will be possible for the State 
to further partner with the Federal land management agencies on 
projects and facilities that support all of our land management 
objectives. For example, the State could provide support for small, 
disbursed biomass facilities that could process fuel treatment residue 
from both State and Federal projects.
    Longer term, I would urge the Federal agencies to engage in more 
active forest management as is appropriate to the agency's mission. 
This could be through the removal of dead or dying trees, active 
replanting after large-scale fires, or through harvesting of timber to 
encourage forest health.
    Question 2. Do you have an opinion on the possible prioritization 
of fire-fighting and forest fuels reduction activities, possibly at the 
expense of other programs that the Forest Service and DOI agencies 
undertake?
    Answer. CAL FIRE is the agency that is responsible for not only 
providing fire suppression and prevention on 31 million acres of the 
State, but also for regulating timber operations in the State. As both 
a fire chief, and the State Forester, I am keenly aware of the 
tradeoffs that must be made in fiscally challenging times. Each agency 
must make fiscal decisions based upon their priorities and the 
priorities of their stakeholders, and as such, I would not want to 
speak to the prioritization within other agencies' budgets.
    However, at a high level, and based upon my experience in 
California, I know that many of the programs in land management 
agencies contribute to the overall health of the landscape. Even in the 
toughest of fiscal situations that the State has faced, I worked to 
protect-to the extent possible-these other programs in my Department.
                                 ______
                                 
   Responses of David Porter Tenney to Questions From Senator Manchin
    Question 1. Do you have an opinion on the possible prioritization 
of fire-fighting and forest fuels reduction activities, possibly at the 
expense of other programs that the Forest Service and DOI agencies 
undertake?
    Answer. There are 3 parts to this answer:

          I. From a practical perspective, there is little choice but 
        to give fire suppression activities top priority. Catastrophic 
        landscape scale fires can, and often do, create life 
        threatening situations, and routinely cause private and public 
        property damages costing hundreds of $ million. Further, in 
        addition to destroying the vegetation, uncharacteristically hot 
        crown fires often damage or destroy the soils. As a 
        consequence, in the dry climates of the Southwest, forestry re-
        vegetative cycles can literally extend into centuries as new 
        soil must be formed over decades or centuries before mature 
        forests can regrow over additional decades or centuries. 
        Alternatively, the combination of fire destructions and long 
        term droughts may altogether cause a permanent shift away from 
        forested ecosystems toward ecologically less productive 
        chaparral or shrublands. The current destruction of the forests 
        of the inner West by catastrophic fires has the potential to be 
        literally life-changing for the culture, economy and customs of 
        the West and the nation. However, because catastrophic 
        landscape scale fires are not natural events from an ecological 
        perspective, fire suppression should be funded using a process 
        similar to the funding required during and after other national 
        disasters such as earthquakes or hurricanes. The current 
        process of ``fire borrowing'' wreaks havoc on the Forest 
        Service budgeting and prioritization processes. Not only is it 
        unsustainable, but it is unpredictable from the budgetary and 
        operational perspectives. The use of a reliable predictive 
        forecast tool such as the FLAME regression model appears highly 
        advisable.
          II. As soon as fire suppression costs can be funded for what 
        they are: emergency national responses to national catastrophic 
        events, fuel reduction activities must become the absolute 
        budgetary and operational priorities of the Forest Service for 
        at least the next few decades. Stewardship of the resource 
        implies the continuation in existence of the resource. While 
        cool ground fires are a natural process that must be 
        reintroduced to the benefit of the national forests, the 
        conditions created by decades of misguided indistinct fire 
        prevention policies that have resulted in unacceptable 
        catastrophic fire risks through the accumulation of fuel, must 
        be addressed. A clear and present danger exists that must be 
        urgently contained. This priority takes precedence, temporarily 
        at least, over other multiple-use foci. Precious little 
        multiple uses can be enjoyed or benefited from, for decades, 
        after catastrophic landscape scale crown fires destroy 
        ecosystems, biodiversity, watersheds and natural resources. 
        While this focus on funding fuel reduction activities cannot be 
        exclusive, it certainly must be highly prioritized and 
        disproportionately funded accordingly. Considering the high 
        return on dollars invested in forest restoration in terms of 
        dollars not subsequently expended on fire suppression, it 
        appears advisable to invest urgently and substantially in 
        preventive fuel reduction activities at a rate of $1 in 
        prevention treatments for every $2 expended in fire suppression 
        for the next two decades, and possibly longer, until the 
        forests of the West are returned to their original natural fire 
        resistant structure, and landscape scale catastrophic fires are 
        the exception rather than the norm.
          III. While the debate over which programs to defund in order 
        to fund fuel reduction activities is certain to raise deep 
        societal questions, it seems that the Forest Service, DOA and 
        DOI could benefit from adopting best practices from the market 
        economy. Specifically, it is a rare occurrence indeed for the 
        Forest Service to terminate an unsuccessful project. This may 
        result from a statistically uncommonly high success rate for 
        the Forest Service projects (?), or possibly from a reluctance 
        to recognize failure and act accordingly. This violates one of 
        the most fundamental principles of successful private 
        enterprise, which is to ``feed success and starve failure.'' 
        Simply put, projects within all programs that do not deliver on 
        measurable commitments made when funding was / is applied for 
        and granted, must be re-evaluated and, if appropriate, 
        defunded. This concept applies to all projects for all 
        programs, including often high profile collaborative projects 
        heralded as successes but scarce on actual measurable delivery. 
        Unsuccessful projects' funding can then be redirected toward 
        successful projects that deliver based on objective measured 
        criteria. For example, when evaluating forest restoration, the 
        baseline criteria to define success may not be acres 
        ``analyzed,'' ``planned,'' or ``awarded,'' etc. but quite 
        prosaically: acres actually ``treated.''

    Reducing waste and inefficiencies may actually go a long way toward 
funding effective fuel reduction activities, while avoiding difficult, 
and possibly unnecessary, societal choices at programs level.
    Question 2. The White Mountain Stewardship contract, as I 
understand it, has used a Multi-Party Monitoring Board. It includes a 
diverse group of stakeholders. What is your take on how well this has 
worked? What lessons can be learned and how might they be applied to 
similar types of efforts on other national forests?
    Answer. Navajo County has been deeply involved in the White 
Mountain Stewardship contract Multi-Party Monitoring Board over the 
last decade. Simply stated, the Multi-Party Monitoring Board may prove 
itself to be one of the most effective and efficient accountability 
mechanisms pioneered by the White Mountain Stewardship contract. This 
statement must, however, be qualified by the observation that the 
successive Supervisors of the Apache / Sitgreaves National Forest 
(Elaine Zieroth, Chris Knopp, Jim Zornes) have not only accepted but 
embraced the concepts of meaningful collaboration and public 
accountability. This may not reflect a universal trend among the line 
officers of the Forest Service.
    Lessons learned from the White Mountain Stewardship contract Multi-
Party Monitoring Board include the observation that such mechanism 
benefits both the Forest Service and the community, and the 
recommendations that the mechanism must be not only widely implemented 
but actually reinforced.
    Without compromising the sole decision-making authority of the 
agency, one can envision the institutionalization of the Multi-Party 
Monitoring Boards influence in the content of the Forest Service 
decisions, in lieu of the reliance on the willingness of the line 
officers to allow, or not, such influence.
    Honoring the product of the collaborative work is a fundamental 
driver of effective long-term collaboration. Such honoring is currently 
left to the appreciation of individual line officers' perspectives. It 
needs to be codified.
    Meaningful monitoring is a fundamental part of adaptive management, 
and collaborative work is a prerequisite to social license for the 
implementation of large scale projects. Integrating the collaborative 
products, such as objectively appropriate recommendations of Multi-
Party Monitoring Boards must become the regulated rule rather than the 
exception.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing was sent to press:]

           Question for Thomas Tidwell From Senator Landrieu
    Question 1. Chief Tidwell, as the charts here demonstrate, and you 
mention in your testimony, today over 40 percent of your budget is 
devoted to wildland fire management. This is a dramatic increase from 
13 percent of your budget in 1991. Can you walk us through how the fire 
budgeting situation constrains your abilities to tend to all the many 
other parts of your multiple use mission? For example, in the past five 
years, what resources have you had to move from other areas of your 
mission to accommodate the increase in wildfire management?
    As a follow-up, can you describe to us the impact on the mission of 
your Agency should the Forest Service and DOI be legislatively directed 
to provide up to an additional $1 billion in fire management funding 
from within you existing budgets?
           Questions for Thomas Tidwell From Senator Johnson
    Question 1. The 2014 Farm Bill contains several provisions designed 
to improve the ability of the Forest Service and private forest land 
owners to respond to changing conditions and streamline treatment and 
restoration. These include the Good Neighbor authority, designated 
insect and disease treatment areas that was piloted in the Black Hills, 
and the permanent reauthorization of stewardship contracting. Several 
of these tools have not yet been implemented on a broad scale, so their 
full effect cannot be completely known. However, the Forest Service has 
now had several months to plan for their use. Recognizing this, please 
respond to the following questions:

  <bullet> What are the Forest Service's plans for utilizing these 
        tools?
  <bullet> In what ways will they be leveraged to address forest health 
        issues and limit the potential for destructive wildfire?
  <bullet> How does the Forest Service anticipate that the tools can be 
        used improve the timing and flow of forest products to users of 
        those products?
  <bullet> When are the tools likely to be made fully available to 
        local forest managers?
  <bullet> How will the availability of the tools influence the annual 
        goals established for treatment and harvest?
           Questions for Thomas Tidwell From Senator Stabenow
Funding Impacts
    The Great Lakes States are home to a number of National Forests 
that support tourism and recreation. While States like Michigan do not 
suffer from catastrophic fires, the Forest Service's reliance on fire 
borrowing often reduces the available funds to complete basic 
restoration and forest health maintenance work necessary to keeping 
these forests healthy.
    Question 1. How much money has been diverted from Region 9 to go 
towards fire suppression in the last ten years? How much of that money 
would have gone to the Hiawatha, Huron-Manistee, and Ottawa National 
Forests?
    How much money gets diverted from programs that would have 
benefited Great Lakes States?
    Do you anticipate transferring funds again from Region 9 this year?
Timber and Forest Products
    Timber and forest products are a large component of the local 
economy and livelihood in Michigan, especially in Northern Michigan and 
the Upper Peninsula. As such, it is vital that the Forest Service is 
being as efficient as possible when it comes to programs and funds that 
go towards the treating, marking, and selling of timber.
    Question 2. What impact does fire borrowing have on the timber and 
forest products industry across the Nation? What would the increase be 
in timber, logging, and forest products, if fire borrowing was not 
occurring in Region 9?
Farm Bill
    The 2014 Farm Bill expands a number of authorities in the Forestry 
Title such as creating permanent Stewardship Contracting, Nation-wide 
Good Neighbor Authority, and modified Healthy Forest Reserve Program 
(HFRA). These changes should allow the Forest Service to more 
efficiently and effectively target restoration; mitigation and 
suppression work in the National Forest System. However, without 
significant reform to the Forest Service's wildfire budget the 
effectiveness of these programs will be offset by reduced projects and 
activities as funds and man power get diverted to fire suppression 
needs.
    Question 3. Can you describe how a lack of action to reform fire 
suppression budgets could impact the great work we achieved in the 2014 
Farm Bill?
Fire Prevention
    Current and forecasted climatic conditions and demographic trends 
indicate that wildfire challenges will continue to increase in the 
coming years. Changes in climate are exacerbating the wildland fire 
problem as our forests become dryer and subject to longer and more 
frequent fire seasons.
    Question 4. What types of forest restoration and forest health work 
needs to be completed to reduce the conditions that lead to 
catastrophic wildfires?
    How does fire borrowing keep you from being able to complete these 
types of activities?
Restoration
    We have seen a lot of success in Western states utilizing the 
Collaborative Forest Landscape Restoration Program (CLFR) to address 
restoration projects that leverage local resources with national and 
private resources. However, we have not seen this type of success 
replicated in the Great Lakes states.
    Question 5. Does the Forest Service plan on expanding CLFR criteria 
to make the Great Lakes States more competitive in this application 
process?
Integrated Resource Restoration
    Currently Region 9 is not part of the Integrated Resource 
Restoration (IRR) program. IRR offers the Forest Service the 
flexibility to prioritize and implement restoration projects with an 
increased efficiency and effectiveness by allowing multiple activities 
to be scheduled in a single field season. I understand that the 
President's FY2015 budget seeks to expand this program to all Forest 
Service regions.
    Question 6. Can you address the lessons the Forest Service has 
learned from the pilot programs in Regions 1, 3, and 4? How do you 
foresee the IRR program aiding Michigan and the Great Lakes if it was 
extended to include Region 9?
             Question for Thomas Tidwell From Senator Udall
    Question 1. We have communicated many times about the need to 
accelerate the pace of restoration of our national forests and the role 
that a diverse forest products industry can play. My state is home to a 
diverse timber industry that includes small specialty mills in places 
like Kremmling, Mancos, and Saguache, a cutting-edge five-megawatt 
biomass energy facility in Gypsum, and a traditional sawmill in 
Montrose. Your proposed budget calls for a 19 percent increase in 
timber sales. Can you please report on how this increase can be applied 
to support forest management and jobs in my state in FY 15, and whether 
the U.S. Forest Service will scale it in a manner that can help all of 
those diverse small businesses in my state?
           Questions for Thomas Tidwell From Senator Manchin
FY 2015 Budget
    Question 1. What do you consider to be the top three challenges 
that came out of your FY 15 budget planning process? In your FY 15 
budget request you say that ``the sheer scale of the challenges is 
daunting.'' One example, from your testimony, is that the Forest 
Service manages 58 million acres with a high, or very high, potential 
for a large wildfire which would be difficult for suppression resources 
to contain.
    a. How would you propose to mitigate any or all of the wildfire 
risks on these acres, especially in a budget constrained environment?
    b. How much would it cost to simply treat the 58 million acres?
    c. How do you prioritize those acres to treat?
    d. How do you see this playing out in West Virginia?

    Question 2. What do you consider to be the top three opportunities 
that came out of your FY 15 budget planning process?
    a. How would you propose to capitalize on them?
    b. How do you see this playing out in West Virginia?

Restoring resilient landscapes:
    Question 3. Restoring resilient landscapes is one of three focal 
areas you mention in your FY 15 budget request, along with building 
thriving communities, and managing wildland fires. Nearly all of the 
Monongahela has been designated as a forest in declining health; the 
Forest Service has designated 45 million acres of the National Forest 
System in response to requests from governors whose states are 
experiencing, or are at risk of, an insect or disease epidemic:

    a. Can you explain in layman's terms what restoring resilient 
landscapes is?
    b.How might you recommend restoring these landscapes?
    c.The Farm Bill repealed the pre-decisional appeals process and the 
use of categorical exclusions in certain circumstances. What more might 
be done to help ensure that the agency can tackle such a vast forest 
health issue? Would you support greater use of categorical exclusions 
or any other mechanisms that may help expedite the timeliness of 
crucial on-the- ground forest restoration activities?
    d. Please provide specific forest restoration activities that have 
been done or are planned on the Monongahela National Forest.
Invasive species, insect and disease threats
    Question 4. Invasive species are a big issue in West Virginia and 
across the nation. Please describe what specifically the Forest Service 
is proposing to do in the FY15 budget request to help alleviate what is 
seemingly a worse problem every year? What more can be done?
    Question 5. Insect and disease threats. I would like to hear about 
the implementation of actions to address insect and disease threats and 
help restore healthy forests under Section 602 of the Healthy Forest 
Restoration Act of 2003 as added by section 8204 of the Agriculture Act 
of 2014. I also would like to understand how implementation may proceed 
in relation to Section 8006, which relates to Forest Service decision 
making and the appeals process. As you know, excluding wilderness 
areas, the entire Monongahela National Forest has been designated as a 
landscape-scale insect and disease area. This will allow the Forest 
Service to evaluate and potentially treat the forest for insects and 
diseases. As you also know, the Monongahela has quite a bit of timber 
that could be harvested in accordance with the allowable sale quantity 
(ASQ). The trend, though, beginning in the mid-1990's has been to 
harvest significantly below than what your models show could be cut, 
somewhere in the neighborhood of 20% of the ASQ. A greater harvest 
level, through restoration activities, would then help make the forest 
healthier and be good for jobs in West Virginia.

    a. What is your plan for implementation of the lands designated 
under section 602 of the Healthy Forest Restoration Act on the 
Monongahela?
    b. How might this intersect with the FY 2015 budget request?
    c. What are the agencies' plans for implementation of these 
measures across all lands managed by the Forest Service?
    d. What do you see as impediments to beginning able to begin 
addressing the sizable insect and disease issues on the Monongahela?
Biomass
    Question 6. Biomass from our forests, especially low value wood, 
deserves more attention. I know your research branch has been working 
on this for many years but, as far as I know, little biomass is 
utilized off national forest land. Using biomass could help reduce the 
incidence of fires and help restore forests.

    a. What specifically does the Forest Service have in its FY15 
budget request for biomass research and utilization and what more can 
you do?
    b. How might you make use of biomass off the Monongahela National 
Forest in my state?
Climate Change
    Question 7. Climate change is an issue I know the Forest Service 
has been involved with for a number of years, particularly in the area 
of research. One topic, in relation to forest management, relates to 
whether old growth forests or younger stands of trees sequester greater 
amounts of carbon.

    a. What does the science show?
    b. How might National Forest System lands be able to sequester more 
carbon?
    c. What is proposed in the FY15 budget towards the mitigation of 
climate change?
Partnerships
    Question 8. I know of, and applaud, the many partnerships the 
Monongahela has with public and private organizations. I also read in 
your budget request the ``need to strengthen service through 
cooperation, collaboration, and public-private partnerships''. I am 
totally supportive of this. At the same time partners will sometimes 
say that working with the Forest Service can be challenging both from 
the amount of process that might be involved and that staff on forests 
and districts may not have the time to forge and maintain partnerships.

    a. What might you be proposing in your FY15 budget request that 
will improve how the agency actively works with partner organizations?
    b. How might the agency be able to make even better use of 
partnerships and collaboration to achieve crucial on-the-ground work? 
What added policy tools might be of assistance?
    c. What partnership efforts do your research and state and private 
branches have in West Virginia and how might they be improved?
Cooperative Fire
    Question 9. Chief Tidwell, as you know I joined many of my 
colleagues in the Senate in a letter to Secretary Hagel last week 
seeking clarification around the status of excess property transfers 
under the Firefighter Property Program and the Federal Excess Property 
Program, which were recently stopped by the Department of Defense 
citing EPA regulations. We now understand that the Defense Logistics 
Agency and the EPA have reached an agreement to restart transfers by 
confirming that the National Security Exemption would continue to apply 
to certain vehicles without emissions certificates, but this agreement 
appears to include a new requirement that DOD retain title to all 
property covered by the National Security Exemption. How will this 
agreement impact the two programs and the ability of local fire 
departments to obtain equipment they need to do their jobs?

    a. For FFP, how will preventing local fire departments from 
obtaining title to covered equipment impact the workload of tracking 
equipment at the Forest Service and for the states?
    b. I understand the Forest Service gains access to excess equipment 
under FEPP through the General Services Administration, or "GSA," do 
you know if GSA is going to be able to offer equipment covered by the 
NSE to the Forest Service for the FEPP program?
Wildfire Disaster Funding
    Question 10. As you know I have cosponsored the Wyden-Crapo 
Wildfire Disaster Funding Act. It is important legislation.

    a. What confidence do you have that, if enacted, we will finally 
get beyond the need for transfers of funds from other agency accounts 
and the periodic requests for emergency supplemental funding?
    b. How long do you think it is going to take for the costs of 
fighting fires to level off and even drop?
    Question 11. What can the agency do, perhaps differently than has 
been done previously, to really make a significant dent in this issue?
    Question 12. What do you think about S.2593/does your agency have a 
position on S.2593?
    Question 13. What do you think would be the impacts on your agency 
if S.2593 were enacted into law?
    Question 14. What do you see as the advantages and disadvantages of 
S.1875 as compared to relevant sections in S.2593?
    Question 15. Do you have any comments on the statement (in S 2593):

           . . . existing budget mechanisms for estimating the costs of 
        wildfire suppression are not keeping pace with the actual costs 
        for wildfire suppression due in part to improper budget 
        estimation methodology.

    Question 16. In your opinion is there a way to improve upon using 
the 10 year historical fire suppression average as a methodology and, 
if yes, what might that be? Have you worked on beta-models of 
statistical regression models that may take the place of the 10 year 
average? If yes, has this shown any promise to be used-even in 
combination-with historical rates of expenditures to estimate out-year 
budget needs for fire suppression?
    Question 17. Under one scenario in S.2593 it may be possible that 
approximately $1 billion more would be used for fire suppression costs 
and forest management activities, as compared to either the 
administration proposal or S. 1875. Could you please give us an overall 
idea what the possible effects of this might be?
           Question for Thomas Tidwell From Senator Heinrich
    Question 1. In your testimony you mention the one Very Large 
Airtanker available to the Forest Service to fight wildland fires on a 
Call When Needed Contract. Very Large Airtankers deliver four times 
more retardant per load than other tankers. What is your assessment of 
the relative advantages and value of using very large airtankers, such 
as a DC-10, to fight wildland fires? Is the Forest Service considering 
expanding the future use of very large airtankers?
           Questions for Thomas Tidwell From Senator Baldwin
    Your budget has several outcome measures and many output measures. 
While it can be useful to see outputs like board feet sold, or miles of 
stream habitat restored, the outcomes of program work is really what 
the public cares about. A stated goal of your Integrated Resource 
Restoration proposal is to create economic opportunities for local 
communities.
    Until FY 2013 your budget tracked a measure of jobs related to 
recreation on National Forests and Grasslands. I think that it would be 
very useful to a broader outcome that can demonstrate what the Forest 
Service is doing to advance those local economic opportunities.
    Question 1. Will you work with your staff to create an outcome 
measure that will help Congress and the public understand how 
successful the Forest Service is at creating and sustaining economic 
opportunities? How long will the process of creating that outcome 
measure take, and will we see it in the FY 2016 Budget Request?
    Question 2. How will you implement new authorities from the Farm 
Bill and the FY 2014 Appropriations bill such as the insect and disease 
designations, the good neighbor authority, and the now-permanent 
stewardship contracting authority to increase the sale of timber on 
forests like the Chequamegon-Nicolet National Forest that did not 
previously have these authorities available?
    When will forest product management authorities like the good 
neighbor authority and stewardship contracting start to be used in 
Wisconsin on the Chequamegon-Nicolet National Forest?
    Question 3. In addition to proposing a legislative fix to fire 
borrowing for catastrophic wildfires, your budget proposes significant 
increases for forest management and restoration funding, over a $60 
million increase from the FY 2014 request. What outcomes can we expect 
from the Forest Service if that request is fully funded?
    What timber sales output and what levels of restoration can we 
expect to see on the Chequamegon-Nicolet National Forest in FY 2015 if 
Integrated Resource Restoration is approved and funded at $820 million 
or if a pro-rated increase in funding were provided under the 
traditional timber management budget line item?
    Question 4. Wisconsin has a strong tradition of hunting, fishing 
and enjoying the great outdoors. Outdoor recreation is an important 
economic driver in Wisconsin, supporting 142,300 jobs and contributing 
more than $11.9 billion annually to the state's economy. The 1.5 
million acre Chequamegon-Nicolet National forest exists within a forest 
boundary that is defined by a patchwork of ownership consisting of 
national forest lands as well as about 500,000 acres of industrial 
forest land, managed private lands, as well as State and county lands.
    You are requesting $2 million specifically for recreational access 
to Forest Service lands in the budget request in FY 2015, a decrease of 
$500,000 from the FY 2014 request.
    Why did you decrease your request for this important program that 
increases recreational access for the public?
          Questions for Thomas Tidwell From Senator Murkowski
Anan Creek
    In April 2013, at the Senate Energy and Natural Resources Committee 
hearing to examine the Forest Service Budget for FY 2014, I asked you 
about a popular wildlife viewing area located 30 miles southeast of 
Wrangell, Alaska called Anan Creek. Anan Creek supports one of the 
largest pink salmon runs in Southeast Alaska making it popular with 
both brown and black bear. This site could be a tremendous tourism 
opportunity for Southeast Alaska but there is a problem-there is 
nowhere for boaters to tie up. The Forest Service has acknowledged that 
this is a safety hazard that leads to damaged boats and planes and has 
identified a need for a float dock. In August 2013, you visited the 
site with me and saw first-hand the access challenges that could be 
remedied by a float dock. It is unacceptable that the Forest Service 
has allowed this safety hazard to continue at a premier bear viewing 
site. You, yourself, told me, and I quote:

          It's an area that I want to work with you. I know the region 
        will want to work to be able to find a way to put a dock in 
        there. There are systems in place now that you can retract a 
        dock and then put it back out. [ . . . I'll contact the region 
        to see what we could do to maybe, be able to move forward with, 
        you know putting a dock there.] (See transcript for S. HRG 113-
        26 p. 29-30).

    Although the Forest Service still acknowledges the fact that a 
float dock is needed at Anan Creek to mitigate the safety hazard, the 
Forest Service recently informed my staff recently that it does not 
currently have plans to install one. My staff was also told that the 
Tongass National Forest was taking an interim step by installing a 
float from another project at Anan Creek, but on a recent visit to the 
site I did not see a float dock.

    Question 1a. What is the status of this interim float dock? What 
project is this float being removed from and installed at Anan Creek?
    Question 1b. Chief, did you follow up as you said you would with 
the Alaska Region to ensure that a dock was installed at the site? When 
is the Forest Service going to install a float dock? Please provide a 
timeline and the plan for installation.
Recreation Budget
    I am receiving many complaints from constituents that the Forest 
Service seems to be cutting funding for recreation programs at a higher 
rate in Alaska than on the national forest system nationwide. In 2014, 
your budget office informed my staff that the budgets for trails fell 
13 percent annually in Alaska between 2009 and 2014, compared to a 7 
percent annual drop nationwide, and that your budget for recreation 
funding generally fell 23 percent in Alaska over the same period 
compared to a 6 percent drop nationwide. Yet, at every turn, the Forest 
Service is telling our communities to diversify and look more to 
recreation-based tourism to fuel their economies.

    Question 2a. If those numbers are accurate, why is Alaska taking 
such a big hit compared to what is happening nationwide?
    Question 2b. It is my understanding that the Forest Service in 
Alaska is conducting public meetings to solicit input on the budgets 
for the state's national forests. Constituents have contacted my office 
to inform me that in these meetings, Forest Service employees are 
stating that the recreation and wilderness budgets in Alaska are likely 
to fall by another 50 percent over the next five years. Is that drop 
attributable to estimates based on the 2011 sequestration process, or 
is the Forest Service shifting funding out of the Alaska Region to 
other regions nationwide? If so, why?
    Question 2c. My office is also receiving reports that permits for 
air taxi operators into lakes in and around Misty Fjords and bear 
viewing at Anan Creek are being cut by the Tongass National Forest. The 
reason reportedly being given by the Forest Service to these permit 
holders for these cuts is that funding and personnel to administer the 
permits have had to be shifted from recreation to the timber programs. 
Is this true? Is it the position of the Forest Service that these two 
programs- recreation and timber- must be an either/or proposition on 
the Tongass? Please explain, in detail, how these two programs are 
funded, staffed and managed on the Tongass.
Under Thunder Pathway Project
    On November 25, 2013, I received a letter from your Forest Service 
in response to my request regarding the Under Thunder Pathway Project 
in Juneau, Alaska. In your letter, you indicated that the Forest 
Service was working to find an expedient and appropriate solution, and 
that two options were under review.

    Question 3a. Have either of those options been selected by the 
Forest Service?
    Question 3b. What is the status of the Under Thunder Pathway 
Project?
    Question 3c. Has the trail construction been completed on USFS 
land?
Roadless Rule
    Earlier this year, the Ninth Circuit Court upheld the rulemaking by 
which the USDA promulgated the 2003 Tongass Exemption. We are still 
waiting for a final resolution of the legal process, but I am hopeful 
that soon the exemption will be restored. Regardless, you have 
indicated on multiple occasions including publically during our August 
2013 trip in Southeast Alaska that there is flexibility in the 
application of the Roadless Area Conservation Rule that can be 
exercised now to manage inventoried roadless. I am still waiting to see 
this flexibility outlined and exercised in Alaska. The inventoried 
roadless areas total approximately 9.6 million acres of the Tongass. 
Currently, there are more than 30 hydroelectric projects alone affected 
by the Rule.

    Question 4a. Please outline what the Forest Service's plans are for 
timber sales, hydroelectric projects, transmission lines, and mining 
roads in inventoried roadless?
    Question 4b. Please describe, in detail, the flexibilities you see 
within the Roadless Rule and the Forest Service plans to exercise these 
flexibilities in the management of inventoried roadless in Alaska.
Timber Budget
    In 2005, the Forest Service offered 110 million board feet of 
timber for sale in the Tongass, 65 mmbf actually being sold/cut. Last 
year while sales were reduced due to lawsuits, you offered only 15.9 
million board feet and thanks to previous years' surplus, 36.4 million 
board feet were actually sold/harvested. Since the reimposition of the 
Roadless Area Conservation Rule in Alaska in 2009, it is my 
understanding that very little new road building costs are being 
incurred in timber sales on the Tongass.

    Question 5a. What was the actual budget for Forest Service 
operations in the Tongass in 2005, compared to 2013 and how much of 
that total budget was devoted to timber sales versus other Forest 
Service activities in the Tongass? (Please provide this information in 
actual dollars and as a percentage of the total budget)
    Question 5b. Based on data supplied by the Forest Service, the 
Alaska Region has 107 actual employees in the Regional Office, 358 
employees dealing with the Tongass and 127 working in the Chugach 
Forest. How many of these employees were devoted to timber harvesting 
and how many to recreation, wilderness protection, maintenance of 
forest trails and facilities, and other administrative functions and 
how do those numbers compare to the historical norm in Alaska?
Timber Planning
    Under the Tongass Timber Reform Act of 1990, the Forest Service is 
required to ``seek to meet'' market demand for timber from the Tongass 
on an annual basis. Your office this spring indicated that the Forest 
Service believes there is a demand for the sale of at least 142 million 
board feet from the Tongass in fiscal year 2014 with a similar amount 
needed for future years, while an unofficial summary of your timber 
sale plans appear to indicate you are planning to offer only about 113 
million board feet for sale over the next two years, with lesser 
amounts thereafter.

    Question 6a. Exactly how many timber sale planning and layout teams 
are at work in Alaska today and how many do you anticipate needing for 
the next five years? How many are focusing on traditional old-growth 
sales and how many are focusing on new young-growth transition sales?
    Question 6b. Aren't you required by the 1990 Act to plan for sales 
of economically viable timber that will satisfy your estimate of market 
demand for Alaska timber?
    Question 6c. If you need additional funding to be able to prepare 
sales to meet such demand, don't you have a legal obligation to seek 
sufficient funding from Congress to meet the requirements of the 1990 
act?
Tongass Transition
    The Secretary of Agriculture last July signed a memorandum 
proposing to transition timber harvesting in the Tongass National 
Forest away from old-growth trees and instead focusing largely on 
second- or young-growth timber within 10 to 15 years. The memorandum 
also stated that transition assistance would be made available to 
existing industry in order to help accomplish it.

    Question 1. How much aid and what type of aid, does the Department 
of Agriculture and the Forest Service intend to provide the industry in 
Southeast to help it make the transition to young-growth timber 
economically viable? When will that assistance be made available?
    Question 2. How much are you planning to spend to lay out and offer 
timber sales of old-growth timber over the next five years and how much 
are you planning to spend to lay out and offer timber sales of young-
growth timber over the same period?
    Question 3. Since you are required by law to offer only sales that 
are profitable-non-deficit-how do you intend to make young-growth sales 
profitable to operators?
Fuel Treatments
    At the hearing, it was clear that the Forest Service in particular, 
has a serious and extensive over-accumulation of vegetation problem on 
its public forests that is fueling these large, intense and 
catastrophically destructive wildfires that are occurring across the 
West. An estimated 190 million acres of all federal forest and 
rangelands are at an increased risk of catastrophic wildfire. Areas 
that are called moderate to high risk are prone to large intense fires 
that overwhelm suppression efforts and eat up the wildfire suppression 
budget. The Forest Service has been clear that there is something we 
can do about it. I quote:

          Unlike other natural disasters such as earthquakes or 
        hurricanes, where the intensity of the natural event cannot be 
        influenced, the intensity of wildland/wildland-urban interface 
        fires can be reduced through responsible fuel management. Fuel 
        treatments can change fire behavior, decrease fire size and 
        intensity, divert fire away from high value resources, and can 
        result in reduced suppression costs. (Forest Service written 
        testimony on FY 2015 Budget)

    Fuel Treatments include (1) biological methods such as prescribed 
fire; (2) chemical use (herbicides); (3) mechanical thinning (using 
saw, tractors and other logging equipment to cut up and remove woody 
materials); (4) a combination of these methods. In high risk areas, 
though, some fuels must be removed mechanically to reduce fuel loading 
before it is possible to use prescribed fire.
    Doing fuel treatment work appears to be the one thing we can do to 
get a handle on the fire problem. With that in mind, it is my 
understanding that the Forest Service reports on the number of acres 
treated per year on the National Forest System, but it is unclear from 
the number what you are counting in terms of treatment method or 
whether these treatments are being done on actual acres that are at 
risk of wildfire.

    Question 8a. How many acres of National Forest System lands did the 
Forest Service treat in fiscal year 2013? Please break down that number 
according to the following:

  <bullet> Acres mechanically treated.
  <bullet> Acres mechanically treated using commercial timber harvest.
  <bullet> Acres treated with prescribed fire (please describe 
        specifically the number of acres treated with prescribed fire 
        that were wildfires burning within prescription, fires being 
        allowed to burn to achieve resource objectives, or acres burned 
        in back fires as part of suppression efforts).
  <bullet> Acres treated using other tools besides prescribed fire and 
        mechanical thinning. (describe the tools).

    Question 8b. Please provide a table that shows by national forest 
the number of acres treated using each of the treatment methods 
described above for fiscal year 2013.
Wildfire Cap Adjustment
    Question 9a. If budgeting and requesting 100 percent of the 10-year 
average isn't working and your suppression costs are exceeding those 
levels, why hasn't the Forest Service used a different method or 
forecast model to determine the budget request for suppression that 
might be more accurate?
    Question 9b. If a FLAME Act regression model were used to calculate 
your budget request for suppression, how much would you expect to have 
to budget? How does that compare with the 10-year average? What effect, 
if any, would this have on the rest of the Forest Service's 
discretionary budget?
    Question 9c. If a 5-year average were used to calculate your budget 
request for suppression, how much would you have to budget? How does 
that compare with the 10-year average? What effect, if any, would this 
have on the rest of the Forest Service's discretionary budget?
    Question 9d. Instead of requesting 100 percent of the 10-year 
rolling average, your budget proposal requests just 70 percent of it. 
This departs from the longstanding practice of the agency requesting 
the 10-year average and the appropriations committee providing that 
amount. How did you arrive at the 70 percent number?
    Question 9e. Is it the position of the Forest Service that simply 
exceeding 70 percent of the 10 year rolling average of suppression 
costs equals an emergency or as you are calling it a ``disaster?'' 
Please explain.
    Question 9f. In your reading of S.1875, the Wildfire Disaster 
Funding Act, would simply exceeding 70 percent of the 10-year rolling 
average of suppression costs trigger the wildfire cap adjustment?
    Question 9g. Is it the position of the Forest Service that a 
wildfire cap adjustment, like the one proposed in your budget, is 
necessary to prevent fire borrowing from non-fire accounts, why or why 
not? Please explain.
    Question 9h. One of the arguments being made in support of this 
proposal is that it will allow the agencies to fund more fire 
prevention activities in its program budget, including hazardous fuel 
reduction and forest restoration, because now you must only ask for 70 
percent of the 10-year average instead of 100 percent? So, for example 
in prior years, if the 10-year average was $1 billion, you requested $1 
billion. Now you will request only $700 million and the $300 million 
difference you claim will be used for forest management activities. Can 
you outline for me specifically how much of these newly freed up funds 
have been made available to the Forest Service through the cap 
adjustment and how you intend to spend it?
    Question 9i. In your reading of S.1875, the Wildfire Disaster 
Funding Act, is there any provision in the bill that would direct 
funding be spent on fire prevention activities, such as hazardous fuels 
reduction and forest restoration? Yes or no. If yes, please cite the 
provision.
Next Generation Airtankers
    It is my understanding that just two of the seven Next Generation 
airtankers are currently working. The two current vendors with 
contracts that did supply Next Gen airtankers on time in 2013 have 
since had four additional line items cancelled from their contracts. It 
is my understanding that the Forest Service is looking to advertise yet 
again for additional Next Gen airtankers this fall for flying in 2015.

    Question 10. Why is the Forest Service failing to offer the 
additional line items as per the contracts awarded to the two Next Gen 
vendors that are contract compliant?
    Question 11. How many gallons of retardant are dropped annually by 
the Forest Service, and do you have a strategy for delivering it more 
economically?
    Question 12. Do you believe there is an associated cost to the 
Forest Service, and by inference the taxpayer, to contracting large 
airtankers for single year contracts instead of five to ten year 
contracts?
    Question 13. Why are there still unmet contracts for Next Gen 
airtankers when there are proven, economical large airtankers without 
long term contracts?
    Question 14. At present, given the limited size of the Large 
Airtanker fleet and the unlikelihood of significant growth in the near 
term, is there anything the Forest Service can do to apply the concepts 
of force multiplication to the fleet you have currently?
Equipment and Firefighter Expenses
    Question 15. Can you tell me how much was expended last fire season 
on each of these categories of equipment and workers during fire 
suppression efforts? Please include base pay, overtime, hazard pay, and 
cost of benefits (including the cost of paying unemployment) in the 
total. as Also, please include the cost of transporting and housing the 
overhead and crews while dispatched from their home base.

    a) Fixed wing retardant aircraft;
    b) Fixed wing lead and infrared or fire detection aircraft;
    c) Helicopters by type I and type II;
    d) Bull dozers;
    e) Other support heavy equipment (pumper trucks, water trucks, 
buses, etc);
    f) Other firefighting equipment or tools ( chainsaws, shovels, 
pumps, radios etc) used during suppression efforts;
    g) Funds expended to pay for camp equipment and caterers etc.;
    h) Fire crews:

          1) Overhead;
          2) Smoke jumpers;
          3) Type one crews (hot shots);
          4) Type two crews;
          5) Contract crews (including reimbursement to state or local 
        fire);
          6) Any other type of crews;
          7) The cost of WO staff, regional office staff;, forest 
        supervisor staff, and District overhead working on fires during 
        the fire season.

Coast Guard Planes
    As a result of the 2014 Defense Authorization Act, you will receive 
seven older C-130 H model airplanes from the Coast Guard.

    Question 16. Can you tell me what work has been done so far and 
what remains to be accomplished to complete the transfer and get the 
planes on the line, fighting fire?
    Question 17. Does the Forest Service have the means to reduce unit 
costs, for acres treated or units of wood produced, on acres outside of 
Collaborative Forest Landscape Restoration project areas? Can you 
describe those to us?
           Questions for Thomas Tidwell From Senator Barrasso
    Question 1. Does either the Administration proposal or S. 1875 
contain language guarantying or specifying funds will be directed to 
any preventative projects such as hazardous fuels reduction?
    Question 2. Does either the Administration proposal or S. 1875 
contain providing legislative reforms aimed at streamlining active 
management and reducing litigation?
    Question 3. Can you describe in some detail the pilot efforts the 
Forest Service is engaged in to streamline NEPA compliance on larger 
landscapes? Which forests are involved? How many acres total? What are 
the expected outputs?
    Question 4. The Federal Excess Personal Property Program and the 
Firefighter Property Program are very important to rural communities' 
ability to fight fires. These programs account for 40% of the wildland 
firefighting equipment in Wyoming. I understand red tape and 
uncertainty over emissions regulations between the Department of 
Defense and the EPA has recently prevented state foresters from 
acquiring needed surplus military equipment.
    What is the Forest Service's role in ensuring this equipment is 
available and the issue is resolved to the satisfaction of the state 
foresters and governors?
    Question 5. I want to inquire about when the Forest Service will 
issue guidance for implementation of the expanded Good Neighbor 
Authority provided in the 2014 Farm Bill. At this point we've seen 
nothing to give the field units the direction to use this new 
authority, even though it was signed into law in February.
    Will National Forest System units be able to use the authority in 
Fiscal year 2015?
    Question 6. Can you explain why the three IRR pilot regions have 
the highest unit costs for each unit of wood produced? Incidentally, 
their unit costs go up even higher if you factor our personal use 
firewood, which accounts for up to 40% of the volume in the pilot 
regions. Why hasn't IRR reduced unit costs after 4 years of effort?
    Question 7. You're familiar with the mountain pine beetle epidemic 
that has killed millions of acres of trees in the national forests in 
Wyoming over the last 15 years. The beetle epidemic threatens our 
forests and creates the potential for catastrophic fires. There is a 
tremendous amount of work needed, including salvage of dead trees and 
thinning ahead of the beetles where the forests are still green. For 
the last two years, the State of Wyoming appropriated millions of 
dollars to help fight the beetle epidemic. Private industry has 
invested millions of dollars into infrastructure to help the Forest 
Service manage the national forests, especially the Medicine Bow and 
the Black Hills. The Forest Service timber sale program in Wyoming 
should be ramping up, not tapering off.
    What work is being done by the Forest Service to ensure that the 
national forests in Wyoming have the resources, tools, and expectation 
to respond to their full capacity to the mountain pine beetle epidemic 
in FY 15?
    Question 8. Last month, 37 members of Congress sent a letter to 
Secretaries Vilsack and Jewell on the issue of domestic sheep grazing 
allotments in bighorn sheep core areas. The Governors of Idaho, Utah, 
and Wyoming also recently sent a letter to Secretary Vilsack outlining 
their concerns with steps being taken by the Forest Service in Region 
4. Both letters stress the need for alternative allotments to be made 
available to permittees prior to removing domestic sheep from their 
current allotments.
    If relocation is needed, will you commit to making sure permittees 
have suitable alternative allotments, with an updated NEPA analysis in 
place prior to removing them from their current allotments?
            Questions for Thomas Tidwell From Senator Heller
    News reports earlier this month that discussed that some of the 
highest risks near power lines and critical infrastructure put some of 
our Northern Nevada communities and the neighboring communities in 
California at-risk for rolling blackouts.

    Question 1. What are your agencies doing to proactively mitigate 
the risk to critical infrastructure?
    Question 2. Can the agency mobilize fuel reduction quickly and 
proactively to treat high-risk areas where a fire could threaten rural 
communities or critical infrastructure, like power lines or our water 
delivery infrastructure?
    As you know, the U.S. Fish and Wildlife Agency is under a court 
order to make a listing determination on the Greater Sage-Grouse under 
the ESA by Sept. 2015. The responsibility of the health of Nevada's 
sagebrush ecosystem and rangeland-the critical habitat of the Greater 
sage-grouse-falls almost entirely on the federal land managers that 
control over 85% of the land in Nevada. While I understand the BLM and 
the U.S. Forest Service are in the process of making Resource 
Management Plan amendments to address threats to habitat, such as 
wildfire, I fear the further restriction of multiple-use of public 
lands instead of successfully dealing with wildfire, invasive species, 
predators, and other threats will not be sufficient to prevent a 
threatened or endangered listing of the sage-grouse under the 
Endangered Species Act.

    Question 3. How can we spur faster fuel reduction on lands 
identified as priority habitat for the sage-grouse? Not enough is being 
done to truly address wildfire threats to habitat and a listing of the 
sage-grouse will devastate the rural communities in my state.
    As you're aware, we have been working hard to find solutions to 
reimburse contractors and others who did legitimate work to reduce the 
risk of wildfires within the Tahoe Basin between 2010 and 2011. This 
work was done on behalf of the now-defunct Nevada Fire Safe Council. As 
it currently stands, the issue involves the OIG and Office of General 
Council, the mingling of funds, as well as bankruptcy proceedings. 
Since last year, my office, and others in the delegation, have 
attempted to work with the FS on getting our contractors, 
subcontractors, chiefs and others reimbursed for the work they 
accomplished and completed. In March of this year, the Lake Tahoe Basin 
Fire Chiefs provided a financial document of the unpaid debts of the 
Council for completed wildlife prevention projects. This has been 
presented to both the FS and the BLM.

    Question 1. Please provide a status update on these unpaid debts 
and how we can address this issue of reimbursement moving forward.
    Question 2. I would also like confirmation that we will continue to 
receive the federal support for fuels reduction in the Basin, and 
elsewhere, this fire season?
            Questions for Thomas Tidwell From Senator Flake
    Question 1. Can you explain the Forest Service's slow response to 
the loss of 56,000 of NEPA-ready acres in the Apache-Sitgreaves 
National Forest, and specifically what the Forest Service intends to do 
now to bridge the gap between expiration of the White Mountain 
Stewardship Contract and the second phase of the Four Forest 
Restoration Initiative? In short, what is the Forest Service doing to 
ensure that adequate material is available to allow private industry in 
Arizona to continue thinning the forests?
    Question 2. In your testimony, you indicate that the 
administration's wildfire budget proposal will allow the Forest Service 
"to stabilize and invest in programs that more effectively restore 
forested landscapes, treat forests for the increasing effects of 
climate change, and prepare communities in the WUI for future 
wildfires." Yet, at least one senior member of the Senate 
Appropriations Committee has indicated that the Committee could use the 
extra resources to fund "the Land and Water Conservation Fund, resource 
conservation and energy permitting." What guarantees are there in the 
administration's proposal that the Appropriations Committee would 
direct resources to address hazardous fuel reduction?
    Question 3. If the administration's wildfire budget proposal is 
effective and fire suppression costs are reduced over time, how does 
the reduction in suppression costs affect the 30% cap adjustment?
    Question 4. Is the 10-year average of wildfire suppression costs an 
accurate tool for estimating budgets?
    Question 5. If the 10-year average is not accurate, is there a 
better formula?
    Question 6. If there is not a better formula, will the Forest 
Service commit to developing a better budgeting formula?
    Question 7. Of the times when the Forest Service had to transfer 
funds from non-fire accounts over the last 10 years, how were those 
accounts repaid? That is, were those accounts repaid through 
supplemental appropriations, with an emergency provision, or as part of 
the 302(b) spending caps in a continuing resolution, or some other 
mechanism?
    Question 8. Were those accounts fully repaid?
    Question 9. If not, how much was not repaid?
    Question 10. In your testimony, you cite a Forest Service Missoula 
Fire Lab analysis from 2012 stating that the analysis ``showed 58 
million acres of National Forest System (NFS) lands with a high, or 
very high, potential for a large wildfire that would be difficult for 
suppression resources to contain.'' How many of those acres is the 
Forest Service planning to treat in the next 10 years under existing 
authorities?
    Question 11. Is the administration aware that in CBO's analysis of 
a similar wildfire budgeting proposal it concluded, ``[B]ecause the 
bills also would change the way that the disaster caps are calculated 
by taking into account certain funds appropriated for wildfire 
suppression, CBO expects that upward adjustments in the discretionary 
caps for wildfire suppression would probably exceed reductions in the 
caps for disaster relief relative to current law.''?
    Question 12. Will the Forest Service commit to working with 
Senators McCain, Barrasso, and myself on resolving this devastating 
fire borrowing problem, more accurately funding wildfire suppression, 
and committing resources to proactive forest restoration?
    Question 13. Has the Forest Service studied the impact of wildfires 
on climate change and endangered species?
    Question 14. How is the Forest Service studying the use of unmanned 
aerial systems or UAS and their ability to help fight wildfires?
    Question 15. In 2005, Congress passed the Northern Arizona Land 
Exchange and Verde River Basin Partnership Act of 2005 (Public Law No. 
109-110). Among other things, the law provided for the sale of 
approximately 237.5 acres of Forest Service land to Young Life. Despite 
Congressional direction on this specific topic, I now understand that 
the Forest Service is only offering to sell 213 acres to Young Life. 
Can you explain the reason for the decision to sell an amount different 
than what was in the legislation?
    Question 16. Did both parties, the Forest Service and Young Life, 
agree to this change?
    Question 17. Please provide a copy of the map entitled ``Yavapai 
Ranch Land Exchange, Younglife Lost Canyon'' dated August 2004.
            Questions for Thomas Tidwell From Senator Hoeven
    Question 1. As we discussed during the stakeholder meeting in my 
state, the Pautre Wildfire has affected several grazers and I urged you 
to use your authority to expeditiously move through the Tort Claim 
process so that grazers can receive appropriate compensation from 
losses due to a fire caused by the Forest Service. When can ranchers 
expect to receive reimbursements?
    Question 2. As you know, wildfires have always been common and 
widespread in North Dakota. On a broader scale, there are more than 
70,000 communities that we know are at risk from wildfire.
    Specifically, the State Fire Assistance and Volunteer Fire 
Assistance Programs are primary federal programs that assist 
communities to prepare for, and states and local fire departments to 
respond to, wildfires. We know that state and local resources are often 
the first to arrive at wildland fires, regardless of where they start-
national forests, BLM, private or state lands.
    How is your department focusing on helping communities prepare for 
wildfires in advance and bolstering state and local initial attack 
resources to help keep unwanted fires, and their costs, as low as 
possible?
    Question 3. As you know, I was a member of the Senate and House 
conference committee which worked to pass a long-term Farm Bill. 
Included in the bill are several important authorities for the Forest 
Service which I hope will help reduce the cost of managing forests. 
Specifically, we included authority for Stewardship Contracting, the 
Good Neighbor Authority, and the Insect & Disease Infestation 
provision.
    Can you speak to the role of each of these authorities in helping 
the Forest Service get more work done on the ground, work that is 
urgently needed to ensure long-term ecological, economic and social 
health of our forests, communities, and economies?
    Question 4. Given the importance of domestic energy production to 
our economy and national security, and recognizing that much of this 
new energy production is a result of the use of hydraulic fracturing 
and horizontal drilling, can you confirm that these two technologies 
are currently being used to produce energy in US forests? Do you think 
the Forest Service should ever categorically prohibit oil and gas 
activity, including the use of these two technologies?
              Questions for Dan Gibbs From Senator Manchin
    Question 1. What do think it may take to really get a handle on the 
massive issues facing forests across your state? You highlight the 
Healthy Forests Restoration Act and S. 1875 (Wyden-Crapo) as two 
important things. Do you have any other recommendations for us?
    Question 2. Do you have an opinion on the possible prioritization 
of fire-fighting and forest fuels reduction activities, possibly at the 
expense of other programs that the Forest Service and DOI agencies 
undertake?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                                     July 25, 2014.

Hon. Mary L. Landrieu,
Chair, U.S. Senate Committee on Energy and Natural Resources, 304 
        Dirksen Senate Building, Washington, DC,
Hon. Lisa Murkowski,
Ranking Member, U.S. Senate Committee on Energy and Natural Resources, 
        Washington, DC.
Re: Letter for the record, Wildfire Preparedness & Forest Service 2015 
Fiscal Year Budget hearing of July 15, 2014

    Dear Chair Landrieu and Ranking Member Murkowski,

    On behalf of our millions of members across the nation, we are 
writing to express our concerns regarding Senator McCain's S.2593, 
which was discussed during the July 15, 2014 hearing in the U.S. Senate 
Committee on Energy and Natural Resources. This bill undermines 
existing bipartisan efforts to resolve the longstanding funding crises 
caused by wildfire suppression and facilitates legislation to mandate 
prescribed logging levels for National Forests across the United 
States, while also waiving or severely undermining compliance with 
federal environmental laws and eliminating the public's ability to seek 
judicial review of logging projects that may damage their communities.
    While Title I--FLAME Act Amendments of S.2593 attempts to provide 
an additional path forward for addressing the growing costs of wildfire 
suppression on our nation's public lands, and appropriately 
acknowledges that existing FLAME funds have inadequately covered these 
rising costs, this Title is not clear on how it would improve funding 
of wildfire suppression without continuing to burden existing 
appropriations to the Department of Interior (DOI) and U.S. Department 
of Agriculture's U.S. Forest Service (USFS). In sum, Title I does not 
sufficiently resolve the wildlfire funding crisis caused by fire 
borrowing, and appears to maintain this funding burden on existing 
limited program budgets. Further, the legislation lacks clear direction 
on when and how to access a funding Disaster Cap, which could be 
supplemental to existing appropriations to address wildfire funding.
    As you know, the bipartisan Wildfire Disaster Funding Act (WDFA) 
(S.1875) seeks to improve the way the U.S. Forest Service and 
Department of the Interior funds the response to emergency fires. This 
legislation, unlike S.2593 seeks a clear, tangible, and budget neutral 
solution. Currently, USFS and DOI are the only agencies required to pay 
for natural disaster response out of their annual discretionary 
budgets. Since 2000, these agencies have consistently run out of money 
to fight emergency fires, eight out of the last 13 years. In the last 
two years alone, more than $1 billion was ``borrowed'' from other USFS 
programs to cover the costs of fire suppression. The depletion of non-
suppression programs within USFS and DOI halts important land 
management activities that could help reduce fire risk and suppression 
costs in the future.
    In May 2014, a DOI report, as required by the FLAME Act of 2009, 
projected the median cost of fighting fires at nearly $1.8 billion this 
year, which is more than $460 million over the USFS and DOI fire 
budgets. We need a balanced approach to fire suppression, and the WDFA 
is a responsible and stable budgeting bill. Federal agencies must be 
provided the tools and resources to successfully fight fire, this 
season and always, to ensure the long-term health and sustainability of 
our nation's forests. Unfortunately, Title I of S.2593 does not get us 
there in its current form.
    In addition, Title II--Forest Treatment Projects of S.2593 is 
reflective of Senator Barrasso's S.1966, but now applies nationwide, 
rather than to states only West of the 100th meridian. A more detailed 
analysis of the provisions included in Title II, as they are in S.1966 
is in the attached Appendix A. However, our organizations oppose Title 
II because it:

  <bullet> Eliminates environmental safeguards.--This title waives or 
        severely undermines with important environmental protections, 
        like the National Environmental Policy Act (NEPA), the 
        Endangered Species Act (ESA), and years of collaboratively 
        developed land management plans under the National Forest 
        Management Act and Forest and Rangeland Renewable Resources 
        Planning Act.
  <bullet> Damages watersheds and pollute drinking water.--
        Industrialization of public lands through Title II of S.2596 
        will damage watersheds and pollute drinking water, putting our 
        drinking water supply at risk, as over 50% of fresh water 
        supplies in the West come from federal forests. Intensive 
        logging and other extractive practices dumps sediment into 
        rivers, which can increase costs for local water utilities, 
        cause erosion, and can alter the timing of water 
        availability.\1\
---------------------------------------------------------------------------
    \1\ Restoring watersheds where possible from destructive logging 
can cost taxpayers--including counties--hundreds of millions of dollars 
a year in lost revenues and vital ecosystem services. For example, in 
1996, Salem, Oregon was forced to spend nearly $100 million on new 
water treatment facilities after logging fouled the Santiam River with 
mud and silt. Salem is not alone; up to 124 million people nationwide 
receive drinking water from national forest watersheds, with an 
estimated $4 to $27 billion annual value.
---------------------------------------------------------------------------
  <bullet> Harms businesses and jobs that depend on our forests.--The 
        outdoor recreation industry directly supports 6.1 million jobs 
        and contributes over $646 billion annually to the US economy, 
        including $39.7 billion to state/local revenues.\2\ Damaging 
        these resources will directly impact outdoor-related businesses 
        that generate revenue for counties and employ a range of 
        skilled workers including sport and commercial fisherman, 
        hunters, and anglers. A recent USFS' annual visitor survey 
        showed that national forests attracted 166 million visitors in 
        2011, and that visitor spending in nearby communities sustained 
        more than 200,000 full-and part-time jobs.
---------------------------------------------------------------------------
    \2\ Outdoor Industry Association, THE OUTDOOR RECREATION ECONOMY 
(2012), available at http://www.outdoorindustry.org/images/
researchfiles/OIA_OutdoorRecEconomyReport2012.pdf?167.
---------------------------------------------------------------------------
  <bullet> Liquidates our natural heritage and does not address county 
        funding.--We understand and sympathize with the tight budgets 
        that many local governments are facing. However, this 
        shortsighted proposal may cost taxpayers more than the revenue 
        it generates. It would reestablish the discredited county 
        revenue sharing scheme that was eliminated over a decade ago 
        because of the disastrous economic and ecological impacts it 
        had. It also abandons our nation's vision of and commitment to 
        a strong system of national safeguards to preserve our natural 
        heritage.
  <bullet> Senseless economics.--Increased federal expenditures may be 
        required in order for the USFS to comply with and implement 
        Title II's requirements to offer for harvest up to 25% of each 
        National Forest's ``Logging Emphasis Areas.'' Moreover, it 
        fails to provide a long-term, sustainable funding solution for 
        our rural communities, and will likely result in counties 
        receiving far less in annual payments that they have received 
        under the Secure Rural Schools program, the current law that 
        provides direct payments to counties without mandated logging 
        requirements.

    Thank you for your consideration of these and like concerns 
regarding S.2593. We understand and appreciate the committee's 
commitment to addressing major concerns regarding wildfire funding, as 
expressed in the July 15, 2014 Senate Energy and Natural Resources 
hearing. However, S.2593 does not sufficiently address or support real 
solutions to this crisis, and instead acts as a distraction to this 
pressing funding issue. Instead, we support moving WDFA forward, as a 
real, bipartisan opportunity to resolving the wildfire funding crisis 
this year and in perpetuity.
            Sincerely,
                                              Athan Manuel,
      Director of the Public Lands Protection Program, Sierra Club,
                                              Alan Rowsome,
 Senior Director of Government Relations for Lands, The Wilderness 
                                                           Society,
                                         Mary Beth Beetham,
           Director of Government Relations, Defenders of Wildlife,
                                             Martin Hayden,
              Vice President, Policy and Legislation, Earthjustice.
                               Appendix A
        s. 1966, senator barrasso's national forest logging bill
    This bill mandates legislatively prescribed logging levels for each 
National Forest across most of the western United States, while also 
waiving or severely undermining compliance with federal environmental 
laws and eliminating the public's ability to seek judicial review of 
logging projects that may damage their communities. Legislative timber 
harvest prescriptions are in direct contravention of the multiple use 
mandate of the Forest Service, whose land managers must set out--
pursuant to locally and collaboratively-developed management plans--how 
best to manage each individual forest for not only timber production, 
but also the many vital benefits these lands provide, such as clean 
drinking water, fish and wildlife habitat, and hunting, fishing, 
hiking, and other recreational opportunities that support a multi-
billion dollar outdoor industry critically important to rural 
communities and regional economies.
    S. 1966 also strives to reinstate the discredited system of linking 
logging to revenue for counties. This volatile and unreliable resource 
extraction model was eliminated over a decade ago with the bipartisan 
passage of the Secure Rural Schools and Community Self-Determination 
Act of 2000 (otherwise known as ``Secure Rural Schools'' or ``SRS''). 
S. 1966 could decimate our western National Forests for special 
interests without addressing the true, long-term needs of rural 
communities.
    Just this past September, the Administration echoed these 
sentiments when it issued a strong veto threat against similar national 
forest legislation in House bill H.R. 1526. The September 18, 2013 
Statement of Administration Policy made clear that the ``Administration 
does not support specifying timber harvest levels in statute, which 
does not take into account public input, environmental analyses, 
multiple use management or ecosystem changes'' and that it strongly 
opposes because of ``numerous harmful provisions that impair Federal 
management of federally owned lands and undermines many important 
existing public land and environmental laws, rules and processes,'' 
which could ``significantly harm sound long-term management of these 
Federal lands for continued productivity and economic benefit as well 
as for the long-term health of the wildlife and ecological values 
sustained by these holdings.''\3\
---------------------------------------------------------------------------
    \3\ See http://www.whitehouse.gov/sites/default/files/omb/
legislative/sap/113/saphr1526r_20130918.pdf.
---------------------------------------------------------------------------
                          bullet point summary
Sec. 4(a): Legislatively Prescribes Logging Levels
  <bullet> Mandates a minimum of 7.5 million acres be logged from 
        national forests in the West during a 15-year period and gives 
        the Secretary of Agriculture sole discretion to establish a 
        much higher level, including up to 25% of each unit's Emphasis 
        Areas. Final logging levels are almost completely immune from 
        review or challenge. Science not politics should dictate 
        logging levels, and the public should be able to weigh in on 
        major decisions like how many millions of acres of national 
        forest land can be logged across the west.
  <bullet> Authorizes the Secretary of Agriculture to conduct logging 
        projects in ``Forest Management Emphasis Areas'' in each 
        National Forest unit west of the 100th meridian--this impacts 
        national forests in portions of North Dakota, South Dakota, 
        Nebraska, Oklahoma, and Texas, and all national forests in 
        Montana, Wyoming, Colorado, New Mexico, Washington, Oregon, 
        Idaho, California, Nevada, Utah, Arizona, and Alaska
  <bullet> ``Emphasis Areas'' are defined as any national forest land 
        ``identified as suitable for timber production in a forest 
        management plan in effect on the date of enactment''--forest 
        plans that are revised after the bill's enactment can only 
        reduce the number of acres designated as suitable for timber 
        harvest if the Secretary of Agriculture determines that it will 
        jeopardize an endangered species (section 4(d)). This provision 
        would completely bar the Forest Service from considering water 
        quality issues, pollution, climate change and other wildlife 
        aspects of forest health in determining logging levels.
  <bullet> Only areas that are excluded from ``Logging Emphasis Areas'' 
        are designated wilderness and areas where removal of vegetation 
        is specifically prohibited by federal law--exemptions do not 
        include wilderness study areas, old growth, or other 
        conservation lands, including ecologically sensitive areas 
        unsuitable for harvest that aren't reflected in yet-to-
        beupdated forest management plan
  <bullet> Within 60 days of enactment, Secretary must assign logging 
        requirements (referred to as ``acreage treatment 
        requirements'') that covers up to 25% for each Emphasis Area
  <bullet> Limits Stewardship and Service contracts, as the bill 
        requires that logging projects must be carried out primarily 
        pursuant to the timber sale contracting provision of the 
        National Forest Management Act (16 U.S.C. 472a)--if different 
        contracting methods are used, such as stewardship contracting, 
        the USDA Secretary must provide a written record specifying the 
        reasons
  <bullet> In direct contravention of the National Forest Management 
        Act's requirement that designation, marking, and supervision of 
        harvesting of trees must be conducted by USDA employees in 
        order to avoid having a conflict of interest in the purchase or 
        harvest of such products (see 16 U.S.C. 472a(g)), the bill 
        allows the Secretary to designate this authority to outside 
        parties such as the timber industry
Sec. 4(b): Limits Environmental Review and Public Participation
  <bullet> Secretary shall comply with NEPA by only completing an 
        Environmental Assessment (EA), even if a more comprehensive 
        review and an Environmental Impact Statement (EIS) are 
        warranted
  <bullet> EA only has to disclose and analyze the direct effects of 
        each covered project (barred from analyzing the cumulative 
        impacts or indirect effects of covered projects for that 
        national forest unit)
  <bullet> EA is also not required to study or describe more than the 
        proposed action and 1 additional alternative
  <bullet> EA can't exceed 100 pages in length and must be completed 
        within 180 days of published notice of logging project
  <bullet> Secretary must provide public notice of a covered project 
        and allow opportunity for public comment--no time period is 
        given but given that EA must be completed within 180 days of 
        public notice, comment period will presumably be very short
Sec. 4(c): Waives ESA Consultation
  <bullet> Rather than having to comply with ESA's section 7 
        requirements to consult with expert wildlife officials from the 
        U.S. Fish and Wildlife Service, the bill requires USDA to only 
        consult within its own staff on the Forest Service to make 
        potential wildlife jeopardy determinations resulting from 
        covered logging projects
  <bullet> This ``self-consultation'' is not consultation at all and 
        essentially waives compliance with the ESA
  <bullet> USDA is also given authority to make jeopardy determinations 
        regarding timber harvest levels--while the bill does call for 
        consultation with DOI on this one issue (see section 4(d)), it 
        appears to move the determination about jeopardy to USDA, a 
        complete shift from current practice and wholly contrary to 
        ESA's requirements that call for US FWS to make the 
        determination as to when something will or will not jeopardize 
        an endangered species
Sec. 5: Eliminates Judicial Review and Sets up Biased Arbitration 
        Process
  <bullet> Citizens can only seek administrative review of a covered 
        project pursuant to the limited administrative review process 
        under section 105 of the Healthy Forests Restoration Act of 
        2003
  <bullet> Public's ability to seek judicial review of harmful logging 
        projects is waived
  <bullet> Instead, a special arbitration process (that must be 
        completed within 90 days) is the ``sole means'' by which to 
        challenge a decision made following the special administrative 
        review process
  <bullet> Request for arbitration must be filed within 30 days after 
        the administrative review decision is issued and objector must 
        include a proposal containing changes sought to the covered 
        project (changes could include making the project larger and 
        more damaging)
  <bullet> Arbitration process would allow anyone who submitted a 
        public comment on the project to intervene in the arbitration 
        by submitting a proposal supporting or modifying the covered 
        project (which could include making the project larger and more 
        damaging) within 30 days of arbitration request
  <bullet> United States District Court in the district where project 
        is located must appoint the arbitrator
  <bullet> Arbitrator cannot modify any of the proposals submitted 
        under this section and must select a proposal submitted by the 
        objector or an intervening party--arbitrator must select the 
        proposal that best meets the purpose and needs described in the 
        Environmental Assessment for the project (which biases the 
        decision toward the proposal that allows the logging project or 
        even a potentially more harmful project to be carried out)
  <bullet> Arbitrator's decision is binding, shall not be subject to 
        judicial review, and shall not be considered a major Federal 
        action (which would foreclose additional NEPA review even if an 
        objector or intervenor's new proposal is selected that has 
        additional impacts not previously analyzed and disclosed in the 
        Environmental Assessment for the original project)
Sec. 6: Sets up Revenue Sharing System Linked to Commodity Extraction
  <bullet> Provides that 25% of the revenues derived from covered 
        projects will be distributed to counties
  <bullet> Reestablishes the discredited 25 percent revenue sharing 
        system that was eliminated over a decade ago with the creation 
        of Secure Rural Schools (SRS) program, which provides direct 
        payments to counties without linking to timber receipts
  <bullet> Allows some counties to ``double dip'' since in addition to 
        the 25% revenue sharing payments that counties would receive 
        from covered projects under S. 1966, some counties would still 
        also receive their payments under the Twenty-Five Percent Fund 
        Act of 1908
                                 ______
                                 
                                                     July 18, 2014.

Hon. Mary Landrieu,
Chairman, U.S. Senate Committee on Energy & Natural Resources, 304 
        Dirksen Senate Building, Washington, DC,
Hon. Lisa Murkowski,
Ranking Member, U.S. Senate Committee on Energy and Natural Resources, 
        Washington, DC.
    Dear Chairman Landrieu and Ranking Member Murkowski,

    The Wilderness Society appreciates the Committee's interest in 
addressing budgetary problems relating to the Forest Service's fire 
management funding, as were discussed at the July 15 hearing on 
Wildfire Preparedness and the Forest Service Fiscal Year 2015 Budget. 
Please include these comments regarding S. 1875 and S. 2593 in the 
hearing record.
                               background
    Extreme droughts and climate change have produced longer fire 
seasons and larger wildfires in much of the West. However, federal 
funding has not kept pace with need and the increased costs of fighting 
or preventing these fires. Robbing Peter to pay Paul, the Forest 
Service has had to ``borrow'' funds from other key programs, including 
fuels management and recreation, in order to cover the costs of 
firefighting that exceed the amount appropriated by Congress. The 
Forest Service predicts that this fire season will cost half a billion 
dollars more than they have on hand. In this fiscal climate, it is 
impossible to transfer such a significant amount of resources away from 
other programs in the height of the summer field work and recreation 
season without seriously compromising management of our national 
forests.
    In 1991, the cost of wildfire management represented 13 percent of 
the U.S. Forest Service budget--today it consumes nearly 50 percent. 
For years the Forest Service has had to borrow billions of dollars from 
critical conservation programs to fund wildfire suppression because 
Congress has not allocated enough funding. The Forest Service has then 
had to depend on Congress to pass emergency supplemental funding bills 
to repay the programs that were raided. The current fire funding system 
has been debilitating to the Forest Service, frustrating to the public 
and many businesses that use our national forests, and has exacerbated 
the already intensified wildfire season.
                                s. 1875
    The Wilderness Society strongly supports S. 1875, the Wildfire 
Disaster Funding Act of 2013, co-sponsored by Senators Wyden and Crapo. 
This bill provides a bipartisan, budget-neutral mechanism for Congress 
to budget responsibly for fighting wildfires, in the same way Congress 
budgets for all other natural disasters.
    S. 1875 would fund a portion of the Forest Service's and Interior 
Department's wildfire suppression costs through a budget cap adjustment 
similar to the cap adjustment currently in use by the Federal Emergency 
Management Agency under the Balanced Budget and Emergency Deficit 
Control Act of 1985. Fighting wildfires would be funded with the same 
mechanism currently used to combat all other natural disasters. This 
bill will not change federal fire suppression policies or strategies 
and will not change the cost of fire suppression, and thus the 
Congressional Budget Office has reported that it would have a neutral 
impact on federal spending in the fiscal year 2015 federal budget. The 
Act would provide a reliable funding structure, allowing us to address 
catastrophic wildfires as the natural disasters they truly are.
                                s. 2593
    We have serious concerns about portions of S. 2593, the FLAME Act 
Amendments of 2014, co-sponsored by Senators McCain, Barrasso, and 
Flake. In particular, we strongly oppose `Title II--Forest Treatment 
Projects' because we believe it poses a serious threat to environmental 
stewardship, public involvement, wildlife conservation, and the rule of 
law in our national forests. Title II is virtually identical to 
language in S. 1966, Senator Barrasso's ``National Forest Jobs and 
Management Act,'' which was introduced on January 28 and was the 
subject of a SENR Committee hearing on February 6.\1\
---------------------------------------------------------------------------
    \1\ The Wilderness Society submitted detailed comments on S. 1966 
for the record of the February 6 hearing.
---------------------------------------------------------------------------
    First, the Forest Treatment Projects title of S. 2593 is aimed at 
increasing timber production, not at reducing fuels and fire risk. 
Reflecting S. 1966's objective to ``create a sustainable wood supply'' 
from the national forests, the bill directs the Forest Service to 
emphasize sawtimber and pulpwood outputs. Title II makes no mention of 
fuel or fire risk reduction as a desired outcome of the required 
commercial logging.
    Second, S. 2593 would hamper the Forest Service's ability to 
accomplish forest restoration and multiple-use management by giving the 
agency a legal mandate to achieve the bill's ambitious commercial 
logging targets. The bill's legally binding mandate to conduct 
mechanical treatments on 7.5 million acres in 15 years--nearly three 
times more than current treatment levels--could exacerbate the fire-
borrowing problem by requiring the Forest Service to divert resources 
away from non-commercial fuels work and all other environmental 
stewardship activities in the national forests.
    Third, S. 2593 would increase public controversy and environmental 
conflicts by establishing more than 40 million acres of ``Forest 
Management Emphasis Areas'' in the national forests. The designated 
timberlands potentially include forests located in Inventoried Roadless 
Areas, Northwest Forest Plan Late Successional Reserves, and other 
sensitive lands that have been administratively protected for more than 
a decade. The bill would also prohibit the Forest Service from reducing 
the amount of suitable timberlands through revisions of local forest 
plans unless necessary to avoid jeopardizing an endangered species, 
thereby limiting management options available to the agency and the 
public in the planning process.
    Fourth, S. 2593 would short-cut public participation and 
environmental review by weakening requirements of the National 
Environmental Policy Act (NEPA). The bill specifies that Forest Service 
environmental assessments would only be required to consider the 
``direct environmental effects'' of each project, implying that 
indirect and cumulative effects analysis normally required under NEPA 
would no longer be done. The bill also specifies that the Forest 
Service is only required to evaluate the proposed agency action and one 
alternative, rather than a range of alternatives normally considered in 
environmental impact statements.
    In addition, the bill apparently would eliminate the interagency 
consultation process required by Section 7 of the Endangered Species 
Act as applied to the bill's ``covered projects.'' Rather than 
consulting with the U.S. Fish and Wildlife Service, the bill provides 
that Forest Service professional staff members will make the 
determinations required by Section 7 of the ESA, presumably including 
the key determination that a covered project will not jeopardize the 
continued existence of a threatened or endangered species.
    Finally, we are very concerned about the bill's proposal to 
establish a pilot program authorizing the use of an arbitration process 
and eliminating the opportunity for judicial review of covered 
projects. The proposed arbitration process provides no means to ensure 
that the Forest Service is actually following environmental laws--i.e. 
it would authorize ``logging without laws.'' The arbitrator would not 
be able to consider and rule on the legal adequacy of the process by 
which the agency arrived at its decision. Conceivably, a local district 
ranger and forest supervisor could entirely skip normal public 
involvement and Endangered Species Act requirements in order to achieve 
their legally-mandated mechanical treatment targets.
    In conclusion, The Wilderness Society strongly supports S. 1875 and 
adamantly opposes the Forest Treatment Projects title of S. 2593.
            Sincerely,
                                           Alan H. Rowsome,
                 Senior Director of Government Relations for Lands.

                            [all]
                            

      
</pre></body></html>
